<html>
<title> - PROJECT 28: LESSONS LEARNED AND THE FUTURE OF SBINET</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
          PROJECT 28: LESSONS LEARNED AND THE FUTURE OF SBINET

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                and the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2008

                               __________

                           Serial No. 110-97

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
44-137 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

Jane Harman, California              Mark E. Souder, Indiana
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
James R. Langevin, Rhode Island      Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Mike Rogers, Alabama
Al Green, Texas                      Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman

Peter A. DeFazio, Oregon             Mike Rogers, Alabama
Yvette D. Clarke, New York           Michael T. McCaul, Texas
Ed Perlmutter, Colorado              Candice S. Miller, Michigan
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight:
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Jayson P. Ahern, Deputy Commissioner, Customs and Border 
  Protection, Department of Homeland Security, Accompanied by Mr. 
  David V. Aguilar, U.S. Border Patrol, Customs and Border 
  Protection, Department of Homeland Security, and Mr. Gregory 
  Giddens, Executive Director, Secure Border Initiative, Customs 
  and Border Protection, Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Mr. Richard M. Stana, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Roger A. Krone, President, Network and Space Systems, 
  Integrated Defense Systems, The Boeing Company:
  Oral Statement.................................................    30
  Prepared Statement.............................................    33

                                Appendix

Questions From Chairwoman Loretta Sanchez and Chairman 
  Christopher P. Carney for Jayson P. Ahern......................    63
Questions From Ranking Member Mark E. Souder for Jayson P. Ahern.    64
Questions From Chairwoman Loretta Sanchez and Chairman 
  Christopher P. Carney for David V. Aguilar.....................    64
Questions From Ranking Member Mike Rogers for David V. Aguilar...    65
Questions From Chairwoman Loretta Sanchez and Chairman 
  Christopher P. Carney for Gregory Giddens......................    66
Questions From Ranking Member Mark E. Souder for Gregory Giddens.    69
Questions From Ranking Member Mike Rogers for Gregory Giddens....    70
Questions From Chairwoman Loretta Sanchez and Chairman 
  Christopher P. Carney for Richard M. Stana.....................    71
Questions From Ranking Member Mike Rogers for Richard M. Stana...    74
Questions From Chairwoman Loretta Sanchez and Chairman 
  Christopher P. Carney for Roger A. Krone.......................    75
Questions From Ranking Member Mark E. Souder for Roger A. Krone..    77
Questions From Ranking Member Mike Rogers for Roger A. Krone.....    78


          PROJECT 28: LESSONS LEARNED AND THE FUTURE OF SBINET

                              ----------                              


                      Wednesday, February 27, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
         Counterterrorism, and Subcommittee on Management, 
                             Investigations, and Oversight,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:09 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Thompson, Sanchez, Carney, 
Lofgren, Jackson Lee, Cuellar, Clarke, Perlmutter, Pascrell, 
Jr., Souder, and Rogers.
    Ms. Sanchez [presiding.] The subcommittee will come to 
order.
    The Subcommittee on Border, Maritime, and Global 
Counterterrorism and the Subcommittee on Management, 
Investigations, and Oversight are meeting today to receive 
testimony on ``Project 28: Lessons Learned and the Future of 
SBInet.''
    Good morning to you all.
    Today, we are holding the third hearing in a series of 
hearings that we have had to examine the Department of Homeland 
Security's secure border initiative and, specifically, Project 
28.
    Thank you to our witnesses once again for you being here 
today.
    Your testimony and responses to our questions are critical 
parts of the oversight of our subcommittees, which we continue 
to perform on the secure border initiative and Project 28.
    As you all know, we have many questions about the 
operations and the success to date to SBInet and the program.
    I am particularly concerned about SBInet program's ongoing 
struggle with transparency. We need the Department and Customs 
and Border Protection to be open and forthcoming about the 
plans, the goals and the progress of this critical program, 
because, as you know, Americans are asking what are we doing at 
the border, and they have a right to know and we on this 
committee have a right to know.
    We have a right to know the truth. What are the problems? 
What are the successes?
    In June, we received testimony that SBInet's Project 28 was 
on time for delivery 6 days before the date it was supposed to 
be operational. But as you know, just a day later, we received 
a letter in this committee that said it was not going to be 
ready.
    Now, after the Department has accepted Project 28 8 months 
late, we are hearing that it was never intended to be 
operational, despite many assertions, especially before this 
committee, by the Department and by Boeing in the early stages 
of Project 28.
    So I have been very disappointed by the lack of 
transparency, and I hope that this will improve in the future 
stages of SBInet so that, in fact, we can feel comfortable in 
talking to Americans about what is going on at the border and 
how we are protecting them.
    I would like to thank my Ranking Member, Mr. Souder, for 
his interest in this project.
    I would also like to thank Chairman Carney and Ranking 
Member Rogers for their interest in the program today.
    I look forward to a productive hearing today, providing us 
an overlook of what the Department intends to do now that it 
has accepted this piece of SBInet.
    Thank you.
    I now recognize Mr. Souder for some comments.
    Mr. Souder. Thank you, Chairwoman Sanchez and Chairman 
Carney, for holding this joint subcommittee hearing.
    This is our third hearing on Project 28 and SBInet during 
the 110th Congress, and it builds on the work from the last 
Congress, from the legacy border technology programs and 
fencing requirements.
    I have made no point to hide my frustration at the long 
delays and technology problems witnessed in Project 28. I will 
not repeat myself at this time, other than to express the 
importance of testing software and hardware before deployment 
in the field and the need to incorporate lessons learned from 
DOD force protection overseas, when they have already 
encountered many of the same challenges, including radar 
clutter, sand and high winds.
    I do think that it is extremely important for the committee 
to see Project 28, especially now that it has been accepted by 
the Department, being used operationally by the Border Patrol 
last week. Republican Members submitted a travel requesting 
asking that a bipartisan site visit be scheduled for Project 
28, and I ask unanimous consent that it be included in the 
hearing record.
    I am pleased that Chairwoman Sanchez agrees with this, and 
we hopefully can get this coordinated in the not-too-distant 
future.
    Today, I look forward to receiving an update on the status 
of Project 28, improvements that have been made to allow DHS to 
formally accept the project last Thursday, and the timeline for 
moving forward with additional technology and fencing in order 
to gain operational control over the border.
    Ultimately, we need both physical barriers to slow illegal 
entry, and then we need electronics to identify and track 
criminals seeking to circumvent the barriers.
    Additional Border Patrol agents, 18,000 by the end of 2008 
and 20,000 by the end of 2009, are essential for response and 
deterrent capabilities, but we need to support them with 
infrastructure and technology.
    We are now 6\1/2\ years past the terrorist attacks in 2001, 
and we still have a long way to go before the border is secure. 
With the exception of P-28, the Department needs to present a 
scheduled for adding both infrastructure and technology along 
the southwest border and present plans for the northern border.
    Last week, I was in Texas for the entire week, and it is 
obvious that, I believe, in some places, the physical border 
proposals need to be expanded, but we cannot put physical 
barriers on most of this border. The fact is sometimes you 
might have a fence, but you will have 20 miles of mesquite 
trees behind it.
    If you had a fence and they get over, you are going to lose 
them anyway.
    So we have to get plans in place for how we are going to 
extend not only the physical barriers, but the electronic 
barriers, and what the pattern is and what the costs are going 
to be so we can realistically analyze how we are going to 
tackle this.
    We have huge open areas. The route that we took from Laredo 
to El Paso, even as a bird flew, is the equivalent of driving 
from Indianapolis to Denver.
    It isn't just a straight border. It is a curvaceous border. 
Thirteen percent of the border is in Big Bend National Park and 
another part in Lake Amistad, which has 180 bass tournaments. 
They have all these bass fishermen out there in the vastness of 
the plains.
    We have some checkpoint stations and then we need to have 
the mobile stations beyond those, because people try to move 
around those checkpoints. But ultimately, you have to have 
sufficient electronics not only precisely at the border, but as 
they are moving through.
    We can't afford the kind of delays we had on Project 28 as 
we move forward in trying to do this, because they are going to 
find the holes in our system, and the holes right now are 
hundreds of miles, not just here and there, a little spot where 
you can move.
    The continued challenges and delays in placing technology 
and infrastructure along the border highlight the need for this 
committee to continue to be involved and conduct oversight.
    I think this is also an area that places a spotlight on the 
need for an authorization bill to allow Congress to insert some 
firm milestones, performance measures, and requirements.
    I ask both Chairs to work with us on a bipartisan bill to 
address these and other issues facing the Department.
    Given the importance of the topic and the number of 
questions that I have, I am going to end my statement with the 
request and welcome the witnesses.
    I look forward to your testimony.
    I yield back the balance of my time.
    Ms. Sanchez. Now the Chair recognizes the Chairman of the 
Management, Investigations and Oversight Subcommittee, the 
gentleman from Pennsylvania, for an opening statement.
    Mr. Carney. Thank you, Madam Chairwoman.
    Before I get down to business here, I would like to state 
my disappointment with DHS for getting their testimony to us so 
late in the day yesterday.
    I understand there is some confusion over at DHS about the 
witnesses, but that is still no excuse for the testimony being 
so late.
    That said, I would like to thank Chairwoman Sanchez, as our 
respective subcommittee staffs have worked jointly to 
investigate Project 28.
    I look forward to our continuing work on the issue.
    Project 28 and the larger SBInet program were supposed to 
be a model of how the Federal Government is leveraging 
technology to secure our borders.
    But Project 28, in my mind, has achieved a dubious 
distinction as a trifecta of bad Government: bad Government 
contracting, poor contractor performance, and poor final 
product.
    I know some of our witnesses have testified before one or 
both of these subcommittees in the past and I appreciate your 
willingness to return. Some would say you are true gluttons for 
punishment, but I am thankful for your continued cooperation as 
we continue to examine where mistakes were made and what can be 
done to prevent them from happening in the future.
    As the pieces of SBInet are developed and ultimately put 
into use, we must remember the hard-learned lessons of P-28. I 
am still wondering why Secretary Chertoff allowed the 
Department to take final acceptance of P-28 last week.
    From everything that I have heard over the last several 
weeks, while P-28 could be headed in the right direction, it is 
far from acceptable.
    Yet, the Department is finally acknowledging P-28's 
problems, when they briefed me in private, and I am 
disappointed that their public statements are so disconnected 
with reality.
    Over the weekend, I expressed my concern about P-28's 
acceptance. A DHS spokeswoman responded by attacking me and 
clinging to the fantasy that all is well with P-28, saying 
``Those who choose to criticize without seeing the technology 
firsthand are merely bystanders of the product and have no idea 
how hard our Border Patrol is working to keep America safe. We 
would not have accepted it if it didn't work.''
    Well, first, I have seen P-28 in person and walked along 
the Sasabe border. Second, I know how hard the Border Patrol is 
working to keep America safe. Not just because of the time I 
spent with them last month. I have spent a lot of time studying 
this project, the issues surrounding Border Patrol and their 
staffing, and I know how hard they work.
    Third, no less an authority than Acting Deputy Secretary 
Schneider has quite candidly told me that P-28 does not do what 
DHS expected it to do.
    The Department's press flacks may want to do a little 
research, both about which Members have been to P-28 and what 
their bosses think of the project itself, before making such 
statements.
    When I was in the Tucson sector, sitting in the ops center 
and watching the COP with the Border Patrol, P-28 wasn't 
working as promised. It was about 7 months past the actual due 
date, and it still wasn't working. Now we are 9 months past 
due, and it is still not working properly.
    I am glad that Boeing has decided to spend their own money 
to try and iron out some of the myriad problems the system has 
experienced. But I am still not convinced we have gotten what 
we were supposed to get.
    Maybe, as DHS likes to say, my expectations weren't managed 
well enough, and I suppose that is not Boeing's fault or their 
responsibility. But had P-28 been developed in an ideal world, 
Boeing wouldn't have to have to play such a large role in 
writing their own contract specs.
    Border Patrol would have had input into the design of the 
system, and DHS wouldn't have accepted the system until it 
worked like the Border Patrol wanted it to.
    I appreciate the forthrightness that I have heard from 
Acting Deputy Secretary Schneider and Mr. Krone over the past 
few weeks, and I hope and expect we will see the same candor 
during our questioning this morning.
    Also, I would like to give you all a heads-up that Chairman 
Thompson has directed us to keep a close tab on SBInet as it 
develops. So you can expect to hear from us very soon again.
    I thank you for appearing before us today and I look 
forward to the questions.
    Thank you, Madam.
    [The statement of Chairman Carney follows:]

          Prepared Statement of Chairman Christopher P. Carney
                           February 27, 2008

    Before I get down to business, I'd like to state my disappointment 
with DHS for getting their testimony to us so late in the day 
yesterday. I understand there was some confusion over at DHS about 
witnesses, but there's still no excuse for the testimony being so late.
    That said, I'd like to thank Chairwoman Sanchez as our respective 
subcommittee staff has jointly investigated Project 28. I look forward 
to our continued work on this issue.
    P-28 and the larger SBInet program are supposed to be a model of 
how the Federal Government is leveraging technology to secure our 
borders, but Project 28, in my mind, has achieved a dubious distinction 
as a trifecta of bad Government contracting: (1) Poor contract 
management; (2) poor contractor performance; and (3) a poor final 
product.
    I know some of our witnesses have testified before one of both of 
these subcommittees in the past and I appreciate your willingness to 
return.
    Some would say you are true gluttons for punishment, but I am 
thankful for your continued cooperation as we continue to examine where 
mistakes were made and what can be done to prevent them from being made 
again. As the future pieces of SBInet are developed and ultimately put 
into use, we must remember the hard-learned lessons of P-28.
    I'm still wondering why Secretary Chertoff allowed the Department 
to take final acceptance of P-28 last week. From everything I've heard 
over the last several weeks, while P-28 could be headed in the right 
direction, it's far from acceptable.
    Yet while the Department is finally acknowledging P-28's problems 
when they've briefed me in private, I'm disappointed that their public 
statements are still so disconnected with reality.
    Over the weekend, I expressed my concerns about P-28's acceptance. 
A DHS spokeswoman responded by attacking me and clinging to the fantasy 
that all is well with P-28, saying ``Those who choose to criticize 
without seeing the technology firsthand are merely bystanders of the 
product and have no idea how hard our border patrol is working to keep 
America safe. We would not have accepted it if it didn't work.''
    First, I've seen P-28 in person and walked along the Sasabe border. 
Second, I know how hard the Border Patrol is working to keep America 
safe, and not just because of the time I spent with them last month. 
Third, no less an authority than Acting Deputy Secretary Schneider has 
quite candidly told me that P-28 doesn't do what DHS expected that it 
would.
    The Department's press flacks may want to do a little research, 
both about which Members have been to P-28 and what their bosses think 
of the project itself, before making such ignorant statements.
    When I was in the Tucson sector, sitting in the ops center and 
watching the COP with the Border Patrol, P-28 simply wasn't working as 
promised. That was about 7 months past the actual due date. Now we're 9 
months past due.
    I'm glad that Boeing has decided to spend their own money to try to 
iron out some of the myriad problems the system has experienced, but 
I'm still not convinced we've gotten what we were supposed to get. 
Maybe, as DHS likes to say, my expectations weren't managed well 
enough, and I supposed that's not Boeing's fault or responsibility.
    But had P-28 been developed in an ideal world, Boeing wouldn't have 
played such a large role writing their own contract specs, Border 
Patrol would have had input in the design of the system, and DHS 
wouldn't have accepted the system until it worked to the Border 
Patrol's liking.
    I appreciate the forthrightness that I have heard from Acting 
Deputy Secretary Schneider and Mr. Krone over the last few weeks and I 
hope and expect we'll see the same candor during our questioning this 
morning.
    Also, I'd like to give you all a heads-up that Chairman Thompson 
has directed us to keep close tabs on SBInet, so you can expect to hear 
from us again very soon.
    Thank you again for appearing before us today.

    Ms. Sanchez. Other Members of the subcommittees are 
reminded that under the committee rules, opening statements may 
be submitted for the record.
    [The statements of Chairman Thompson and Ranking Member 
Rogers follow:]

           Prepared Statement of Chairman Bennie G. Thompson
                           February 27, 2008

    February 2 was a few weeks ago, but from where I sit today is the 
real Groundhog Day.
    We are talking about a border technology project that failed to 
live up to its billing. The Department is here to tell us that they've 
learned from their mistakes, and that everything is great going 
forward.
    Border Patrol is going to tell us that they need technology that 
actually works in order to help them perform their crucial mission. And 
GAO is here giving us the ``ground truth'' about systems that don't 
work the way they were supposed to. The letters have changed from ISIS 
to ASI to SBInet, but the narrative is the same.
    I've spoken recently about how we need to chart a course for the 
American people towards freedom from fear. But the course you're on 
keeps reversing back on itself.
    This cannot go on. I understand that Boeing is already at work on a 
$64 million task order that is supposed to cure what ails Project 28. 
You have to convince me why we should trust you this time.
    You have to convince me why this time is different. And you should 
be forewarned: your task today is a difficult one, because you carry 
with you the baggage of the failed border technology projects of the 
past.
    Frankly, I've already penciled in the next one of these hearings 
for about 6 months from now. Hopefully some of the things you say 
today--and more importantly, the things you do in the coming months--
will cause me to go back and erase that calendar entry. But I have to 
say that I think it's more likely that instead of erasing it, I'll be 
writing it in ink.
    I have said this many times before, but it is important so I will 
say it again: We need to secure our borders, and to do this we need 
technology to assist our hard-working Border Patrol agents. Gentleman, 
I cannot be more clear: If you can't get it right, we will look 
elsewhere for people who can.
                                 ______
                                 
            Prepared Statement of Ranking Member Mike Rogers
                           February 27, 2008

    Thank you, Mr. Chairman and Madam Chairwoman for holding this 
hearing.
    This joint subcommittee hearing continues our oversight of the 
technology component of the Secure Border Initiative, referred to as 
SBInet.
    Let me first thank our witnesses for taking the time to be with us 
today.
    In the 109th Congress, we conducted a review of SBInet's 
predecessor, the Integrated Surveillance Intelligence System--or ISIS.
    What we found was a camera and sensor system that was plagued by 
mismanagement, operational problems, and financial waste.
    At that time, we put the Department on notice that mistakes of the 
past should not be repeated in SBInet.
    In November 2006, the Management Subcommittee held the first 
congressional hearing on SBInet and the newly awarded contract.
    Over 15 months have passed since that hearing, and the Government 
only last week accepted a Project for only 28 miles of so-called 
virtual fencing along the southwest border.
    However, that system is not ready for deployment along other 
stretches of the border without significant modifications and 
improvements.
    That system has also been the subject of extensive delays and cost 
overruns.
    It is critical for our national security that DHS secure the 
borders now--not years from now.
    We must make sure the folks at DHS have learned from their mistakes 
of the past.
    We must also make sure that DHS has a plan in place to implement 
SBInet quickly, efficiently, and cost-effectively along our Nation's 
border.
    I look forward to hearing from the witnesses about the current 
status of Project 28 and the future of SBInet as a whole.
    I thank the Chair, and yield back.

    Ms. Sanchez. So now I welcome our panel of witnesses. Our 
first witness, Mr. Jayson P. Ahern assumed responsibility as 
deputy commissioner of U.S. Customs and Border Protection on 
August 5, 2007.
    As the chief operating officer of Customs and Border 
Protection, he oversees daily operations of a 45,000 employee 
workforce and manages and operating budget of more than $10 
billion.
    Prior to being named deputy commissioner, Mr. Ahern served 
as the assistant commissioner for CBP's office of field 
operations.
    Welcome.
    Our second witness, Mr. David Aguilar, became chief of the 
U.S. Border Patrol on July 1, 2004. Before his appointment, he 
was the chief patrol agent of Border Patrol's Tucson sector, 
where Project 28 is currently located. Chief Aguilar began his 
Border Patrol service in June 1978 in Laredo, Texas.
    Welcome.
    Our third witness, Mr. Gregory Giddens, is the director of 
the secure border initiative at the Department of Homeland 
Security. Mr. Giddens began his civil service career at Warner 
Robins Air Logistics Center and subsequently served in various 
capacities with the Air Force, Army, and at the Pentagon.
    He was selected for his current position in October 2005.
    Our fourth witness, Mr. Richard Stana, is the director of 
homeland and justice issues at the Government Accountability 
Office and during his 31-year career with GAO, he has directed 
reviews on a variety of complex military and domestic issues in 
headquarters, field, and overseas offices.
    Most recently, he has directed GAO's work relating to law 
enforcement, drug control, immigration, customs, corrections, 
court administration, and election systems.
    Welcome, again.
    Our fifth witness, Mr. Roger Krone, is president of Network 
and Space Systems, a business of Boeing Integrated Defense 
Systems, which is responsible for the SBInet program. Prior to 
this assignment, he was vice president and general manager of 
Army systems for Boeing Integrated Defense Systems, vice 
president of strategic programs at Boeing's corporate 
headquarters in Chicago.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I do want to note that they were late in coming forward, 
most of them yesterday, and I would hope that, in the future, 
we would get them ahead of time so that we can review them and 
make the process a more iterative process between all of us.
    I now will ask the witnesses to summarize those statements 
for 5 minutes, beginning with Deputy Commissioner Ahern.
    Welcome to all you gentlemen who have been before this 
committee before.
    For 5 minutes or less.

STATEMENT OF JAYSON P. AHERN, DEPUTY COMMISSIONER, CUSTOMS AND 
BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, ACCOMPANIED 
  BY DAVID V. AGUILAR, U.S. BORDER PATROL, CUSTOMS AND BORDER 
   PROTECTION, DEPARTMENT OF HOMELAND SECURITY, AND GREGORY 
GIDDENS, EXECUTIVE DIRECTOR, SECURE BORDER INITIATIVE, CUSTOMS 
     AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Ahern. Madam Chairwoman, thank you very much for the 
opportunity to testify today.
    Chairman Carney, Ranking Member Souder and other Members of 
the panel here today. As stated, my name is Jay Ahern, and I 
have served in Federal law enforcement with U.S. Customs and 
Border Protection and previously in U.S. Customs for 31 years 
and now serve as the deputy commissioner of Customs and Border 
Protection.
    Appearing with me today is David Aguilar, chief of the 
Border Patrol, and Greg Giddens, executive director for the SBI 
program.
    I will provide one oral summary for the three of us this 
morning, so we have an opportunity to get more into the detail 
of your questions later.
    Certainly, it is an honor to appear before you today to 
discuss our comprehensive border enforcement efforts, and I 
know that the committee wishes to discuss P-28 and future 
SBInet plans primarily today, and I will turn to those topics 
in a moment.
    But I would be remiss if I did not begin today by putting 
these topics into the overall context of CBP's multifaceted 
efforts to secure our Nation's borders.
    P-28, SBInet, and the promise of integrated surveillance 
and tracking capabilities is an important piece of our much 
longer ongoing efforts. But it is only a piece and not even one 
of the most important ones, I would submit.
    Unfortunately, this piece has generated the 
disproportionate amount of attention compared to its actual 
scope and its significance.
    As we look forward to deploying better tools to our 
frontline personnel and the very real achievements of the 
frontline men and women, I hope this opportunity today provides 
a better opportunity to put into context and also a better 
understanding and allow us to move forward in our progression 
to continue to secure the country's border.
    CBP's approach to securing the border relies on a balance 
of elements essential to our success. Those elements are our 
personnel and force multiplier tools, such as infrastructure, 
as well as technology.
    Our frontline personnel are the Nation's most important 
assets in securing the country's borders and CBP is rapidly 
increasing the sizes of the Border Patrol, the largest 
expansion ever. Our goal is to double the agents over the 2001 
number by the end of this calendar year.
    The mission success of CBP's agents and offices, however, 
is undoubtedly enhanced by their access to the tools that they 
need to most effectively and efficiently carry out their 
duties.
    Technology is certainly one of those tools, but, again, not 
the only one. For instance, between the ports of entry, we have 
already built over 300 miles of pedestrian and vehicle fence 
along the southern border and are on target to meet our goal of 
670 miles by the end of this calendar year.
    Within the technology element, it is important to recognize 
that P-28 and the development of the future integrated SBInet 
system are only a piece of our efforts and CBP has been 
deploying and continues to deploy technology tools to our 
frontline personnel.
    We have not been waiting for or dependent upon solely the 
results of P-28 to do so.
    For our officers operating at ports of entry, we have tools 
for advanced targeting systems, radiation portal monitors, 
large-scale X-ray systems. For Border Patrol and air and marine 
agents working to control our borders between the ports of 
entry, we have constructed the fence to at least deter or delay 
illegal border crossings.
    We have unattended ground sensors to alert agents to 
potential illegal cross-border movement, truck-mounted mobile 
surveillance systems, remote video surveillance systems, 
unmanned aerial systems, to which we now have four, as well as 
fixed and rotary wing aircraft to detect, classify, track and 
respond to illegal border crossing.
    Although highly beneficial, use of some of these tools 
today is more resource-intensive than they may need to be.
    It was with the technological improvements in the area of 
integration and efficiency, as well as the design and display 
of a common operating picture, that the SBInet concept was 
undertaken.
    We believe this approach, in the long run, will make our 
frontline personnel much more effective as we deal in providing 
them with an additional capability.
    Now, turning to the topic of P-28 and the future deployment 
of the SBInet solution, I would like to first, briefly, take a 
step back.
    As part of the competitive SBInet solicitation and original 
call to industry proposals, firms were asked to propose an 
initial test which could be one or more parts of their overall 
concept of operations for border security.
    Project 28 was Boeing's initial prototype demonstration and 
was designed to be proof of its overall concept, something we 
could test, we could evaluate and we could learn from, and be 
the initial building block of the system's future technology 
foundation.
    After the Project 28 prototype was underway and during 
acceptance testing, we identified technical deficiencies. Some 
of these were so egregious that the Government delayed 
acceptance of P-28.
    After Boeing fixed the majority of these deficiencies and 
the Government conditionally accepted it on December 7, 2007, 
it was allowing the Border Patrol, at that point, to be able to 
begin operational testing and to further identify specific 
remaining deficiencies based on the actual use of our frontline 
personnel.
    P-28 has accomplished the objectives and on February 21, 
2008, we did take final acceptance of the program. 
Unfortunately, the initial proof of concept and the overall 
SBInet system became confused with one another and some of you 
have had a chance to see P-28 in its actual deployment.
    Today, P-28 is a system that provides operational 
technology in an area that did not have these types of 
resources and has increased our effectiveness in this area as a 
result.
    It has acted as a force multiplier in a location where we 
had a limited footprint or eyes on the border. It also is 
allowing our operators to begin to adapt their operations to 
this new tool.
    We will now take the many lessons learned and focus on the 
transformation of the future SBInet solution.
    In my written statement--and I do apologize for that 
getting here late--we will capitalize and go into more detail 
on the lessons learned, as well as the next steps.
    We have the confidence that a version of this type of 
solution can be used in other selected border locations, where 
it makes sense. With other tools and techniques, we believe 
this solution can contribute to CBP's efforts in securing our 
country's borders.
    The pieces of the technology solution will continue to 
evolve, as, also, will this development through a spiral 
process. But it is important to recognize that a Project 28-
like system will not be deployed along every mile of the 
border.
    Different segments of the border require different 
approaches and a project like P-28 would not be cost-effective 
nor necessary everywhere along the border.
    For many locations, existing tools will be sufficient, 
given the current nature and the level of the threat. In other 
areas, we may need even more advanced technological tools to 
control the risk. It is not a one-size-fits-all approach and 
never was.
    As I close, I would like to go ahead and just show two very 
brief video clips and if I could direct the attention of the 
Members to the screens we have here and begin to run that first 
clip.
    The first clip is actually from February 14, this year. It 
shows a group of illegal aliens making their way toward the 
border. It was actually 100 aliens looking to go ahead and make 
their way to the border. Thirty-eight individuals were actually 
arrested as they were present in the United States. The 
remainder returned back into Mexico or never actually entered 
into the United States.
    An indication of the types of technology that now are 
deployed providing that picture to our agents in the field.
    The second clip is actually something that I spoke of 
briefly in the testimony. We actually are looking for the UAV 
systems, the UASs, as we actually queue this up. The technology 
is working for demonstration.
    This is our UASs, our unmanned aerial systems. We took 
deployment of our fourth UAS this week. This will give us 
additional capabilities. Again, this will give us the air 
picture. As you can see, the stream of aliens actually making 
their way to the border.
    I would actually just provide an example that occurred last 
evening. We had four sensor hits that actually occurred. You 
can see here our Blackhawk responding.
    So that the combination of the personnel on the ground, the 
aviation aspects of this operation, as well as the UAVs queuing 
in the agents to the incursion.
    Last night, we had four incursions that were sensor hits. 
Three of them actually turned out to be aliens coming across 
the border. One was 40, a group of 40, another group of 29, and 
a group of 16.
    The fourth one happened to be a deer. But, actually, by 
getting eyes on it, we saw it was a deer and, obviously, didn't 
need to deploy. But these are the capabilities that are being 
brought to the border.
    This is not solely a P-28 solution. This is another part of 
our strategy to secure the borders. It will be integrated over 
time, but, again, we have not just been waiting solely for the 
P-28 solution to come forward.
    So I just wanted to demonstrate a couple of the 
capabilities we have today.
    I will close by thanking you for the opportunity to come 
here to provide testimony. We look forward to answering the 
questions as we proceed today.
    [The statement of Mr. Ahern follows:]

                 Prepared Statement of Jayson P. Ahern
                           February 27, 2008

    Chairwoman Sanchez, Chairman Carney, Ranking Members Souder and 
Rogers, and distinguished subcommittee Members, my name is Jayson 
Ahern. I have served in Federal law enforcement within U.S. Customs and 
Border Protection (CBP) and legacy U.S. Customs for 31 years and am now 
the Deputy Commissioner of CBP. With me here today is David Aguilar, 
Chief of the U.S. Border Patrol, and Greg Giddens, the Executive 
Director of SBI.
    It is an honor to have the opportunity to appear before you today. 
My testimony this morning focuses on our border enforcement efforts and 
how the men and women of CBP on the front lines accomplish the goal of 
achieving control of our borders at and between the official ports of 
entry. I know the committee wishes to primarily discuss Project 28 (P-
28) and future SBInet plans today, and I will turn to those topics in a 
moment. But I would be remiss if I did not begin by putting those 
topics in the overall context of CBP's multifaceted efforts to secure 
our Nation's borders. P-28, SBInet and the promise of integrated 
surveillance and tracking capabilities is an important piece of our 
ongoing efforts, but it is only a piece and not even the most important 
one. Unfortunately this is a piece which has generated a 
disproportionate amount of attention compared to its actual scope and 
significance. I am concerned that the singular public focus on this 
``tree'' has at times caused some to lose sight of the whole ``forest'' 
of our efforts in securing the border and the very real achievements of 
the men and women of CBP.
    The creation of CBP within the Department of Homeland Security 
(DHS) nearly 5 years ago--establishing for the first time a single, 
unified border agency for the United States--was a profound 
achievement. Our responsibilities today are complex and challenging. 
CBP is the largest uniformed law enforcement agency in the country. We 
have over 20,000 CBP Officers and Agriculture Specialists at U.S. ports 
of entry around the Nation--air, land, and sea ports. We deploy over 
15,000 Border Patrol agents and 745 Air and Marine Interdiction agents 
across the country to prevent the illegal entry of persons and goods 
between our official ports of entry.
    CBP is responsible for protecting more than 4,000 miles of border 
with Canada, 1,900 miles of border with Mexico and operating 326 
official ports of entry. Our mission includes preventing terrorists and 
terrorist weapons from entering the United States, while also 
facilitating the flow of legitimate trade and travel. CBP is also 
responsible for: Interdicting the flow of illegal aliens, drugs and 
contraband; protecting our agricultural and economic interests from 
harmful pests and diseases; protecting American businesses from theft 
of their intellectual property, violations of textile agreements, 
import safety violations and monopolistic practices; regulating and 
facilitating international trade; collecting import duties and 
enforcing United States trade laws. Each day CBP inspects more than 1.1 
million travelers, including 340,000 vehicles and over 85,000 shipments 
of goods approved for entry; processes more than 70,000 truck, rail and 
sea containers; collects more than $88 million in fees, duties, and 
tariffs; seizes more than 5,500 pounds in illegal narcotics; and 
intercepts more than 4,400 agricultural items and pests at ports of 
entry. CBP also intercepts over 84 fraudulent documents a day and 
refuses entry to 416 inadmissible aliens, which translates to nearly 
31,000 faudulent documents and more than 152,000 inadmissible aliens 
each year. During fiscal year 2007 alone, CBP Officers at our land, 
sea, and air ports of entry arrested 25,693 individuals, including 
murderers, sexual predators, drug smugglers, and individuals with links 
to terror. Between the Ports of Entry, Border Patrol agents apprehended 
876,704 persons (858,638 on the southwest border) attempting to enter 
the United States illegally, including human smugglers, drug 
traffickers, and illegal aliens.
    CBP's approach to border security strikes a balance among the 
elements that contribute to our success. Those elements include 
personnel and force multiplier tools such as infrastructure, the use of 
intelligence, technology tools, and air assets. As of February 2, 2008, 
CBP had 15,439 Border Patrol agents on board, and plans to have over 
18,000 agents by the end of calendar year 2008. CBP also continues to 
increase its workforce at the ports of entry, hiring 2,156 new CBP 
Officers and 340 agriculture specialists, for a net increase of 648 
officers and 151 specialists in fiscal year 2007.
    Our frontline personnel are the Nation's most important asset in 
securing the borders. However, the mission success of CBP's agents and 
officers is undoubtedly enhanced by their access to the tools they need 
to most effectively and efficiently carry out their duties. CBP has 
been deploying and continues to deploy these technology tools for our 
frontline personnel and we have not been waiting for or dependent upon 
the results of P-28 to do so. For CBP Officers operating at U.S. Ports 
of Entry, these tools include Advanced Targeting Systems to identify 
potentially dangerous arriving travelers and cargo; Radiation Portal 
Monitors and Cargo X-ray systems to screen arriving cargo for hazardous 
or prohibited materials; and hand-held radiation detection devices to 
screen arriving travelers, baggage, and conveyances for nuclear 
materials. For Border Patrol Agents working to control our borders 
between the ports of entry, they currently use tools such as:
  <bullet> Fencing to deter or delay illegal border crossings;
  <bullet> Unattended Ground Sensors (UGS) to alert agents to 
        potentially illegal cross-border movement in remote areas and 
        at non-24-hour northern border ports of entry during non-
        operating hours; and
  <bullet> Truck-mounted mobile surveillance systems (MSS), Remote 
        Video Surveillance Systems (RVSS), Unmanned Aerial Systems 
        (UASs), and fixed- and rotary-wing aircraft to detect, 
        classify, track and respond to illegal border crossings.
    Although beneficial, use of some of these tools today is resource-
intensive. For example, deployment and operation of the MSS requires a 
Border Patrol Agent to drive the MSS-equipped truck out to the 
deployment location; monitor activity on the radar and relay that 
information to dispatchers or agents. Likewise UGSs and RVSSs could be 
more useful and operated with fewer personnel if they were linked with 
each other such that a camera was automatically directed to a location 
where a UGS was tripped off. It is with these types of technological 
improvements in the area of integration, as well as design and display 
of a Common Operating Picture, that SBInet was undertaken. P-28 was the 
first proof of concept of this integrated, linked approach which we 
believe in the long run will make our frontline personnel more 
efficient and effective by delivering an integrated package of sensor 
technology with an enhanced user interface.
    Through SBInet, CBP will field an effective, integrated mix of 
proven technology (radars, communication devices, cameras, sensors, and 
other equipment), infrastructure (vehicle and pedestrian fence, 
lighting, and all-weather roads), and response platforms. This mix, 
combined with existing resources, will assist Border Patrol agents, CBP 
officers, and Air and Marine interdiction agents to more efficiently 
deter, detect, and apprehend illegal entries into the United States.
    As part of the competitive SBInet solicitation and original call to 
industry for proposals, firms were asked to propose an initial task 
which could be one or more modules of their overall concept of 
operations for border security. Each offeror's proposed task order was 
evaluated for its technical approach and achievability, and the extent 
to which it demonstrated the feasibility of the proposed overall 
solution. Boeing proposed to deploy mobile long-range sensors, 
communications, command and control equipment, and a Common Operating 
Picture (COP) in the Tucson Sector area of responsibility. CBP chose 
Boeing's overall SBInet solution, and subsequently awarded the 
offeror's proposed task, P-28, in October 2006.
    P-28, Boeing's initial prototype demonstration along a 28-mile 
stretch of border in Arizona, was designed to be a proof of concept and 
the first building block for the system's technology foundation. As a 
prototype, the system was intended to: (1) Demonstrate the feasibility 
of Boeing's SBInet solution; and, (2) establish baseline performance 
characteristics against the SBInet performance targets.
    The P-28 task order included deployment of 9 mobile sensor towers, 
including radar, cameras, satellite terminals, and wireless access 
points; communication kits installed in agent vehicles; Rapid Response 
Vehicles; satellite phones for agent use; unattended ground sensors; 
mobile command, control, and communications units; software to operate 
the system and provide the COP; training to operate the system; and 32 
data requirements, including system documentation and reports.
    After the P-28 module was designed, installed, and the Boeing 
testing program was underway, technical deficiencies were identified. 
Some of these were so egregious that the Government delayed acceptance 
of P-28 from the original target of early summer 2007. After Boeing 
fixed the majority of the deficiencies, the Government conditionally 
accepted P-28 on December 7, 2007, so the Border Patrol could begin 
using the system to determine opportunities for improvements, as well 
as learn how it would enhance their operational capabilities. During 
this time, Boeing worked to resolve the remaining system performance 
issues until only one issue, an infra-red camera (FLIR) flicker 
anomaly, remained. The FLIR flicker anomaly remained a key driver for 
final acceptance from an operational perspective and was considered to 
be critical to system performance. Boeing identified the root cause of 
the issue and upgraded the grounding systems on the towers in late 
January. Final testing of this solution indicated the problem was 
resolved. Of the 53 open items from conditional acceptance, all were 
closed except four with minimal operational impact that were waived in 
exchange for financial consideration. Consequently, CBP accepted P-28 
on February 21, 2008. In consideration of the schedule delays and 
waived open items, Boeing has credited the Government $2.2 million in 
logistics, maintenance and support for the P-28 system.
    In its current state, P-28 provides Border Patrol agents with 
improved situational awareness of operations in the field. Agents in 
the command center now receive additional alerts and notifications of 
potential illegal activity by using integrated cameras and radar. 
Agents deployed in the field using vehicle mounted mobile data 
terminals have an improved picture of the section of border they are 
enforcing. This includes where their fellow agents are, potential 
suspects, and terrain features. The system provides an initial 
capability that will be used by our operators to explore and refine 
future concepts of operations and operational requirements, evaluate 
how the technology can be effectively placed into the field and 
utilized by Border Patrol agents and operators, and continue to 
identify risk and focus areas for future SBInet deployments.
    The installed P-28 system is being evaluated by an independent 
operational test group to determine the system's operational and 
suitability characteristics and its ability to meet CBP mission 
characteristics. This information, along with the lessons already 
learned, will be used to help guide the development of the next version 
of the SBInet COP.
    Through the development of Project 28, CBP has learned several 
valuable technical, acquisition, and operational lessons, and has 
already incorporated these lessons learned into our planning for future 
SBInet deployments. For example:
  <bullet> Commercial off-the-shelf components, even proven 
        technologies, cannot be integrated ``right out of the box'' in 
        the field without interface design, thorough testing, and 
        integration in the laboratory. SBInet is fully testing and 
        integrating the first operational configuration of the SBInet 
        solution in a Systems Integration Lab before testing in the 
        field.
  <bullet> The interfaces between the sensors and the COP are as 
        important as the technical characteristics of the sensors 
        themselves. The follow-on sensors selected for SBInet will have 
        common standard controls and interfaces.
  <bullet> The Project 28 towers had significant limitations due to the 
        use of satellite data links and the inherent problems with 
        latency and bandwidth. The follow-on operational configuration 
        will use microwave data links in lieu of satellite data links.
  <bullet> The P-28 COP software was based on a commercial civil system 
        used for the dispatch of public safety assets. This proved to 
        be inadequate for the command and control of a sensor net and 
        the distribution of a near real-time situational picture.
    On December 7, 2007, CBP authorized Boeing, under the COP Task 
Order, to begin development of the new software, which we refer to as 
COP Version 0.5. Unlike the P-28 COP, COP Version 0.5 is based on a 
Government-owned and -tested real-time battle management command and 
control system. Our plan is to implement this software and fully lab-
test it. It will then be integrated with new sensors and hardware that 
have been competitively sourced from multiple vendors to give us an 
open architecture for hardware. The integrated hardware and software 
will be tested in the laboratory, and then deployed in two locations in 
the Tucson Sector. Based on the results of those two deployments, and 
once we determine that the system is operationally effective and 
suitable, we will continue to field the SBInet solution to more 
locations that can most benefit from this new tool.
    Once the P-28 effort was underway with much public interest in its 
development, it came to mean different things to different people. 
Unfortunately, those interpretations diverged from what P-28 was 
intended to be and what the Government contracted for, specifically a 
task order segment of work that would demonstrate the technical 
approach and achievability, feasibility of the proposed overall SBInet 
solution. This objective has been achieved.
    We have the confidence that a version of this P-28 type of solution 
can be used where it makes sense in other selected border locations 
and, with other tools and techniques, can contribute to CBP's efforts 
in securing our borders. The pieces of that technology solution will 
also continue to evolve as planned through an iterative ``spiral'' 
development process. But it is important to recognize that a P-28-like 
system will not be deployed along every mile of the border. Different 
segments of the border require different approaches and a P-28-like 
system would neither be cost-effective, nor necessary everywhere. For 
many locations, existing tools will be more than sufficient given the 
current nature and level of the threat; in others, even more advanced 
technological tools will be needed.
    Moving forward, CBP will complete construction of the 370 miles of 
pedestrian fencing and 300 miles of vehicle fencing that local Border 
Patrol Chiefs determined were necessary to enhance border security. 
Right now, we have almost 170 miles of primary pedestrian fencing and 
135 miles of vehicle fence in place. Plans are to complete construction 
of the full 670 miles of fencing by the end of this calendar year.
    As for future deployment of technology solutions, we've completed 
technology requirements assessments of the Yuma, Tucson, and El Paso 
Border Patrol Sectors and will look to fill those needs first as they 
are presently the highest threat areas. But expanding the integrated 
tower-based system is not all we are doing in the interim for 
technology between our ports of entry. For example, CBP currently has 4 
Mobile Surveillance Systems (MSS) in operation and plans to deploy an 
additional 36 MSS this year to the southwest border to serve as primary 
detection platforms. While some MSS will eventually be replaced by a 
more cost-effective, integrated radar/camera tower under SBInet, the 
highly mobile MSS units can be used to ``fill gaps'' of surveillance 
coverage, temporarily replace a sensor tower down for maintenance, or 
rapidly deploy to a ``hot'' area needing extra coverage. CBP also 
currently has deployed along U.S. borders, over 7,500 Unattended Ground 
Sensors that provide continuous, low-cost, and covert awareness of 
cross-border activity. CBP is acquiring 2,500 additional UGS this 
fiscal year with 1,500 of those planned for deployment on the northern 
border and 1,000 on the southwest border.
    Additional and existing fixed- and rotary-wing aircraft will 
continue to be used to provide surveillance, interdiction, and response 
capabilities to bolster our efforts to secure our air and land borders 
between the ports of entry. Also, CBP has recently taken delivery of 
our fourth Predator Unmanned Aerial System (UAS), which provides unique 
highly mobile detection and tracking capabilities and is contributing 
daily to apprehensions of illegal traffic.
    While much of the initial focus of SBInet deployments has been on 
the southwest border, CBP has also taken steps to address 
vulnerabilities on the northern border. In early 2007, with 
congressional direction, CBP redirected a portion of the SBInet focus 
to the northern border, specifically in the Detroit, Michigan, area. We 
have initiated the Northern Border Demonstration project utilizing at 
least $20 million from fiscal year 2007 funds to begin addressing 
northern border vulnerabilities using a different mix of technologies 
and testing the integration of air and maritime assets.
    In fiscal year 2008, CBP will assign an additional 190 CBP 
officers, open its fifth northern border air branch, and deploy a UAS 
to the northern border. Over $100 million has been appropriated in 
fiscal year 2008 for the construction of ports of entry on the northern 
border. By the end of fiscal year 2009, CBP intends to have 1,500 
Border Patrol agents deployed on the northern border, a 30 percent 
increase over current staffing and a 500 percent increase over fiscal 
year 2001 staffing levels. CBP continues to engage with other law 
enforcement entities and participate in partnerships with our Canadian 
counterparts through initiatives such as Project North Star, the 
Integrated Border Enforcement Teams (IBETS), joint operations with 
Joint Task Force--North (JTF-N), Border Enforcement Security Teams 
(BEST), and Border Security Evaluation Teams (BSET).
    CBP's frontline officers and agents will continue to protect 
America from the terrorist threat while also accomplishing our 
traditional missions in immigration, customs, and agriculture. These 
initiatives discussed today are only a portion of CBP's efforts to 
secure our homeland, and we will continue to provide our men and women 
on the front lines with the necessary tools to help them gain effective 
control of our Nation's borders. I would like to thank Chairwoman 
Sanchez, Chairman Carney, Ranking Member Souder, and Ranking Member 
Rogers, and the Members of the committee, for the opportunity to 
present this testimony today, and for your continued support of DHS and 
CBP. We will be happy to respond to any questions that you may have at 
this time.

    Ms. Sanchez. Thank you, Mr. Ahern.
    I would now like to recognize Mr. Stana for 5 minutes.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you very much, Chairwoman Sanchez, Mr. 
Souder, Chairman Carney, Mr. Rogers, and Members of the 
subcommittees.
    Shortly after the launch of the secure border initiative, 
the committee asked us to review the SBI program and to provide 
periodic updates on the status of our efforts and our interim 
findings.
    My testimony today provides our second formal update. As 
you know, SBI is a multi-year, multi-billion dollar program, 
aimed at stemming illegal entry into the country, mainly 
between ports of entry.
    Since fiscal year 2007, Congress has appropriated about 
$2.5 billion for SBInet and DHS has requested an additional 
$775 million for next fiscal year.
    I would like to take the next few minutes to highlight our 
observations in several areas.
    Technology deployment. After working with Boeing to resolve 
system problems, last Friday, DHS announced its final 
acceptance of Project 28, a $20.6 million project to secure 28 
miles along the southwest border.
    SBI officials told us that Project 28 met contract 
requirements for testing a concept of operations and creating a 
capability. But Project 28 did not fully meet their 
expectations and most of its equipment and technology will be 
replaced.
    According to Border Patrol agents, while Project 28 is not 
an optimal system to support their operations, it has provided 
them with better cameras and radars than they had previously.
    SBI officials are now gathering lessons learned to inform 
future border security technology deployment. For example, on 
Project 28, Boeing did not perform tests to ensure the radars, 
cameras and other components were integrated correctly before 
being deployed to the field and, as a result, incompatibilities 
between individual components were not discovered in time to be 
corrected before the planned deployment deadline.
    In the future, Boeing plans to test component integration 
beforehand and deployment will not occur until the technology 
meets specific performance specifications.
    As a second example, the requirements for how the Project 
28 system was to operate were designed and developed by Boeing, 
with minimal input from the intended operators of the system, 
including border patrol agents.
    SBI officials have recognized the need to involve intended 
operators when defining requirements for technology projects.
    Going forward, the schedule for future technology 
deployments to the southwest border has been extended. SBI 
officials now estimate that the first planned deployments of 
technology, including those to replace most Project 28 
capabilities, will occur in two areas of the Tucson sector by 
the end of this calendar year.
    The remaining deployments of the first phase of technology 
development planned for the Border Patrol's Tucson, Yuma and El 
Paso sectors are expected to be completed by the end of 
calendar year 2011.
    Fencing and vehicle barriers. Deployment of tactical 
infrastructure projects along the southwest border is on 
schedule, as 168 miles of pedestrian fence and 135 miles of 
vehicle fence have been constructed so far.
    But meeting SBI's goal to have 370 miles of pedestrian 
fence and 300 miles of vehicle fence in place by the end of 
this calendar year will be challenging, because of various 
factors, including difficulties in acquiring rights to 
borderlands.
    Furthermore, SBI officials are unable to estimate the total 
cost of pedestrian and vehicle fencing, because of various 
factors that are not yet known, such as the type of terrain 
where the fencing is to be constructed, the materials to be 
used, and the cost to acquire the land.
    As SBI moves forward with tactical infrastructure 
construction, it is making modifications based on lessons 
learned from previous fencing efforts.
    For example, for future fencing projects, it plans to buy 
construction items, such as steel, in bulk, to U.S.-approved 
fence designs, and to contract out for the maintenance and 
repair of the tactical infrastructure.
    Project management. The SBI program office established a 
staffing goal of 470 employees for fiscal year 2008 and as of 
February 1, it reported having 142 Government staff and 163 
contractor support staff, for a total of 305 employees.
    SBI officials told us that they believe they will be able 
to meet staffing goals of 470 staff by the end of this fiscal 
year.
    In December 2007, the SBI program office published its 
first version of its strategic human capital plan and is now in 
the early implementation phase.
    The plan outlines seven main goals for the office and 
activities to accomplish those goals, and these align with 
Federal Government best practices for human capital plans.
    In closing, Project 28 resulted in a product that did not 
fully meet the user needs and the project's design will not be 
used as the basis for future SBI technology development. 
Lessons learned are being identified and their application to 
future technology projects is important to help ensure that 
they deliver an operational capability that better meets user 
needs.
    The experience with Project 28 underscores Congress' need 
to stay closely attuned to SBI implementation activities, to 
make sure that the performance, schedule and cost estimates are 
achieved and that the Nation's border security needs are fully 
addressed.
    I would be happy to answer questions that Members of the 
subcommittees may have.
    [The statement of Mr. Stana follows:]

                 Prepared Statement of Richard M. Stana
                           February 27, 2008

                             GAO HIGHLIGHTS

    Highlights of GAO-08-508T, a testimony before the Subcommittee on 
Management, Investigations, and Oversight, and Border, Maritime and 
Global Counterterrorism, Committee on Homeland Security, House of 
Representatives.

Why GAO Did This Study
    In November 2005, the Department of Homeland Security (DHS) 
established the Secure Border Initiative (SBI), a multi-year, 
multibillion-dollar program to secure U.S. borders. One element of SBI 
is the U.S. Customs and Border Protection's (CBP) SBI program, which is 
responsible for developing a comprehensive border protection system 
through a mix of security infrastructure (e.g., fencing) and 
surveillance and communication technologies (e.g., radars, sensors, 
cameras, and satellite phones).
    GAO was asked to monitor DHS progress in implementing CBP's SBI 
program. This testimony provides GAO's observations on: (1) Technology 
implementation; (2) the extent to which Border Patrol agents have been 
trained and are using SBI technology; (3) infrastructure 
implementation; and (4) how the CBP SBI program office has defined its 
human capital goals and the progress it has made to achieve these 
goals. GAO's observations are based on analysis of DHS documentation, 
such as program schedules, contracts, status, and reports. GAO also 
conducted interviews with DHS officials and contractors, and visits to 
sites in the southwest border where SBI deployment is under way. GAO 
performed the work from November 2007 through February 2008. DHS 
generally agreed with GAO's findings.

 SECURE BORDER INITIATIVE: OBSERVATIONS ON THE IMPORTANCE OF APPLYING 
                   LESSONS LEARNED TO FUTURE PROJECTS

What GAO Found
    On February 22, 2008, DHS announced final acceptance of Project 28, 
a $20.6 million project to secure 28 miles along the southwest border, 
and is now gathering lessons learned to use in future technology 
development. The scope of the project, as described in the task order 
DHS issued to Boeing--the prime contractor DHS selected to acquire, 
deploy, and sustain systems of technology across the U.S. borders--was 
to provide a system with the capabilities required to control 28 miles 
of border in Arizona. CBP officials responsible for the program said 
that although Project 28 will not be replicated, they have learned 
lessons from their experience that they plan to integrate into future 
technology development. CBP has extended its timeline and approach for 
future projects and does not expect all of the first phase of its next 
technology project to be completed before the end of calendar year 
2011.
    Border Patrol agents began using Project 28 technologies in 
December 2007, and as of January 2008, 312 agents in the area had 
received updated training. According to Border Patrol agents, while 
Project 28 is not an optimal system to support their operations, it has 
provided greater technological capabilities than did their previous 
equipment. Not all of the Border Patrol agents in the Tucson sector 
have been trained on Project 28 because the system will be replaced 
with newer technologies.
    Deployment of fencing along the southwest border is on schedule, 
but meeting CBP's goal to have 370 miles of pedestrian fence and 300 
miles of vehicle fence in place by December 31, 2008, will be 
challenging and total costs are not yet known. As of February 21, 2008, 
the SBI program office reported that it had constructed 168 miles of 
pedestrian fence and 135 miles of vehicle fence. CBP officials reported 
that meeting deadlines has been difficult because of various factors 
including difficulties in acquiring rights to border lands. Moreover, 
CBP officials are unable to estimate the total cost of pedestrian and 
vehicle fencing because they do not yet know the type of terrain where 
the fencing is to be constructed, the materials to be used, and the 
cost to acquire the land. As CBP moves forward with construction, it is 
making modifications based on lessons learned from previous efforts. 
For example, CBP plans to buy construction items, such as steel, in 
bulk; use approved fence designs; and contract out the maintenance and 
repair.
    CBP's SBI program office established a staffing goal of 470 
employees for fiscal year 2008, made progress toward meeting this goal 
and published its human capital plan in December 2007; however, it is 
in the early stages of implementing the plan. As of February 1, 2008, 
the office reported having a total of 305 employees. SBI program 
officials said that they believe they will be able to meet their 
staffing goal of 470 staff by the end of the fiscal year. In December 
2007, the SBI office published the first version of its Strategic Human 
Capital Management Plan and is now in the early implementation phase. 
The plan outlines seven main goals for the office and activities to 
accomplish those goals, which align with Federal Government best 
practices.
    Chairwoman Sanchez, Mr. Souder, Chairman Carney, Mr. Rogers and 
Members of the subcommittees: I am pleased to be here today to discuss 
observations on selected aspects of the Secure Border Initiative (SBI) 
program implementation.
    Securing the Nation's borders from illegal entry of aliens and 
contraband, including terrorists and weapons of mass destruction, 
continues to be a major concern. Much of the United States' 6,000 miles 
of international borders with Canada and Mexico remains vulnerable to 
illegal entry. Although the Department of Homeland Security (DHS) 
apprehends hundreds of thousands of people entering the country 
illegally each year, several hundreds of thousands of individuals also 
enter the United States illegally and undetected. In November 2005, DHS 
announced the launch of SBI, a multi-year, multibillion-dollar program 
aimed at securing U.S. borders and reducing illegal immigration. 
Elements of SBI will be carried out by several organizations within 
DHS. One component is the U.S. Customs and Border Protection's (CBP) 
SBI program office \1\ which is responsible for developing a 
comprehensive border protection system using people, technology, known 
as SBInet, and tactical infrastructure--fencing, roads, and lighting.
---------------------------------------------------------------------------
    \1\ The CBP SBI Program Executive Office, referred to in this 
testimony as the SBI program office, is responsible for overseeing all 
SBI activities; for acquisition and implementation, including 
establishing and meeting program goals, objectives, and schedules; for 
overseeing contractor performance; and for coordinating among DHS 
agencies.
---------------------------------------------------------------------------
    You requested that we monitor CBP's SBI program and provide 
periodic updates on the status of the program. My testimony today is 
the second in a series of interim reports \2\ on SBI implementation and 
focuses on the following issues:
---------------------------------------------------------------------------
    \2\ See GAO, Secure Border Initiative: Observations on Selected 
Aspects of SBInet Program Implementation, GAO-08-131T (Washington, DC: 
October 2007) for the first report.
---------------------------------------------------------------------------
  <bullet> SBInet technology implementation;
  <bullet> the extent to which Border Patrol agents have been trained 
        and are using SBInet technology;
  <bullet> SBI tactical infrastructure implementation; and
  <bullet> how the SBI program office has defined its human capital 
        goals and the progress it has made to achieve these goals.
    To address these issues, we analyzed DHS documents, including 
program schedules and status reports, and work force data. We 
determined that the data were sufficiently reliable for purposes of 
this testimony. We interviewed DHS and CBP headquarters and field 
officials, including representatives of the SBI program office, Border 
Patrol, CBP Air and Marine, CBP Office of Field Operations, and the DHS 
Science and Technology Directorate. We also visited the Tucson Border 
Patrol sector \3\--a site where SBInet technology and fencing 
deployment was under way at the time of our review. We performed our 
work from November 2007 through February 2008 in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the work to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our objectives.
---------------------------------------------------------------------------
    \3\ The U.S. Border Patrol has 20 sectors responsible for 
detecting, interdicting, and apprehending those who attempt illegal 
entry or smuggle people--including terrorists or contraband, including 
weapons of mass destruction--across U.S. borders between official ports 
of entry.
---------------------------------------------------------------------------
    We also have work under way to review other components of the SBI 
program. Specifically, we are conducting work for this committee to 
assess the development and deployment of SBInet's command, control, and 
communications systems and surveillance and detection systems and 
expect to issue a report later this year. In addition, we are reviewing 
SBInet as part of a broader look at DHS's use of performance-based 
services acquisition, an acquisition method structured around the 
results to be achieved instead of the manner by which the service 
should be performed. We expect to issue a report on this effort in 
spring 2008. Finally, as mandated in the Consolidated Appropriations 
Act, 2008,\4\ we are examining DHS's fiscal year 2008 expenditure plan 
for the SBI program and also expect to report to Congress in spring 
2008.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 110-161, 121 Stat. 1844, 2047-2049.
---------------------------------------------------------------------------
                                summary
    On February 22, 2008, DHS announced its final acceptance of Project 
28, a $20.6 million project to secure 28 miles along the southwest 
border, and is now gathering lessons learned to inform future border 
security technology development. The scope of the project, as described 
in the task order between DHS and Boeing--the prime contractor DHS 
selected to acquire, deploy, and sustain the SBInet system across the 
U.S. borders--was to provide a system with the detection, 
identification, and classification capabilities required to control the 
border, at a minimum, along 28 miles in the Tucson sector. After 
working with Boeing to resolve problems identified with Project 28, DHS 
formally accepted the system, noting that it met contract requirements. 
Officials from the SBInet program office said that although Project 28 
did not fully meet their expectations, they are continuing to develop 
SBInet with a revised approach and have identified areas for 
improvement based on their experience with Project 28. For example, 
both SBInet and Border Patrol officials reported that Project 28 was 
initially designed and developed by Boeing with limited input from the 
Border Patrol, whose agents are now operating Project 28 in the Tucson 
sector; however, they said that future SBInet development will include 
increased input from the intended operators. The schedule for future 
deployments of technology to the southwest border that are planned to 
replace most Project 28 capabilities has been extended and officials 
estimated that the first planned deployment of technology will occur in 
other areas of the Tucson sector by the end of calendar year 2008. The 
remaining deployments of the first phase of technology development 
planned for the Border Patrol's Tucson, Yuma, and El Paso sectors are 
expected to be completed by the end of calendar year 2011.
    Border Patrol agents in the Project 28 location have been using the 
system as they conduct their border security activities since December 
2007, and as of January 2008, 312 agents in the Project 28 location had 
received updated training. According to Border Patrol agents, while 
Project 28 is not an optimal system to support their operations, it has 
provided them with greater technological capabilities--such as improved 
cameras and radars--than the legacy equipment that preceded Project 28. 
Not all of the Border Patrol agents in the Project 28 location have 
been trained to use the system's equipment and capabilities, as it is 
expected to be replaced with updated technologies developed for SBInet.
    Deployment of tactical infrastructure projects along the southwest 
border is on schedule, but meeting the SBI program office's goal to 
have 370 miles of pedestrian fence and 300 miles of vehicle fence in 
place by December 31, 2008, will be challenging and the total cost is 
not yet known. As of February 21, 2008, the SBI program office reported 
that it had constructed 168 miles of pedestrian fence and 135 miles of 
vehicle fence. Although the deployment is on schedule, SBI program 
office officials reported that keeping on schedule will be challenging 
because of various factors, including difficulties in acquiring rights 
to border lands. Furthermore, SBI program office officials are unable 
to estimate the total cost of pedestrian and vehicle fencing because of 
various factors that are not yet known, such as the type of terrain 
where the fencing is to be constructed, the materials to be used, the 
cost to acquire the land. Furthermore, as the SBI program office moves 
forward with tactical infrastructure construction, it is making 
modifications based on lessons learned from previous fencing efforts. 
For example, for future fencing projects, the SBI program office plans 
to buy construction items, such as steel, in bulk; use approved fence 
designs; and contract out the maintenance and repair of the tactical 
infrastructure.
    The SBI program office established a staffing goal of 470 employees 
for fiscal year 2008, made progress toward meeting this goal, and 
published its human capital plan in December 2007; however, the SBI 
program office is in the early stages of implementing this plan. As of 
February 1, 2008, SBI program office reported having 142 government 
staff and 163 contractor support staff for a total of 305 employees. 
SBI program office officials told us that they believe they will be 
able to meet their staffing goal of 470 staff by the end of September 
2008. In December 2007, the SBI program office published the first 
version of its Strategic Human Capital Management Plan and is now in 
its early implementation phase. The plan outlines seven main goals for 
the office and activities to accomplish those goals, which align with 
Federal Government best practices.

                               BACKGROUND

    CBP's SBI program is responsible for identifying and deploying an 
appropriate mix of technology, known as SBInet (e.g., sensors, cameras, 
radars, communications systems, and mounted laptop computers for agent 
vehicles); tactical infrastructure (e.g., pedestrian and vehicle 
fencing, roads, and lighting); and personnel (e.g., program staff and 
Border Patrol agents) that are intended to enable CBP agents and 
officers to gain effective control \5\ of U.S. borders. SBInet 
technology is also intended to include the development and deployment 
of a common operating picture (COP) that provides uniform data through 
a command center environment to Border Patrol agents in the field and 
all DHS agencies and to be interoperable with stakeholders external to 
DHS, such as local law enforcement. The current focus of SBI is on the 
southwest border areas between the ports of entry that CBP has 
designated as having the highest need for enhanced border security 
because of serious vulnerabilities. The SBI program office and its 
offices of tactical infrastructure and SBInet are responsible for 
overall program implementation and oversight. Figure 1 is a map of the 
southwest border and the Border Patrol sectors.
---------------------------------------------------------------------------
    \5\ DHS defines effective control of U.S. borders as the ability to 
consistently: (1) Detect illegal entries into the United States; (2) 
identify and classify these entries to determine the level of threat 
involved; (3) efficiently and effectively respond to these entries; and 
(4) bring events to a satisfactory law enforcement resolution.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In September 2006, CBP awarded a prime contract to the Boeing 
Company for 3 years, with three additional 1-year options. As the prime 
contractor, Boeing is responsible for acquiring, deploying, and 
sustaining selected SBI technology and tactical infrastructure 
projects. In this way, Boeing has extensive involvement in the SBI 
program requirements development, design, production, integration, 
testing, and maintenance and support of SBI projects. Moreover, Boeing 
is responsible for selecting and managing a team of subcontractors that 
provide individual components for Boeing to integrate into the SBInet 
system. The SBInet contract is largely performance-based--that is, CBP 
has set requirements for the project and Boeing and CBP coordinate and 
collaborate to develop solutions to meet these requirements--and 
designed to maximize the use of commercial off-the-shelf technology. 
\6\ CBP's SBI program office oversees the Boeing-led SBI contractor 
team.
---------------------------------------------------------------------------
    \6\ Commercial off-the-shelf is a term for products that are 
available for sale, lease, or license to the general public.
---------------------------------------------------------------------------
    CBP is executing part of SBI's activities through a series of task 
orders to Boeing for individual projects. As of February 15, 2008, CBP 
had awarded eight task orders to Boeing. Table 1 is a summary of the 
task orders awarded to Boeing for SBI projects.

 TABLE 1.--TASK ORDERS AWARDED TO BOEING FOR SBI PROJECTS AS OF FEBRUARY
                                15, 2008
                          [Dollars in millions]
------------------------------------------------------------------------
                                                              Task Order
       Task Order Description              Date Awarded       Obligation
------------------------------------------------------------------------
Program Management.--Related to       09/21/2006............      $135.9
 mission engineering, facilities and
 infrastructure, systems
 engineering, test and evaluation,
 and program management services to
 develop and deploy the SBInet
 system.
Project 28.--Boeing's pilot project   10/20/2006............       $20.6
 and initial implementation of
 SBInet technology for 28 miles of
 the border in the Tucson sector.
Fence Lab.--Related to the testing    02/16/2007............        $0.7
 of potential pedestrian and vehicle
 fence and barrier solutions.
Barry M. Goldwater Range.--Related    01/12/2007............      $122.2
 to the construction of 32 miles of
 fencing in the Yuma sector; also
 knows as Project 37.
Design.--Related to the SBInet        08/01/2007............       $69.0
 deployment design solution
 including design and locations for
 the SBInet technology solution in
 the Yuma, Tucson, and El Paso
 sectors.
Project 28 Contractor Maintenance     12/07/2007............        $8.0
 and Logistics Support.--Provides
 Project 28 with the required
 maintenance and logistics support
 to operate the system.
Command, Control, Communications and  12/07/2007............       $64.5
 Intelligence (C3I) and Common
 Operating Picture.--Related to the
 development of the next version of
 the SBInet operating software to
 design, develop, and demonstrate a
 functional SBInet C3I/COP system.
Supply and Supply Chain Management.-- 01/07/2008............      $733.3
 The development and implementation
 of a supply and supply chain
 management system solution to
 execute tactical infrastructure
 projects.
------------------------------------------------------------------------
Source: GAO analysis of CBP data.

    In addition to deploying technology across the southwest border, 
the SBI program office plans to deploy 370 miles of single-layer 
pedestrian fencing and 300 miles of vehicle fencing by December 31, 
2008. Pedestrian fencing is designed to prevent people on foot from 
crossing the border and vehicle fencing is physical barriers meant to 
stop the entry of vehicles. The SBI program office, through the 
tactical infrastructure program, is using the U.S. Army Corps of 
Engineers (USACE) to contract for fencing and supporting infrastructure 
(such as lights and roads), complete required environmental 
assessments, and acquire necessary real estate.\7\ In addition, in 
January 2008, CBP issued Boeing a supply and supply chain management 
task order for the purchase of construction items, such as steel.
---------------------------------------------------------------------------
    \7\ The SBI program office contracted with Boeing to construct 32 
miles of fencing in the Barry M. Goldwater Range. Deployment of this 
fencing has been completed, and the SBI program office plans to use 
USACE to contract for all remaining pedestrian fencing and vehicle 
barriers to be deployed through December 2008.
---------------------------------------------------------------------------
    In December 2006, DHS estimated that the total cost for completing 
the deployment along the southwest border will be $7.6 billion from 
fiscal years 2007 through 2011. DHS has not yet reported the estimated 
life cycle cost for the SBI program, which is the total cost to the 
government for a program over its full life, consisting of research and 
development, operations, maintenance, and disposal costs.\8\ Since 
fiscal year 2007, Congress has appropriated about $2.5 billion for SBI. 
DHS has requested an additional $775 million for SBI for fiscal year 
2009.
---------------------------------------------------------------------------
    \8\ See GAO, Cost Assessment Guide: Best Practices for Estimating 
and Managing Program Costs--Exposure Draft, GAO-07-1134SP (Washington, 
DC, July 2007).
---------------------------------------------------------------------------
 first sbinet technology deployment is complete, but lessons have been 
                                learned
    DHS announced its final acceptance of Project 28 from Boeing on 
February 22, 2008, completing its first efforts at implementing SBInet, 
and is now gathering lessons learned from the project that it plans to 
use for future technology development. The scope of the project, as 
described in the task order between Boeing and DHS, was to provide a 
system with the detection, identification, and classification 
capabilities required to control the border, at a minimum, along 28 
miles within the Tucson sector. To do so, Boeing was to provide, among 
other things, mobile towers equipped with radar, cameras, and other 
features, a COP that communicates comprehensive situational awareness, 
and secure-mounted laptop computers retrofitted in vehicles to provide 
agents in the field with COP information. As we previously reported, 
\9\ Boeing delivered and deployed the individual technology components 
of Project 28--such as the towers, cameras and radars--on schedule.\10\ 
See figures 2 and 3 below for photographs of SBInet technology along 
the southwest border.
---------------------------------------------------------------------------
    \9\ GAO-08-131T.
    \10\ Project 28 components include nine mobile radar/sensor towers; 
four unattended ground sensors, 70 small handheld satellite phones that 
allow for agents to communicate throughout the Tucson sector, and 50 
CBP agent vehicles with secure-mounted laptop computers and 
communications capabilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    However, Boeing's inability to integrate these components with the 
COP software delayed the implementation of Project 28 over 5 months 
after the planned June 13, 2007, milestone when Border Patrol agents 
were to begin using Project 28 technology to support their activities. 
Specifically, SBI program office officials said that the software that 
Boeing selected for the COP was intended to be used as a law 
enforcement dispatch system and was not designed to process and 
distribute the type of information being collected by the cameras, 
radars, and sensors. However, SBI officials told us that Boeing 
selected the system based on initial conversations with Border Patrol 
officials, but when deployed to the field, Boeing found limitations 
with the system. As we reported in October 2007, among other technical 
problems reported were that it was taking too long for radar 
information to display in command centers and newly deployed radars 
were being activated by rain or other environmental factors, making the 
system unusable.\11\ According to officials from the SBI program 
office, Boeing worked to correct these problems from July through 
November 2007. As one example of improvement, Border Patrol officials 
reported that Boeing added an auto focus mechanism on the cameras 
located on the nine towers.\12\ However, SBInet and Border Patrol 
identified issues that remain unresolved. For example, the Border 
Patrol reported that as of February 2008 problems remained with the 
resolution of the camera image at distances over 5 kilometers, while 
expectations were that the cameras would work at about twice that 
distance.
---------------------------------------------------------------------------
    \11\ GAO-08-131T.
    \12\ As part of Project 28, Boeing erected nine towers equipped 
with radar, cameras, communications systems, and unattended ground 
sensors linked to a command and control center.
---------------------------------------------------------------------------
    From June 26 through November 19, 2007, Boeing submitted three 
corrective action plans, documents that defined Boeing's technical 
approach for correcting the problems associated with Project 28 and the 
steps that needed to occur for DHS to conditionally accept the system. 
As we reported in October, DHS officially notified Boeing in August 
2007 that it would not accept Project 28 until certain problems were 
corrected. DHS conditionally accepted Project 28 on December 7, 2007, 
but included a requirement for Boeing to analyze the quality of the 
project's video signals, radar data, and the timing of all components 
by January 11, 2008. Upon conditional acceptance, the Government began 
operating Project 28, and SBI program office and Border Patrol 
officials told us that plans were under way to conduct additional 
testing of the system capabilities--including operational testing, 
which is used to determine that the system performs in the environment 
in which it is to operate. This testing was not scheduled to take place 
until after final acceptance of Project 28. According to SBI program 
office and Border Patrol officials, the results of this testing will 
not be used to make changes to Project 28, but will instead be used to 
guide future SBInet development. In addition, DHS announced its final 
acceptance of Project 28 on February 22, 2008 noting that Boeing met 
its contractual requirements. However, according to SBI program 
officials, the outcomes of future SBInet development will define the 
equipment that will replace most of Project 28 system components. Both 
SBI program office and Border Patrol officials stated that although 
Project 28 did not fully meet their expectations, they are gathering 
lessons learned and are ready to move forward with developing SBInet 
technologies that will better meet their needs. Table 2 summarizes key 
events for Project 28.

                   TABLE 2.--KEY EVENTS FOR PROJECT 28
------------------------------------------------------------------------
                   Event                                Date
------------------------------------------------------------------------
DHS awarded the Project 28 task order to    October 2006.
 Boeing.
Boeing deployed the individual technology   June 2007.
 components of Project 28 on time, but
 missed its initial deadline to deliver
 the fully integrated system to the
 Government.
Boeing submitted first corrective action    June 2007.
 plan.
CBP officials officially notified Boeing    August 2007.
 that CBP would not accept Project 28
 until certain problems were corrected.
Boeing submitted second corrective action   September 2007.
 plan.
Boeing submitted third corrective action    November 2007.
 plan.
DHS conditionally accepted the Project 28   December 2007.
 system delivered by Boeing.
DHS announced its final acceptance of       February 2008.
 Project 28.
------------------------------------------------------------------------
Source: GAO presentation of SBInet data.

    The SBI program office reported that it is moving forward with 
SBInet development beyond Project 28; however, it has revised its 
approach and timeline for doing so. As noted earlier in this statement, 
in addition to the $20.6 million task order awarded for Project 28, 
Boeing has also received other task orders as part of its overall 
contract with CBP. For example, in August 2007 DHS awarded a $69 
million task order to Boeing to design the technical, engineering, and 
management services it would perform to plan and deploy SBInet system 
components within the Border Patrol's Tucson, Yuma, and El Paso 
sectors. In addition, the SBI program office reported that on December 
7, 2007, DHS awarded a 14-month task order worth approximately $64.5 
million to Boeing to design, develop, and test, among other things, an 
upgraded COP software system for CBP command centers and agent 
vehicles, known as COP version 0.5. According to the SBI program 
office, planned SBInet development, such as the work being conducted by 
Boeing under these task orders, will eventually replace and improve 
upon Project 28. These officials stated that in light of the 
difficulties that DHS encountered during Boeing's deployment of Project 
28, the Secretary requested and CBP has proposed a revised strategy 
that is more deliberative. As two SBInet program managers put it, they 
want to develop SBInet ``right, not fast''. We reported in October 2007 
that SBI program office officials expected to complete all of the first 
phase of technology projects by the end of calendar year 2008.\13\ 
However, in February 2008, the SBI program office estimated that the 
first planned deployment of technology--including components linked to 
the updated COP--will occur in two geographic areas within the Tucson 
sector by the end of calendar year 2008, with the remainder of the 
deployments to the Tucson, Yuma, and El Paso sectors completed by the 
end of calendar year 2011. Officials from the SBI program office said 
that the Project 28 location is one of the two areas where the planned 
first deployments will occur. An official from the SBI program office 
noted that this schedule reflects DHS's revised approach to developing 
SBInet technology and that meeting this timeline depends, in part, on 
the availability of funding. At this time, the SBI program office is 
still in the process of defining life cycle costs for SBInet 
development.
---------------------------------------------------------------------------
    \13\ GAO-08-131T.
---------------------------------------------------------------------------
    SBI program office and Border Patrol officials told us they have 
learned lessons during the development of Project 28 that will 
influence future SBInet development, including the technology that is 
planned to be deployed along the southwest border. For example, testing 
to ensure the components--such as radar and cameras--were integrated 
correctly before being deployed to the field at the Tucson sector did 
not occur given the constraints of the original 8-month timeline of the 
firm-fixed-price task order with Boeing, according to officials from 
the SBI program office.\14\ As a result, incompatibilities between 
individual components were not discovered in time to be corrected by 
the planned Project 28 deployment deadline. To address this issue 
moving forward with SBInet development, Boeing has established a 
network of laboratories to test how well the integration of the system 
works, and according to the SBI program office, deployment will not 
occur until the technology meets specific performance specifications.
---------------------------------------------------------------------------
    \14\ A firm-fixed-price contract provides for a price that is not 
subject to any adjustment on the basis of the contractor's cost 
experience in performing the contract. This contract type places 
maximum risk upon the contractor and full responsibility for all costs 
and resulting profit or loss. The period of performance for the 
original Project 28 contract spanned 8 months, from October 13, 2006 
through June 12, 2007.
---------------------------------------------------------------------------
    Another lesson learned involved how the Project 28 system 
requirements were developed by Boeing. SBI program office and Border 
Patrol officials told us that the requirements for how the Project 28 
system was to operate were designed and developed by Boeing with 
minimal input from the intended operators of the system, including 
Border Patrol agents. Instead, Boeing based the requirements for how 
Project 28 was to be designed and developed on information in the 
contract task order. The lack of user involvement resulted in a system 
that does not fully address or satisfy user needs. In February 2008, 
SBI program officials reported that Project 28 was designed to be a 
demonstration project, rather than a fully operating system, and there 
was not enough time built into the contract to obtain feedback from all 
of the intended users of the system during its design and development. 
While Border Patrol agents in the Tucson sector agreed with Boeing's 
conceptual design of Project 28, they said the final system might have 
been more useful if they and others had been given an opportunity to 
provide feedback throughout the process. For example, Border Patrol 
agents told us they would have found the laptops mounted into agent 
vehicles safer and easier to use if they were larger and manipulated by 
a touch screen rather than with a pencil-shaped stylus, as using a 
stylus to manipulate the screen while driving is impractical. In 
addition, the laptops were not mounted securely enough to prevent 
significant rattling when driving on rough terrain, making the laptops 
difficult to use and prone to needing repair.
    While user feedback was limited for Project 28, SBI program office 
officials have recognized the need to involve the intended operators 
when defining requirements and have efforts underway to do so for 
future SBInet development. For example, officials from the Border 
Patrol, CBP Air and Marine, and the CBP Office of Field Operations 
reported that representatives from their offices were involved in the 
development of requirements for SBInet technology as early as October 
2006 and on an ongoing basis since then. Specifically, SBI program 
officials stated that Border Patrol users participated in requirements 
workshops with Boeing held in October 2006 at CBP headquarters and then 
at various field locations from December 2006 through June 2007, from 
which the SBInet operational requirements were derived (a process 
separate from Project 28). According to the SBI program office, users 
from other CBP offices such as the Office of Field Operations and Air 
and Marine have been involved in meetings as the SBI program office 
updates these requirements in preparation for the next development 
efforts. Additionally, SBI program officials stated that Boeing held 
meetings in January and February 2008 specifically designed to 
integrate user input to the development of the COP version 0.5.

  LOCAL BORDER PATROL USERS REPORT THAT PROJECT 28 IS NOT AN OPTIMAL 
  SYSTEM, BUT THOSE TRAINED ON THE SYSTEM WILL OPERATE IT UNTIL IT IS 
                                REPLACED

    Since DHS conditionally accepted the task order from Boeing on 
December 7, 2007, those Border Patrol agents in the Tucson sector that 
have received updated training on Project 28 have been using the 
technologies as they conduct their border security activities. Border 
Patrol agents reported that they would have liked to have been involved 
sooner with the design and development of Project 28, since they are 
the ones who operate the system. Border Patrol officials stated that it 
is not an optimal system. Border Patrol agents from the Tucson sector 
provided examples of Project 28 capabilities that do not adequately 
support Border Patrol operations because of their design. As noted 
earlier in this statement, Border Patrol agents have had difficulties 
using the laptops mounted into agent vehicles to provide them with COP 
information. However, according to Border Patrol agents, Project 28 has 
provided them with improved capabilities over their previous equipment, 
which included items such as cameras and unattended ground sensors that 
were only linked to nearby Border Patrol units, not into a centralized 
command and control center. In addition, Border Patrol officials we 
spoke with at the Tucson sector noted that Project 28 has helped its 
agents become more familiar with the types of technological 
capabilities they are integrating into their operations now and in the 
future. As we reported in October 2007, the Border Patrol's Tucson 
sector was developing a plan to integrate SBInet into its operating 
procedures.\15\ However, in February 2008 a senior official from the 
Border Patrol's Tucson sector told us that the plan is still in draft 
form because of the delays in the deployment of Project 28.
---------------------------------------------------------------------------
    \15\ GAO-08-131T.
---------------------------------------------------------------------------
    In October 2007 we reported that the 22 trainers and 333 operators 
who were initially trained on the Project 28 system were to be 
retrained with revised curriculum because of deployment delays and 
changes to the COP software.\16\ As of January 2008, 312 Border Patrol 
operators and 18 trainers had been retrained on Project 28.\17\ 
According to Border Patrol agents we spoke with at the Tucson sector, a 
group of Border Patrol agents provided significant input into the 
revisions that the Boeing subcontractor made to the Project 28 training 
curriculum. Officials from the SBInet Training Division and Border 
Patrol agents reported that originally there were plans to train 728 
Border Patrol operators located in the Project 28 area by January 2008. 
However, now no additional training will be conducted on Project 28, as 
they are expecting that future SBInet development will eventually 
replace Project 28. For example, according to the SBInet Training 
Division, the COP version 0.5 currently under development by Boeing 
will replace the Project 28 COP, and this will require new training.
---------------------------------------------------------------------------
    \16\ GAO-08-131T.
    \17\ According to the SBInet Training Division, the reason some 
staff received the initial Project 28 training but did not receive the 
updated training was because the staff were either transferred or 
because of changed job responsibilities.
---------------------------------------------------------------------------
TACTICAL INFRASTRUCTURE DEPLOYMENT ON SCHEDULE, BUT FURTHER DEPLOYMENT 
         WILL BE CHALLENGING AND TOTAL COSTS ARE NOT YET KNOWN

    Deployment of tactical infrastructure projects along the southwest 
border is on schedule, but meeting the SBI program office's goal to 
have 370 miles of pedestrian fence and 300 miles of vehicle fencing in 
place by December 31, 2008, will be challenging and total costs are not 
yet known.\18\ As of February 21, 2008, the SBI program office reported 
that it had constructed 168 miles of pedestrian fence and 135 miles of 
vehicle fence (see table 3).
---------------------------------------------------------------------------
    \18\ The Consolidated Appropriations Act of 2008, requires DHS to 
complete construction by December 31, 2008 of 370 miles (or other 
mileage determined by the Secretary) of reinforced fencing along the 
southwest border wherever the Secretary determines it would be most 
practical and effective in deterring smugglers and aliens attempting 
illegal entry.

                  TABLE 3.--TACTICAL INFRASTRUCTURE DEPLOYMENT PROGRESS AS OF FEBRUARY 21, 2008
----------------------------------------------------------------------------------------------------------------
                                                                                   Total                 Miles
                                                            Miles in    Miles     Miles in    Target   Remaining
                   Infrastructure Type                       Place     Deployed   Place as  for 12/31/  to Meet
                                                             Before    Through    of 2/21/      08      12/31/08
                                                              SBI        SBI         08                  Target
----------------------------------------------------------------------------------------------------------------
Pedestrian fencing.......................................         78         90        168        370        202
Vehicle fencing..........................................         57         78        135        300        165
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of SBI data.

    According to SBI program office officials, the deployment of 
tactical infrastructure projects is on schedule, but these officials 
reported that keeping on schedule will be challenging because of 
various factors, including difficulties in acquiring rights to border 
lands.\19\ Unlike prior fencing projects that were primarily located on 
Federal land, approximately 54 percent of planned projects are 
scheduled to be constructed on private property. We previously reported 
that as of July 2007, CBP anticipated community resistance to 
deployment for 130 of its 370 miles of pedestrian fencing miles. CBP 
officials told us that, of 480 owners of private property along the 
relevant segments of the border, all but 148 gave CBP access to survey 
their land prior to December 2007. In December, CBP, working in 
conjunction with the Department of Justice (DOJ), sent letters to most 
of the 148 remaining land owners reiterating the request for access and 
notifying them of the Government's intent to pursue court-ordered 
access if necessary. As of February 16, 2008, approximately 50 percent 
of the land owners who received these letters had given CBP access to 
their land to do surveys. In some cases where access has not been 
granted, DOJ has begun the legal process known as ``eminent domain'' to 
obtain court-ordered access to the property.\20\ SBI program office 
officials state that they are working to acquire rights to border 
lands; however, until the land access issues are resolved, this factor 
will continue to pose a risk to meeting the deployment targets.
---------------------------------------------------------------------------
    \19\ In October 2007, we reported that according to CBP officials, 
other factors that continue to pose a risk to meeting deployment 
targets include conducting outreach necessary to address border 
community resistance and devoting time to identify and complete steps 
necessary to comply with environmental regulations. See GAO-08-131T.
    \20\ Eminent domain refers to the power of a Government entity to 
take privately owned property, especially land, and convert it to 
public use, subject to reasonable compensation of the owner.
---------------------------------------------------------------------------
    SBI program office officials are unable to estimate the total cost 
of pedestrian and vehicle fencing because they do not yet know the type 
of terrain where the fencing is to be constructed, the materials to be 
used, or the cost to acquire the land. In addition, in October 2007, we 
reported that to minimize one of the many factors that add to the cost, 
CBP has previously drawn upon its Border Patrol agents and Department 
of Defense military personnel to assist in such efforts.\21\ However, 
SBI program office officials reported that they plan to use more costly 
commercial labor for future infrastructure projects to meet their 
deadlines. In February 2008, SBI program office officials told us that 
they estimate construction costs for pedestrian fencing will be about 
$4 million per mile and vehicle fencing costs will be about $2 million 
per mile. However, total costs will be higher because this estimate 
does not include other expenses, such as contract management, contract 
incentives to meet an expedited schedule, higher-than-expected property 
acquisition costs, and unforeseen costs associated with working in 
remote areas.
---------------------------------------------------------------------------
    \21\ GAO-08-131T.
---------------------------------------------------------------------------
    As the SBI program office moves forward with tactical 
infrastructure construction, it is making modifications based on 
lessons learned from previous fencing efforts. For example, for future 
fencing projects, the SBI program office plans to buy construction 
items, such as steel, in bulk; use approved fence designs; and contract 
out the maintenance and repair of the tactical infrastructure. SBI 
program office officials estimate that buying essential items in bulk 
will make fencing deployment more economical and will reduce the 
likelihood of shortages and delays of critical equipment. SBI program 
office officials also believe that using pre-approved and tested fence 
designs (see fig. 4) will expedite preconstruction planning and will 
allow for more efficient maintenance and repair. In addition, the SBI 
program office plans to award a contract to maintain and service all 
initial, current, and future tactical infrastructure deployed through 
SBI because it believes that it will be more efficient than relying on 
Border Patrol agents and military personnel who also have other duties.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     PROGRESS MADE TO MEET STAFFING GOALS AND A HUMAN CAPITAL PLAN 
          PUBLISHED, BUT IMPLEMENTATION IS IN THE EARLY STAGES

    The SBI program office established a staffing goal of 470 employees 
for fiscal year 2008, made progress toward meeting this goal and 
published a human capital plan in December 2007; however, the SBI 
program office is in the early stages of implementing this plan. As of 
February 1, 2008, the SBI program office reported having 142 Government 
staff and 163 contractor support staff for a total of 305 employees, up 
from 247 staff on September 30, 2007. In addition, SBI program office 
officials reported that they had selected an additional 39 staff that 
the program office is in the process of bringing onboard. These 
officials also told us that they believe they will be able to meet 
their staffing goal by the end of September 2008 and will have 261 
Government staff and 209 contractor support staff on board (see table 
4). In addition, according to SBI program office officials, they would 
like to bring the ratio of Government employees to contractor staff 
closer to 1:1 because their office has determined that that ratio 
provides the right mix of personnel with the skills necessary to ensure 
appropriate Government oversight. The targeted ratio, based on the 
staffing goal for fiscal year 2008, would result in a better than 1:1 
ratio of Government-to-contract support staff.

          TABLE 4.--ACTUAL AND PLANNED SBI PROGRAM OFFICE STAFF
------------------------------------------------------------------------
                                          Actual,    Actual,    Planned,
          Number of SBI Staff            September   February  September
                                          30, 2007   1, 2008    30, 2008
------------------------------------------------------------------------
Government employees...................        113        142        261
Contractor support staff...............        134        163        209
                                        --------------------------------
      Total............................        247        305        470
------------------------------------------------------------------------
Source: GAO analysis of CBP data.

    In December 2007, the SBI program office published the first 
version of its Strategic Human Capital Management Plan and is now in 
the early implementation phase. As we have previously reported, a 
strategic human capital plan is a key component used to define the 
critical skills and competencies that will be needed to achieve 
programmatic goals and outline ways an organization can fill gaps in 
knowledge, skills, and abilities.\22\ The SBI program office's plan 
outlines seven main goals for the office and includes planned 
activities to accomplish those goals, which align with Federal 
Government best practices.\23\ However, the activities are in the early 
stages of implementation. We have previously reported that a properly 
designed and implemented human capital program can contribute to 
achieving an agency's mission and strategic goals.\24\ Until the SBI 
program office fully implements its plan, it will lack a baseline and 
metrics by which to judge the program. Table 5 summarizes the seven 
human capital goals, the SBI program office's planned activities and 
steps taken to accomplish these activities, as of February 20, 2008.
---------------------------------------------------------------------------
    \22\ See GAO, Human Capital: Key Principles for Effective Strategic 
Workforce Planning, GAO-04-39 (Washington, DC: December 2003), and 
Framework for Accessing the Acquisition Function at Federal Agencies, 
GAO-05-218G (Washington, DC: September 2005).
    \23\ These best practices are contained in the Government-wide 
Human Capital Assessment and Accountability Framework which was 
developed by Office of Management and Budget, the Office of Personnel 
Management, and the GAO.
    \24\ GAO-04-39.

TABLE 5.--HUMAN CAPITAL GOALS, PLANNED ACTIVITIES, AND STEPS TAKEN AS OF
                            FEBRUARY 20, 2008
------------------------------------------------------------------------
                                                       Steps Taken as of
     SBI Human Capital Goals      Planned Activities     February 2008
------------------------------------------------------------------------
(1) Develop a coherent framework  Complete the SBI    <bullet> Completed
 of human capital policies,        human capital       the first draft
 programs, and practices to        plan.               of the human
 achieve a shared vision                               capital plan.
 integrated with SBI's strategic                      <bullet> Prepared
 plan.                                                 the fiscal year
                                                       2008 staffing
                                                       plan.
(2) Prepare leaders to lead and   (1) Identify key    <bullet> Planning
 manage the work force.            leaders' skills     SBI leadership
(3) Create and instill within      and competencies,   offsite meeting
 the organization a value-driven   develop and         in early April,
 organization.                     deliver a           which will
                                   leadership/         include
                                   management          discussions of
                                   workshop focused    leadership needs.
                                   on equipping SBI   <bullet> Planning
                                   leaders with        to conduct 360
                                   these skills.       assessments for
                                  (2) Identify key     SBI leadership in
                                   organization        late spring/early
                                   values and create   summer.
                                   an SBI Value
                                   Statement.
(4) Develop and implement a       Develop a           <bullet> Not yet
 succession management plan.       succession          started.
                                   strategy for
                                   mission critical
                                   positions.
(5) Define the performance        Based on the CBP    <bullet> Designed
 culture (reward excellence).      Awards and          but not yet
                                   Recognition         implemented a
                                   Program, create     program to
                                   an SBI policy and   recognize high
                                   practice on         performers.
                                   rewards and        <bullet> Drafted a
                                   recognition.        recognition
                                                       program.
(6) Hire, recruit, develop, and   Fill vacancies      <bullet> Developed
 retain employees with the         with qualified      an orientation
 skills for mission                professionals and   course for new
 accomplishment.                   create a            employees.
                                   Supervisors'       <bullet> Drafted,
                                   Onboarding Guide    but not yet
                                   and retention       finalized the
                                   interview process.  Supervisors'
                                                       Onboarding Guide.
                                                      <bullet> Recruitme
                                                       nt efforts under
                                                       way to fill open
                                                       SBI positions in
                                                       all programs.
(7) Establish leadership          Clarify key         <bullet> Not yet
 accountability for human          leadership          started.
 capital management.               responsibilities
                                   and metrics of
                                   success.
------------------------------------------------------------------------
Source: GAO analysis of CBP data.

                        CONCLUDING OBSERVATIONS

    Securing the Nation's borders is a daunting task. Project 28, an 
early technology project, resulted in a product that did not fully meet 
user needs and the project's design will not be used as the basis for 
future SBInet development. To ensure that future SBInet development 
efforts deliver an operational capability that meets user needs and 
delivers technology that can be used in additional projects, it is 
important that the lessons learned on Project 28 continue to be applied 
and that user input continues to be sought so that future technology 
projects are successful. In the tactical infrastructure area, although 
fencing projects are currently on schedule, meeting future deadlines 
will be challenging because of various factors, including difficulties 
in acquiring rights to border land. Furthermore, future tactical 
infrastructure costs are not yet known because issues regarding land 
acquisition have not been resolved and other decisions, such as the 
materials to be used, have not been made. These issues underscore 
Congress' need to stay closely attuned to DHS's progress in the SBI 
program to make sure that performance, schedule, and cost estimates are 
achieved and the Nation's border security needs are fully addressed.
    This concludes my prepared testimony. I would be happy to respond 
to any questions that Members of the subcommittees may have.

    Ms. Sanchez. Thank you, Mr. Stana.
    I have just been informed that in about 10 to 15 minutes, 
we are going to have one vote on the floor. So what I would 
like to try to do--I notice that we have been joined by our 
Chairman of the full committee, Mr. Thompson, and our Ranking 
Member, the Oversight Committee.
    What I would like to try to do is to get through the 
testimony of the witnesses and then hopefully break for a vote. 
You guys could take a coffee break at that point and we will 
come back for the questions.
    So if you could adhere to the 5-minute rule as much as you 
can, I would really appreciate it.
    I believe now that we have Mr. Krone for 5 minutes.

   STATEMENT OF ROGER A. KRONE, PRESIDENT, NETWORK AND SPACE 
    SYSTEMS, INTEGRATED DEFENSE SYSTEMS, THE BOEING COMPANY

    Mr. Krone. Thank you and good morning, Chairman Thompson, 
Chairwoman Sanchez, Ranking Member Souder, Chairman Carney, and 
Ranking Member Rogers, and distinguished subcommittee Members.
    I am Roger Krone, president of Boeing's Network and Space 
Systems, and I am pleased to be here at this time with the 
program having achieved full acceptance of Project 28 last 
Thursday.
    P-28's purpose is to provide the Border Patrol with a 
prototype deployment that they can use in daily operations, 
while, at the same time, evaluating the system to make 
recommendations for technology and operational improvements in 
future developments.
    Recommendations from the Border Patrol, maturation of 
systems design, availability of new technology, and differences 
in border terrain, environment, threat and other factors 
dictate that each future deployment will be a unique 
combination of technology, infrastructure, and response 
capability specifically chosen to maximize the efficiency for 
the Border Patrol in that location.
    Lessons learned: While we are proud of the accomplishment 
of our P-28 team, we recognize the need to incorporate 
improvements and lessons learned into the overall SBInet 
program.
    There are three that I would like to highlight today. First 
and most importantly, it is the need for engagement with a 
broad set of customer stakeholders, to include the actual users 
within the Border Patrol.
    Knowing how these various customers work together and 
understanding what technology and infrastructure serves best to 
assist them in accomplishing their mission is key to a 
successful SBInet program.
    We now have excellent working relationships with a wide 
range of DHS stakeholders, including the Border Patrol, and are 
evolving the system to meet the needs and desires they express.
    Chief Aguilar and his staff deserve a lot of credit for 
bringing this about.
    A second lesson learned is the need for a much more capable 
command and control software, referred to as the common 
operating picture. We initiated an effort on Boeing funds in 
October to address this requirement and signed a task order 
formalizing the project on December 7, last year.
    The first edition of the next generation common operating 
picture will be available in mid-2008.
    Another major lesson is the need for more robust 
integration and testing prior to deployment. In connection with 
that, Boeing has invested company funds to support DHS in the 
creation of new facilities to conduct the increased testing.
    We built a systems integration lab in Huntsville, Alabama 
to test and integrate systems components in a lab environment 
prior to installing them in the field.
    In Northern Virginia, we have created two additional 
laboratories. The first is a command, control, communications 
and intelligence common operating picture, rapid application 
development, joint application development lab to assist in the 
work on the next generation common operating picture.
    The second lab in Northern Virginia is a mission analysis 
and assessments lab to improve our capabilities, to design and 
model future lay-downs of the system.
    The first two labs are operational now and the mission 
analysis lab will be fully operational this spring.
    All of these facilities are allowing shoulder-to-shoulder 
joint development by contractor and government user teams.
    If I may, I have a 90-second clip to show those labs in 
operation. We could run the clip now.
    [BEGIN VIDEO CLIP]
    The first part of the clip shows the command and control 
center in Tucson and the existing towers that are part of the 
P-28 system. So this is the command and control center and we 
show, inside of that, what the screens look like, how the 
Border Patrol agents use the system.
    So that is actually the C-2 center and I understand that 
many of you have actually visited the C-2 center.
    Here is a Border Patrol agent getting training on the 
system.
    These are the towers that we currently have deployed. You 
can see, if we need to make adjustments to the radar, it is 
difficult. We have to lower the tower.
    So integrating the system in Tucson has been difficult.
    This is the new lab in Huntsville. You can see we have 
replicated in the lab three screens and you can see engineers 
here working on this system.
    Then, actually, on top of that physical building, we have 
installed two towers where we can put the radars and the EO 
sensors and technicians can easily access the equipment.
    Here, you see a technician adjusting one of the fleers. 
That was the radar on top of the tower. This makes it much 
easier, much faster for us to integrate.
    This is the rapid application development system here in 
Northern Virginia.
    By the way, we have encouraged staff and Members to come 
and visit.
    We can actually replicate the common operating picture in 
this lab and we are actually connected back to Huntsville. So 
we can tie the actual hardware in the loop into our development 
facility here in Northern Virginia.
    Of course, the end result is to deploy, in the future 
sectors, what we call Tucson 1 and Tucson 2, a robust system.
    [END VIDEO CLIP]
    Madam Chairwoman, with these and other lessons learned on 
P-28, we believe we are positioned to continue spiraling the 
system. We recognize the geographically diverse border will 
require a varied mix of technologies and personnel to support 
and conduct border security efforts in each unique segment of 
the border.
    The SBInet program has made significant progress since last 
October, when I appeared before the committee.
    Boeing is committed to building, deploying and continually 
improving an efficient operational system to assist the Border 
Patrol in securing America's borders.
    Thank you.
    [The statement of Mr. Krone follows:]

                  Prepared Statement of Roger A. Krone
                           February 27, 2008

    Good morning, Chairman Thompson, Ranking Member King, Chairwoman 
Sanchez, Ranking Member Souder, Chairman Carney and Ranking Member 
Rogers. I am Roger Krone, President of Boeing's Network and Space 
Systems. It is a pleasure to be back before this committee to talk 
about Project 28 and the future of SBInet.
    I am pleased to be here at this time with the program having 
successfully achieved a major milestone--Full Acceptance of Project 
28--last Thursday. P-28 is an initial proof of concept of the SBInet 
technical solution on a segment of the border. Its purpose is to 
provide the Border Patrol with a prototype deployment they can use in 
daily operations, while at the same time, evaluating the system to make 
recommendations for technology and operational improvements in future 
deployments. We have always understood that the P-28 installation in 
Arizona is not the end-state configuration of SBInet technology. 
Recommendations from the Border Patrol, maturation of system design, 
availability of new technology, and differences in border terrain, 
environment, threat, and other factors dictate that each future 
deployment will be a unique combination of technology, infrastructure, 
and response capability specifically chosen to maximize efficiency for 
the Border Patrol in that particular location.
    Before turning to the lessons learned and future of the program 
which you asked me to address, I would like to acknowledge and express 
my appreciation for the leadership of the Department of Homeland 
Security on this project. The ``hands-on'' approach by DHS leadership, 
including several trips to the border, has been instrumental to the 
progress and success of this program. We look forward to their 
continued involvement in 2008. My thanks also go to leadership of this 
committee and the committee staff for their interest in this program 
and advice.

                            LESSONS LEARNED

    While we are proud of the accomplishments of our P-28 team in 
achieving this milestone, we recognize the need to incorporate 
improvements and ``lessons learned'' into our overall SBInet program 
activities.
    First, and most important, is the need for engagement with a 
complete set of customer stakeholders to include the actual SBInet 
users within the Border Patrol. Knowing how these various customers 
work together and understanding what technology and infrastructure 
serves best to assist them in accomplishing their mission is key to a 
successful SBInet program. We now have excellent working relationships 
with a wide range of DHS stakeholders including the Border Patrol and 
are evolving the system to the needs and desires they express. Chief 
Aguilar and his staff deserve a lot of credit for bringing this about.
    A second lesson learned is the need for much more capable command 
and control software, usually referred to as the Common Operating 
Picture (COP). We initiated an effort in October to address this 
requirement and signed a task order formalizing the project on December 
7, 2007. The first edition of the next generation Common Operating 
Picture (COP 0.5) will be available in mid-2008.
    Another major lesson we have learned is the need for more robust 
integration and testing prior to deployment. In connection with that, 
Boeing has invested company funds to support DHS in the creation of new 
facilities to conduct the increased testing. We built a System 
Integration Lab (SIL) in Huntsville, Alabama, to test and integrate 
system components in a lab environment prior to installing them in the 
field. In Northern Virginia, we have created two additional laboratory 
facilities. The first is a Command, Control, Communications and 
Intelligence (C3I) Common Operating Picture Rapid Application 
Development/Joint Application Development (RAD/JAD) Lab to assist in 
the work on the next generation Common Operating Picture. The second is 
a Mission Analysis and Assessment (MA&A) Lab to improve our 
capabilities to design and model the future laydowns of the system. The 
labs are operational now and the MA&A lab will be fully functional this 
spring. All of these facilities are allowing joint development by 
contractor and Government user teams.

             NEAR TERM IMPROVEMENT AND EXPANSION OF SBINET

    Mr. Chairman, with these and other lessons learned on P-28, we 
believe we are positioned to continue spiraling the system. We 
recognize that a geographically diverse border will require a varied 
mix of technologies and personnel to support and conduct border 
security efforts in each unique segment of the border. Our combined 
Government/Boeing team has made significant progress on the planning, 
designing, engineering and management for future deployments in diverse 
environments.
A. Next Generation Common Operating Picture Command and Control 
        Software
    I have already mentioned the next generation Common Operating 
Picture which is being developed. Work is progressing on schedule, and 
the first version is due out this summer. This Common Operating Picture 
software will be a much more robust set of command and control software 
based on our collaboration with the Border Patrol and our extensive 
experience with networked systems. It will give the Border Patrol the 
benefit of a fully integrated Common Operating Picture as well as 
providing CBP, DHS and others the benefit of connectivity and potential 
growth.
B. Systems Engineering Approach
    Boeing has now deployed our standard systems engineering processes 
which will be utilized on all future task orders. Top level user 
requirements are analyzed through an iterative systems engineering 
process to determine hardware and software needs. The hardware and 
software needs are allocated to subsystems and lower level products. 
Once procured, each product is tested in the Systems Integration 
Laboratory in a hierarchical approach starting with the individual 
product, then integrating and testing products together at the 
subsystem level and then as fully integrated systems prior to 
deployment. Given the varying environmental conditions, products will 
also be sent to the intended deployment location for testing to ensure 
unique site conditions are understood. Additional subsystem and system 
verification testing occurs during deployment. Once the system is fully 
deployed, a series of operational evaluation tests will be conducted 
with Border Patrol Agents operating the system.
C. Expanded Fencing
    As you know, the Boeing Team constructed 31 miles of barriers and 
fencing south of the Barry M. Goldwater Range in Arizona. That project 
was completed last fall. We have signed a task order for which we will 
perform supply chain management for pedestrian and vehicle fence 
construction along the Southern Border. When completed, these physical 
barriers will reduce the probability of vehicles and/or pedestrians 
attempting to cross the border in these areas.

                               CONCLUSION
\
    In conclusion, the SBInet program has made significant progress 
since last October when I appeared before the committee. P-28 is now 
producing a higher degree of situational awareness for Border Patrol 
Agents. The Boeing Team, partnered with our Government customer, is 
preparing the next spiral of this system and is ready for the increased 
activity of the deployments that lie ahead. We are committed to 
building, deploying and continually improving a robust, efficient, 
operational system to assist the Border Patrol in securing America's 
borders.

    Ms. Sanchez. Thank you.
    I believe the other two gentlemen will not be testifying 
verbally today, although there are some statements that have 
been submitted.
    So with that, with the vote, I am told it is one vote on 
the floor, but I am told it is a procedural vote and there 
could be others or who knows what.
    So I think we are going to try, to the extent possible, to 
begin the questioning, and then maybe after a couple people, we 
will cut it off.
    Mr. Carney, I will let you go ahead for 5 minutes, if you 
would like.
    Mr. Carney. Thank you, Madam Chairwoman.
    Mr. Ahern, when problems with P-28 first began coming to 
light, the Department's initial response seemed to be to deny 
them.
    As they deepened, we were told that the biggest failing was 
that you all failed to ``manage expectations.'' For some frank 
and productive meetings we recently had with Deputy Secretary 
Schneider and other senior Department officials, I had hoped 
that we had gotten past those absurdities.
    Frankly, it was insulting, it was. So I was dismayed to see 
that in your testimony, it includes the same old-same old.
    I am particularly concerned with your statement that ``Once 
the P-28 effort was underway, with much public interest in its 
development, it came to mean different things to different 
people. Unfortunately, those interpretations diverged from what 
P-28 was intended to be and what the Government contracted 
for.''
    What does this mean? Are you still trying to manage our 
expectations here? Are you telling us we didn't hear what we 
heard, what Mr. Thompson and I heard?
    This has got to stop. We have got to know now what is going 
on. Then I have a follow-up.
    Mr. Ahern. First off, not trying to go ahead and mislead or 
have any further confusion to this process, what I wanted to 
state through the testimony, and I am happy to answer the 
question now, is that clearly the opportunity through this 
contract was for Boeing to go ahead and demonstrate their core 
capabilities through this demonstration project.
    We certainly could have waited and taken a longer approach 
to making sure it was done through a laboratory-type 
environment. We wanted to get it out there and see how the core 
capabilities could be demonstrated in an operational 
environment.
    It was not ready for operational deployment, and that is, I 
think, one of the key distinctions I would like to try to make 
here, because I believe that there was a lot of confusion 
internally with our own organization.
    This isn't just pointed in any particular direction, that 
it was to deliver immediate operational capability. This was a 
demonstration of capabilities that was certainly probably 
overstated.
    As we got to the point of moving through the summer 
timeframe, when we started to get engaged with some of the 
acceptance testing of this process, we realized that the 
operational capabilities were not there.
    That is when we started to go ahead and engage further with 
the operators, leading up to the conditional acceptance on 
December 7, this year, where we had a chance then to actually 
test it with much more rigor in an operational environment, 
working through the final deficiencies that led us to the final 
acceptance of February 21.
    Mr. Carney. You referred to P-28 as a proof of concept and 
it doesn't work as it was originally advertised, intended to.
    What concept are we proving?
    Mr. Ahern. Well, again, it was the concept as far as the 
solicitation was written based on input from operators, the 
program management staff, our acquisition experts, both within 
the organization and within the Department of Homeland 
Security, and each one of the companies that responded to the 
solicitation provided their proof of concept.
    The concept of operations was then to be put into the field 
for that demonstration, and that is what I believe was to occur 
during that period of time, not to deliver initial operating 
capability.
    This was not to be a plug-and-play type of system.
    As we have continued to learn over the last several months, 
we realized, as far as the initial hardware suite needs to be 
swapped out and upgraded. We realized, also, that the common 
operating picture, the software, actually needs to be more 
robust and upgraded, as well, and that is going to take us 
through to the further development of this system as it goes 
forward.
    Mr. Carney. Okay. Mr. Stana, from your most recent work, 
what have you heard from the agents in the field? What do they 
think of Project 28 and SBInet, more generally?
    Mr. Stana. It is interesting, because we made three 
substantive visits, one in May 2007, one in September 2007, and 
the other one just a couple weeks ago.
    It is interesting to note the difference in attitude toward 
Project 28.
    I think they had every reason to believe in the field that 
Project 28 was going to be two things. It was going to be a 
test of operations, concept, and it was to leave behind a 
capability.
    The fact that Boeing even issued a 1-year guarantee on the 
parts would indicate that there was supposed to be a leave-
behind capability.
    I can go through this document, which is the task order, 
and show exactly what was supposed to be left behind and what 
the tolerance expectation was supposed to be, which would give 
anybody the idea that this was supposed to be more than a 
simple test.
    However, in May, the Border Patrol was excited about it. 
People were being trained. They were excited about the 
capabilities.
    There were some parts they really weren't sure of, like 
taking operational control of cameras in the cars. They didn't 
see a need for it. But Boeing proposed it. Maybe it would work.
    It never really ended up working as they thought.
    In September, after they missed the deadline, some of the 
excitement turned to skepticism. The Border Patrol was 
understanding they were going to have to be retrained. They 
heard the radars focusing on raindrops and mesquite leaves, and 
it created some skepticism.
    By February, after the Border Patrol was working with the 
Boeing representatives to try to overcome some of the initial 
problems, they kind of came to a resignment that maybe it is 
time to get beyond this.
    It is not what they wanted, it never will be. They are 
going to replace all the equipment. Why put more money into 
something that is not eventually going to be the solution? 
Let's get it behind us, learn our lessons, and move forward.
    Mr. Carney. So we were resigned to accept Project 28 is 
what you are telling me.
    Mr. Stana. Well, I mean, it is the secretary's call. It is 
within his prerogative to accept it. I don't know what criteria 
he used to accept it.
    We got some documents yesterday that we plan to go over to 
look and see exactly what testing was done and what the 
criteria was to say that they met the contract specifications.
    If you look in this document, what the contract 
specifications were meant to be, they were very high--95 
percent, plus or minus 5 percent detection, things like that.
    I don't think they are close to that.
    Mr. Carney. Chief Aguilar, Mr. Giddens, what detection rate 
are we at now with P-28?
    Mr. Aguilar. Given the capabilities that we have right now 
under Project 28, we do not have a means to measure the actual 
detection rate, and that was not part of our understanding as 
to what was going to happen, not under P-28.
    Under SBInet, fully developed, we do have an expectation of 
being able to measure the actual incursions on a part of the 
border where SBInet is deployed.
    Mr. Carney. Mr. Krone, it is your project. It is your 
system. Is it 95 percent?
    Mr. Krone. Well, I would have to second what Chief Aguilar 
said, that we do not have a method of measuring end-to-end 
system performance against the 95 percent criteria.
    The components are all working according to specification 
at this point, though.
    Mr. Carney. So we were contracted for 95 percent and 
something we can't measure. I just want to be sure I understand 
this.
    Mr. Giddens. Sir, may I?
    Mr. Carney. Yes, Mr. Giddens.
    Mr. Giddens. We don't share the view that GAO has that the 
95 percent was an acceptance criteria.
    Mr. Carney. Was that in the document?
    Mr. Giddens. It was in the document as an indication of 
this was a goal as an end-state and where the system would 
pursue. It was not a hard objective for P-28 and the intent of 
P-28 was to be able to have a test process that we are 
undergoing now to try to understand, to characterize the system 
and be able to set the right thresholds and objectives moving 
forward.
    But acceptance of P-28 was not tied to a 95 percent 
detection.
    Mr. Carney. Mr. Stana.
    Mr. Stana. I would agree with that, but that changed. As I 
understand the document trail, that changed on or about 
September 10, when Boeing informed them that they would not be 
following some of the cost criteria for acceptance.
    So this is when the bar began to lower, or maybe it had 
begun to lower before, but the bar was lowering from a leave-
behind capability to something less than that as a 
demonstration of concept.
    The two concepts were always there, but it seems that the 
emphasis began to shift more in the late summer and early fall 
to the testing rather than a leave-behind deployed capability.
    Mr. Carney. Okay. We will return to this. Thank you. I am 
way over my time, Madam Chairman.
    Ms. Sanchez. We do have a vote on the floor, with about 7 
minutes to go.
    So I would recess for--I hope it is just one vote. That is 
what we are anticipating. So we will go over and we will get 
the feel on the floor.
    But I would imagine you probably have at least 10 minutes 
to grab a cup of coffee or something. I am sure there is staff 
around who can direct you, if you haven't already figured it 
out, because you have been here before so many times.
    We will return and take up this line of questioning. Thank 
you.
    [Recess.]
    Ms. Sanchez. The committees will now be back in order.
    At this point, we will go with Ranking Member Rogers for 
his 5 minutes, if you will.
    Mr. Rogers. Thank you. I thank the guests for being with us 
today.
    I was really frustrated listening to the answers to 
Chairman Carney's questions. It is disturbing to hear that you 
can't tell us what degree of effectiveness that that 28-mile 
stretch of land is achieving.
    Greg, is that an accurate assessment, that you really just 
don't know how effective it is?
    Mr. Giddens. At this point, we do not. Since we did final 
acceptance on February 21, we will now start and, actually, we 
will have a third party do some tests to give us insight on 
that.
    But since we were still--Boeing was still working on the 
system and evolving it and getting it to final acceptance, we 
did not do that type of formal testing on the system until we 
had final acceptance.
    So now that we have done that, that is when we will start 
to do that type of deliberate testing to get those percentages.
    Mr. Rogers. In the dialog going back between Chief Aguilar 
and Mr. Stana, there was some disagreement as to whether or not 
there was an expectation that, at some point, hopefully, in the 
near future, it is going to achieve a 95 percent level of 
effectiveness.
    Is that wrong? Is that not what your expectation is?
    Mr. Giddens. My expectation for SBInet overall is to reach 
the 95 percent. Again, we did not have a requirement for P-28, 
as itself, to reach 95 percent, but rather to get a 
demonstration project out that would function, that we could 
use to test and characterize the system. But it did not have a 
requirement for 95 percent.
    Mr. Rogers. By what point in time do you think we should be 
able to know, by this third party testing, what degree of 
effectiveness it is achieving?
    Mr. Giddens. Sir, I am pulling this off memory. I think we 
have about a couple months of a test regimen and then we have a 
review of test reports of that to analyze the data.
    So we are looking in the 2- to 3-month period.
    Mr. Rogers. Now, my understanding is that your Department 
paid no more than the original $20 million that was contracted; 
is that correct?
    Mr. Giddens. Sir, that is correct and, also, we got 
consideration back from Boeing due to the schedule delays and 
for the minor issues that were not resolved, as well.
    Mr. Rogers. What were the actual costs of the project?
    Mr. Giddens. Sir, I will try to be particular on this. The 
actual cost was $20.6 million, but in logistics and future 
work, there is a $2.2 million credit.
    So, effectively, it would be $20.6 million minus $2.2 
million.
    Mr. Rogers. I guess my question is: How much did Boeing 
have to spend to meet that contract requirement?
    Mr. Giddens. Sir, I don't know how much Boeing has spent.
    Mr. Rogers. Mr. Krone.
    That is the lead-up to your answer.
    Mr. Krone. Sir, my answer is nowhere near that remarkable.
    What we have said before this committee is, because we 
actually don't disclose financial data at the contract level, 
but more than twice the original value.
    Mr. Rogers. Okay. That is disturbing to know that this, 
what would seem to be a very manageable project, with no really 
new technology involved, this is stuff that we have been using 
in the DOD for quite a while, couldn't be put in place within 
what you expected the contract price to be.
    What happened?
    Mr. Krone. I think we underestimated the integration of 
off-the-shelf systems. We didn't do appropriate integration 
testing in the laboratory. So we ended up integrating in the 
Tucson center and when we brought this off-the-shelf hardware 
together with off-the-shelf software, it didn't function as we 
had anticipated.
    Also, as we started to operate shoulder-to-shoulder with 
actual Border Patrol agents, there were capabilities that we 
hadn't envisioned that they would want that they felt necessary 
to have in the system, enhancements on how they control 
cameras, how they do focus, how they track suspects, and we 
added those capabilities, as well.
    Mr. Rogers. Mr. Giddens, you know the history of ISIS and 
what a disaster that was, and we had hoped to take the lessons 
from that and do better on this and, apparently, we haven't 
done much better.
    My question to you is: what lessons are you taking from 
this to make sure that, as we go forward with our next phase of 
SBI, we are going to do better?
    Mr. Giddens. Sir, I guess I would start, respectfully, I 
think there is a difference between what happened with ISIS and 
what happened with Project 28.
    When Customs and Border Protection was presented with this 
system last summer, in July, we believed it did not meet the 
contractual requirements and instead of trying to move forward 
in some way or maneuver around that fact, we didn't take 
acceptance.
    I think that is the difference, I think, than what----
    Mr. Rogers. I agree the outcome as far as what you had to 
pay is desirable and so you learn not to sign an open-ended 
contract.
    But my point is the implementation of this technology to 
achieve its desired goal did not work out any better.
    My time is up. I apologize for going over and yield back.
    Ms. Sanchez. It is okay, it is a good line of questioning 
and we allow it when we are trying to get some facts on--we 
will now hear, for 5 minutes, from the gentleman from Laredo, 
Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair.
    Let me ask you, Mr. Krone. Last time we were here, I had 
asked you to get me the information to the cost of the 
equipment and you had a series of items.
    Mr. Krone. Right.
    Mr. Cuellar. Cameras, towers, and I still haven't received 
that information.
    That was nine portable radial camera towers, two mobile 
command and control communication units, four unattended ground 
sensors, 50 field agent communications systems, a common 
operating picture, and 70 satellite phones.
    I was trying to get the cost for each item.
    Mr. Krone. Right. Sir, I actually am checking with my 
staff. We actually prepared that and submitted it and if it 
didn't arrive at your office, then I apologize. But we did 
prepare it.
    Mr. Cuellar. Would you make sure, by the end of the day, 
that I get that delivered to my office?
    Mr. Krone. Yes, absolutely.
    Mr. Cuellar. A question to, I guess, maybe Mr. Giddens or 
Mr. Aguilar, Mr. Ahern.
    Besides using electronics, which we are talking about, let 
me just move to another option--the eradication of Carrizo cane 
along the Rio Grande. I know that Mr. Souder was down there and 
saw what we are seeing there.
    I think what you all are looking at is you all are looking 
at a USDA research facility, Weslaco, at the Moore Air Force 
Base. My understanding is that under the USDA budget proposal, 
they are recommending to close this facility, which is, I 
believe, the facility that you all are using that will be 
responsible for the development of the biological control agent 
Arundo donax, the insects, which are--again, I can tell you 
some people in my area don't like that approach.
    I mean, there is either a biological approach or there is 
an herbicide approach.
    When we had Chairman Bennie Thompson in Laredo, we were 
talking to the Texas Oil and Water Conservation. They have been 
using a particular herbicide for years at the Eagle Pass, at 
the Eagle Pass water district, at, north of that, the Pecos 
River.
    So they have been using this for years and years. When they 
asked them at the Pecos area, ``What would you rather use, 
insects or biological or the herbicides?'' about 98 percent of 
them, of the landowners at the Pecos River said, ``We want to 
use this herbicide.''
    The cost of this herbicide is about $200 an acre. It has 
proven to be safe.
    We had a meeting down there, a field hearing. Afterwards, 
we had invited, previously, homeland security. Originally, they 
said yes. Then they said no, because they said, ``We don't want 
to sanction this particular trip to a ranch where they have 
used this herbicide.''
    Personally, I went up there with a couple folks and we saw 
what was happening there, and it is working. I saw it first-
hand.
    I know that Mr. Souder also went to another ranch where 
they cleared the Carrizo, put grass, and Michael McCaul was 
also there, and it has worked.
    So if we can do it for $200 an acre, why can't we use this, 
especially when they are talking about closing your facility 
that is going to be used in this biological approach?
    Mr. Aguilar. Congressman, we are actually looking at three 
options out there, one of which includes that herbicide that is 
acceptable for use close to the Rio Grande River. That is a 
major concern that we have.
    One of the actual proposals included the use of Round-Up, 
what we would typically use in our lawns.
    That we cannot and should not use along the river because 
it feeds into the river and has potential for environmental 
damage. So that is the second option.
    The third option is going to be what you just described, to 
include the possibility of actually burning or cutting the 
Carrizo cane down. The Carrizo cane grows at a very fast rate, 
7 inches per week once you cut it down.
    Then we have to find a way to either uproot it or use that 
type of herbicide.
    The third option that we are looking at is, in fact, the 
biological agent that includes at Moore Field and Weslaco.
    But all three of those are being looked at. We have not 
ruled any one of them out and, in fact, one of the things that 
we are going through right now is the actual EIS process to 
figure out which one is the best, and we are listening to the 
community on what they think would be the best utility.
    Mr. Cuellar. Because if you think you are going to get 
pushback from the private property owners on the fence, you are 
going to get pushback on this biological, I can tell you that 
much, when you start saying we are going to release these 
Spanish bugs into your area.
    Would you be willing to sit down with some of the soil and 
water folks and the A&M folks from Texas at least so you can 
listen to them? Because they----
    Mr. Aguilar. Absolutely.
    Mr. Cuellar [continuing]. They feel that you guys are not 
listening. We just want an audience on that.
    Mr. Aguilar. Absolutely, yes, sir.
    Mr. Cuellar. Last question, Madam Chairwoman.
    Ms. Sanchez. I will allow it.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    Mr. Ahern, the ports of entry, as you recall, back in 
November, had sent a letter asking--and we are trying to work 
with you. We are not trying to set up a trap--asking how much 
personnel do you need at the ports of entry and how much 
infrastructure do we need at the ports of entry, north and 
south.
    As you recall, we haven't been able to get that information 
since November of last year and I have been promised over and 
over and over that we would get it.
    Do you all have that information available now?
    Mr. Ahern. Yes, we do and it is regrettable we don't have 
it provided to you just yet. I know you asked the secretary at 
the hearing a couple of weeks ago.
    We will make sure that we do get that to you. But I would 
be happy to give you a broad overview of what I believe is kind 
of our elements necessary going forward.
    Mr. Cuellar. If you can give us a broad overview. Do you 
know when you can actually get us something in writing?
    Mr. Ahern. I will check on that right after the hearing and 
provide that information back to staff to find out exactly 
where it is.
    Mr. Cuellar. Will it be within 3 days, 5 days, a month, a 
year?
    Mr. Ahern. It would be in a very short time. I know it is 
cleared the organization----
    Mr. Cuellar. Would that be within 3 days? Would it be 1 
week? I have been asking since November and everybody has been 
promising this.
    Mr. Ahern. It is in the clearance process outside of our 
organization. So I will need to find out precisely where it is 
and if I can have to the end of the day to give your staff the 
exact answer when they could expect that, I would be happy to.
    Mr. Cuellar. Okay.
    Mr. Ahern. But if I could just broadly state, as far as 
what is needed, certainly, as we focus between the ports of 
entry on SBI, to make sure we get operational control through 
the three pillars of infrastructure, personnel and technology, 
the same things are needed for the ports of entry.
    I believe even more so now, as we gain that operational 
control, we continue to see the growth in travel and trade 
coming across the borders. We just had the Governors conference 
here this week for the board of Governors who were in from 
Texas, New Mexico, California, as well as Arizona, and their 
counterparts across the border.
    Clearly, we need that same capability at the ports of 
entry. The facilities, some are as many as 70 years old. You 
are aware of some of those.
    Certainly, as far as the technology, it is not necessarily 
there nor the personnel.
    So we are working on a concept to actually have the same 
pillars of the appropriate staffing, looking at the model that 
we have that will be in the report to you.
    Depending as far as how quickly some of the enhancements to 
facilities come on, it could be in the 2,500 to 3,000 range, 
but we will work that model based on the precision of the needs 
for the facilities.
    The capital investments needed for the facilities is 
estimated at about $500 million a year over a 10-year period 
and, also, as far as the technology.
    The western hemisphere travel initiative, with the RFID 
readers, as well as the license plate readers, it is the 
beginning of technology, but it is not the complete answer.
    But we will be happy to give you a detailed briefing, even 
in addition to the letter, if you would like.
    Ms. Sanchez. The gentleman's time has expired.
    Commissioner Ahern, it is great to hear it in concept, but 
I think we really, this committee, many of the Members want to 
see it detailed as far as you have it detailed out.
    So I will expect to hear from Mr. Cuellar if you don't get 
back to him with a date certain when he can have that 
information.
    Mr. Ahern. Understood.
    Ms. Sanchez. I will now ask my Ranking Member from Indiana, 
for 5 minutes, please.
    Mr. Souder. Thank you.
    I am incredibly frustrated on a number of fronts, and the 
more time I spend in hearings, the more frustrated I get.
    I don't sense that the administration, I am not talking 
about any of you individually, as a whole does not understand 
that this issue is on fire across the country. Every 
administration has this problem, Republican or Democrat, that 
OMB does not want people to tell us the truth about the 
estimated costs, for fear it might bust the budget.
    The fact of the matter is we don't know, and then if we see 
a number come and choose not to fund it because we have needs 
in education and health care and everything else or Iraq, then 
that is our decision.
    But we are sitting here trying to figure out what is this 
going to cost, how quick could we get it done, what is the 
feasibility, and we can't even get things cleared, which isn't 
your problem, but it is administration-wide.
    It wasn't us, Mr. Ahern, who made Project 28 into a big 
deal. It was Secretary Chertoff and the President of the United 
States, who implied, when the Senate was debating the 
immigration bill and giving amnesty to the people on 
citizenship track, to the people who are here, that ``Oh, we 
are going to have the border all sealed. Look at Project 28. 
This is how we are going to do it and we are going to have all 
this done. So let us pass the administration bill,'' last year.
    Now, we are hearing 2011, we will have parts of this done. 
There is no sense of urgency here.
    Ten years until completion is an estimate. Ten years. That 
is another, what, 18 years after 9/11. We need to understand 
what we are actually hearing.
    Then we hear the frustrations with the project that you are 
hearing us bubble over.
    In my limited time left, I want to raise a couple other 
issues. I want to, first off, support Mr. Cuellar.
    Look, there isn't much favorability among any of us to 
release millions of bugs and wasps on the border if there are 
other alternatives.
    At these ranches, the fact is the cane grows fast. They 
have had the one that I visited cut for 4 years. While it grows 
fast, it doesn't get thick fast.
    The cane can be mowed in its early stages. So all they are 
doing is mowing. It is labor-intensive to destroy the cane if 
you do it manually. It may have to be contracted out.
    But once you get it down and get the grass, the grass 
chokes the cane and it is a far more acceptable type of 
environmental solution. This is an invasive species that the 
whole Project 28, as you move to Texas, which is the biggest 
part of the border, with the river, you cannot make electronics 
or other fence work if salt cedar and Carrizo cane are blocking 
the view. It isn't going to work.
    Between Congressman Pascrell and I, we saw, in the Laredo 
sector, in the morning, one of the Border Patrol with the dog 
got somebody that close behind me in the cane because we 
couldn't see him.
    In the area of this ranch where they hadn't cut it down, 
because they didn't need to for the view, I would have also 
been lost in that view.
    The cane is incredibly thick and the salt cedar does the 
same thing. In addition to basically destroying the river, it 
is taking anywhere from 33 to 50 percent of the water out in a 
species that was planted by somebody else because they thought 
it would accomplish something else.
    The Bermuda grass, I believe, can accomplish this, but it 
ought to be a priority, not one of the three things we are 
studying, and then--you know what? In Indiana, every year, we 
kill everything that is threatening a soybean and do it without 
doing soybean and it goes into our rivers and then you eat it.
    This is an herbicide challenge that, without introducing 
something that destroys the river or the other, but this other 
stuff isn't going to work as you move to Texas, as we are 
learning.
    Now, I have another gripe and that is that at Presidio, 
that I am going to give you warning, otherwise, I am just going 
to attach it and we will see how Congress votes in an 
appropriations bill. At Presidio, the only crossing between 
Laredo and El Paso, there is 3.5 miles of fencing on each side.
    It is not a high-traffic place, but when you are building 
the fencing, it would seem to be cost-effective to build it at 
one time.
    By the way, the idea of redoing the dikes and putting it up 
on the dike is a terrific idea, and that a lot of people don't 
understand, you are learning the fencing challenges as we go 
through this.
    The soil is different, different kinds of vehicle barriers, 
that it is more complicated than any of us thought, which is 
why we should have been on this a lot earlier.
    But as you look at these barriers, that one needs to go 
farther. I was told, ``Oh, well, this is the big area.'' By the 
way, that is Pablo Acosta's house right there on the border, 
who is a feature in the book ``Drug Lord,'' because this area 
is a big drug-running area.
    Guess what? Those hills over there past where the fence is 
going to be, that is where they got Pancho Villa, and that is 
why General Pershing was down there.
    This is an historic smuggling area and there is visibility. 
A vehicle barrier on top of the levy, as far as the levy goes, 
makes a lot of sense to do it at one time, because the startup 
of getting the steel down, moving the companies in, is going to 
be prohibitive later, and, I would argue, there, physical 
barriers matter some.
    I think that, also, at Eagle Pass, that this challenge has 
to be that there has to be some sense of urgency in the 
negotiation.
    I heard the mayor of Eagle Pass, on a San Antonio radio 
station, whining away about us putting a fence on top of--we 
have already moved it back from the golf course. We have 
already gone to a decorative fence. We have already built him a 
park, and he is still holding it up.
    I understand that all this isn't your problem, but the 
American people inside the country are demanding security 
reasons and that when we only have a few border things like 
this, we are going to have to be more aggressive at the Federal 
Government level, be cooperative as much as possible with the 
community, but we cannot have this project held up.
    I have incredible frustration with Project 28, and I hope 
we get a round two with this. But I wanted to put these other 
things out there, too, because you are headed into more 
problems as you move into the biggest border, which is Texas.
    Ms. Sanchez. I thank the gentleman from Indiana.
    At this point, we will ask the gentleman from New Jersey, 
Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you.
    I want to associate myself with the words of Mr. Souder. He 
doesn't have immigrant phobia. I think he has a realistic 
approach to this subject.
    This is what we mean, I want to make it clear from the 
beginning, of doing what we said we are going to do and not 
having high expectations and then having a hearing such as 
this, because that is where we have been.
    Many of the witnesses, in fact, have to admit that after so 
many years of promises and testing and millions of dollars 
spent, we are no closer to a technology solution to really 
securing the border.
    I will tell you what is at stake. What is at stake is not 
just cutting off the folks at the pass, but what is at stake is 
a comprehensive reform of our immigration policy.
    This is unacceptable. Unacceptable. It is what is holding 
up comprehensive immigration reform. Everybody talks about 
border security. Everybody talks about defending the country at 
our borders and protecting.
    It is incredible that we are only at where we are. We are 
98 yards from the goal line and we started quite a few years 
ago.
    Now we discover that 54 percent of the properties to build 
this fence, to build this protection, are on private property. 
Didn't we realize this? I didn't hear any of you speak up when 
folks on the floor of the House of Representatives were 
pointing fingers, and, mind you, most of those fingers were 
pointed in the southern border. You would think we never had 
any other borders in the United States of America.
    So we talk about chemical security, cyber security, port 
security, airline, transit, et cetera. Border security is 
absolutely connected. Connect the dots to immigration reform. I 
don't care which side of the aisle you are on. We have all 
agreed upon it.
    The years that I am hearing, going out to 2011, 2018, you 
have got to be kidding me. You are afraid to put proposals in 
front of us because the administration is not doing what they 
said they were going to do.
    Let us say it. Let us be honest.
    Now, let us get to the questions, more importantly.
    Mr. Giddens and Mr. Ahern, it is my strongly held belief 
that border security cannot be accomplished by simply erecting 
a physical barrier or relying on technology.
    Our Nation needs a layered, multifaceted approach. I also 
feel that the current inability for the Department to find a 
border security solution that actually works makes it 
impossible for Congress to enact real immigration reform, as I 
have stated.
    Unfortunately, your departments have been unable to give 
this committee and the Congress a real assessment on how much 
it will actually cost to secure the entire border.
    Project 28 was supposed to be an example of how we could 
use technology to secure the border. Yet, here we are 8 months 
after the first deadline and the system still isn't fully 
operational.
    So the lesson here is that we simply can't secure 28 miles 
of border with $20 million. We saw pictures up there, up there 
on the screen, and lovely pictures of gentlemen, ladies, 
sitting at the screens and you just told us they all have to be 
replaced, that equipment.
    I mean, we are not as stupid as we look. When it comes to 
erecting a physical border, your Department has estimated an 
average cost of $3 million per mile. But the GAO has estimated 
that, in fact, it costs roughly $4.5 million per mile, and this 
does not even include any estimate of how much it will cost to 
maintain and repair the border fence over the long term.
    So, Mr. Giddens and Mr. Ahern, I hope one of you can answer 
the question. How much will it actually cost in total to 
implement the technology and erect the physical fence necessary 
to secure the border with Mexico and, also, what kind of annual 
costs are we looking at for the entire border to repair and 
maintain these facilities?
    Two questions, pretty simple, 5\1/2\ years into it, you 
should be able to answer those questions.
    Mr. Ahern. Let me go ahead and begin, and then I will ask 
Mr. Giddens to give a little more precision on some of the 
numbers.
    But first off, I would respectfully state that I don't 
completely agree with your assessment or we are with securing 
the country's borders.
    I think there is action. Certainly, as far as with P-28, 
there has not been the timeliness or the action or actually the 
progression that we had hoped to this point in time, but I 
think we are in a good place as we go forward, and I think we 
have testified to that----
    Mr. Pascrell. Mr. Ahern, 90 percent of the discussion 
today, regardless of which side of the table we are on, is 
about the border in the south. We have other borders.
    Nobody even talks about this. You don't talk about it. So 
don't give me the malarkey about we don't have a clear 
assessment as to what is going on.
    Sir, continue. I am sorry I interrupted you.
    Mr. Ahern. I was going to go ahead and end with the 
northern border after I completed laying down some of the 
things we are doing on the southern border.
    Beginning with the tactical infrastructure, no one has ever 
stated technology nor P-28 is going to be the sole solution to 
this problem. It is the combination of the technology, the 
personnel and the tactical infrastructure.
    We will have 670 miles of the border constructed with 
fencing by the end of this calendar year. We will have doubled 
the size of the Border Patrol since 2001 by the end of this 
calendar year, when we exceed 18,000 personnel to secure our 
borders to be able to respond to the threats that are there.
    We will continue to develop the technological solutions, 
not solely P-28. As we demonstrated, we now have four UASs out 
there, as well as additional fixed and helicopters that are out 
there patrolling the borders and providing the technology.
    We have also put out and we will actually continue to 
deploy a total of 40 mobile surveillance systems. These are the 
ground-based radar systems that will actually be able to 
provide security gaps being filled as we go forward.
    So we will be providing that security this year, as well.
    As to the northern border, we have now deployed and we will 
have our fifth air branch on the northern border deployed this 
fiscal year. We did not have those prior to 9/11.
    We have increased substantially the size of our ports of 
entry as far as with technology--91 percent of the containers 
coming in from Canada are secured through radiation portal 
monitors.
    The staffing has increased substantially. Border patrol 
will increase the size of the Border Patrol agents to 1,500. 
Certainly not enough for 5,000 miles, but we have different 
challenges and different risks for the borders and they need to 
be addressed appropriately.
    We will continue to take a look at the technological 
solutions that are appropriate for the northern border this 
year as we look at a demonstration project for an SBI-type 
solution for the northern border, when we actually demonstrate 
the technology in a maritime environment later this year.
    Mr. Pascrell. Well, Mr. Ahern, we have chosen this fence. 
We have chosen this technology. By the end of this year, GAO is 
claiming that when you add up the pedestrian fencing and the 
vehicle fencing, you are talking about 670 miles, we will still 
have--we will have, just in this project, just in this project, 
we will still have, according to their figures, if you add them 
up, 367 miles to go.
    When are we ever going to do this?
    Mr. Ahern. Well, first off, as far as the miles that are 
needed, we have done careful assessments of those areas based 
on the analysis of the nine southwest border sectors, and maybe 
the Chief wants to elaborate in more detail, based on the risk 
and based on the apprehensions and based on the intelligence 
that is out there.
    We believe that immediate solution of 670 miles for 
tactical infrastructure is appropriate for this year.
    Mr. Pascrell. Mr. Giddens was going to respond, Madam 
Chairwoman. Mr. Giddens was going to respond, if he would.
    Ms. Sanchez. Mr. Pascrell, as usual, you are 3 minutes 
over.
    Please respond and then we will move on.
    Mr. Giddens. Sir, I believe your question was when are we 
going to move forward on this.
    As Mr. Ahern indicated, we are going to reach the 670-mile 
goal by the end of this calendar year and we currently have 
efforts underway and we are doing a tremendous amount of work 
on the environmental front, to go through the process that is 
required under NEPA, and, also, we are going through the 
process of real estate acquisitions and gaining access to land, 
both public and private.
    The Congress has clearly indicated that they have a strong 
desire for us to be very consultative through this process and 
we are trying to balance both the consultative nature, as well 
as the urgency to move forward.
    Mr. Pascrell. Madam Chairwoman, let me just say that if we 
continue to do geometrically what we are doing now, we will 
secure all our borders by the year 2028.
    Now, that doesn't make me sit very comfortable and I know 
you don't either.
    Ms. Sanchez. The gentleman's time has expired.
    I will remind him that all our borders are not just land 
borders. So we really have even a larger problem than that, and 
that is a major problem.
    I have not had a chance--Mr. Reichert, you will be next for 
5 minutes, please.
    Mr. Reichert. Thank you, Madam Chair.
    I might take longer than 8 minutes. I don't speak as fast 
as Mr. Pascrell does.
    Ms. Sanchez. You are subject always to the gavel, Mr. 
Reichert.
    Mr. Reichert. Yes, ma'am.
    We are talking about P-28, right? Isn't that why we are 
here? Okay.
    So I am confused. We are no longer closer is what--we are 
no closer than we were 5\1/2\ years ago to a technology 
solution is what Mr. Pascrell said.
    We have been at this for 5\1/2\ years. When was Boeing 
awarded the RFP? When did that happen?
    Mr. Krone. I think September 2006.
    Mr. Reichert. September 2006. When did the work begin?
    Mr. Krone. Well, the engineering and development work 
probably occurred shortly thereafter, within weeks.
    Mr. Reichert. When we started this project, was there a 
close working relationship with Border Patrol and Boeing, the 
stakeholders, the users of the system?
    Mr. Krone. Sir, I think there was a close working 
relationship with the Border Patrol, but not at the agent 
level. So I think where we learned a lot certainly in the 
summer of 2007 is when we actually got down to active users in 
Tucson who were on patrol every day and were able to sit with 
them in the command and control center and in some of the 
vehicles.
    I think we learned a lot that we had only made assumptions 
about.
    Mr. Reichert. Was Boeing asked to develop the system 
without the input of the user?
    Mr. Krone. Well, I know it is characterized that way. I 
think it is a matter of degree, sir.
    We actually had access to some members of the Border Patrol 
in the proposal process, but clearly it was not, I think, 
sufficient for us to design a system that met the needs of the 
actual Border Patrol agent who is out on patrol.
    Mr. Reichert. Chief, why was the man or woman on the beat 
not involved in the process of putting this project together 
with Boeing?
    Mr. Aguilar. That is one of the first questions I asked, 
Congressman, when we started going through this process.
    Unfortunately, it was the process, the contractual process 
that was selected as a part of Project 28.
    Now, I am glad to say that now we are fully engaged at the 
agent level. But at the very beginning, by contract, we could 
not engage at the agent level. In fact, even at my level, we 
couldn't engage with Boeing.
    Mr. Reichert. Who was responsible for the contractual 
agreement between the two agencies?
    Mr. Aguilar. I would have to pass that off to----
    Mr. Giddens. Sir, this was established during the source 
selection process that began in 2006 and then culminated with 
the award of the contract to Boeing in September 2006.
    As part of that process, Boeing proposed a demonstration 
project, in response to our solicitation, as did all the 
vendors. During that process, they did have limited exposure to 
CBP and, through the source selection process, which the 
process itself had Border Patrol and other users' involvement, 
that process resulted in the selection of Boeing and in the 
award of their firm fixed price effort that we know as Project 
28.
    There were reviews on Project 28 and there was some input 
provided, but there was not contractual direction provided to 
Boeing due to the nature that this was a firm fixed contract, 
which is part of the reason we sit in here today and we only 
have, from the Government's perspective, a $20 million 
liability.
    While we are moving forward with P-28, we had a very 
systematic process, working with all the users to generate 
requirements and then go from that to specs. So that as we move 
forward, as we are now, it is not in the firm fixed price 
environment, but in a cost-plus, which gives us an opportunity 
to have the side-by-side relationship that we have now.
    Mr. Krone. Congressman, if I could add. I don't want to 
leave the impression that Boeing is, if you will, hiding behind 
the fixed price contract structure.
    We believe, in retrospect, that regardless of the nature of 
the contract, we at Boeing should have reached out to the 
Border Patrol agent and, clearly, that is a lesson learned and 
a deficiency on our part.
    There has been a lot of discussion about the fixed price 
contract and though I think that turned out to be a tremendous 
value for the Government, I don't want you to think that Boeing 
is using that as an excuse for not reaching out to the actual 
user and involving them early.
    Mr. Reichert. No. Madam Chair, if you would indulge me just 
a few seconds longer. Thank you, ma'am.
    It is not where I was going at all with this.
    Mr. Krone. Okay.
    It is just a point that I wanted to make that how important 
it is for all of you to work together. Coming from my law 
enforcement background, I have really identified with the 
issue.
    I think this really boils down to, as Mr. Stana, as quoted 
in the ``Wall Street Journal,'' has recognized, this lack of 
cooperation at the beginning with the user has really resulted 
in some of its deficiencies that now we see are highlighted.
    Mr. Reichert. But the last question, very quickly, Madam 
Chair, if I may, is how--now, you are taking the lessons 
learned. How does Boeing intend to apply those lessons learned 
to your furtherance of the projects in Yuma, El Paso?
    Mr. Krone. Right. Well, absolutely, we have taken them 
quite at heart and we have--since, frankly, the last time we 
were here, we have actually had some coordination meetings with 
the Border Patrol.
    We have had all of the sector chiefs for a broad session 
with our technical team. We are now, if you will, shoulder-to-
shoulder in our systems integration lab and as we go about 
designing the next generation common operating picture, we are 
doing that, if you will, with the Border Patrol agents side by 
side.
    So a tremendous lesson learned for us and it is really what 
we call an IPT or an integrated process team, where we include 
the user from the very beginning.
    Mr. Reichert. Madam Chair, I thank you and I yield.
    Ms. Sanchez. We will now hear from the Chairman of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    I am glad we are to this point in this project, but there 
are still, I think, some questions that we need to at least 
bring out.
    Mr. Giddens, can you give me the timeline between the 
acceptance of this project and the awarding of any other 
contracts after this project?
    In other words, did we award another contract on this 
SBInet before we had accepted the first contract?
    Mr. Giddens. Yes, sir, we did. We have several contracts 
with the Boeing Company under SBInet.
    The most recent one relative to the P-28 and the next 
generation, the common operating picture, was awarded in 
December, when we accomplished the conditional acceptance of P-
28 and we saw, with that conditional acceptance, the confidence 
to move forward with that next generation of software and 
common operating picture.
    We have had other contracts that----
    Mr. Thompson. You have made my point.
    Mr. Stana, is this considered good business practice to 
award another contract before you accept a prior contract?
    Mr. Stana. It is interesting that you raise that. It was a 
year ago today that Greg Giddens and I and several others were 
at a hearing and one of the observations we made was about 
concurrency and the need to manage the risk that is associated 
with running many projects concurrently.
    To their credit, the Department did begin to do them more 
consecutively.
    Now, with respect to this one, my understanding of the 
common operating picture task order is to build on what was 
already used and found to be good and not so good about the 
COP, the common operating picture, provided for Project 28.
    So it was to build on that experience and if the lessons 
learned are appropriately applied, then I think you could 
manage that risk in this case.
    I don't know. I am not justifying whether it should have 
been Boeing or another company to do it. It is just that in 
order to move forward, they did have to move ahead.
    Mr. Thompson. Well, I think my point that I am trying to 
make is do you wait until you have accepted the product in 
total and then award or do you award before you accept the 
product, and I think some of us have some concern that the ink 
had not even dried on the contract before we were moving to 
another level with this contract.
    Mr. Krone, I think you want to make a comment.
    Mr. Krone. Yes, if I could, sir.
    CBP made a decision, when we encountered difficulty with P-
28, to halt the further deployment of P-28. At one time, we 
actually contemplated building more towers and propagating that 
system this year.
    We actually reconfigured the program to go back and correct 
the deficiencies in the system and as of today, we are not 
under contract, if you will, to deploy more towers.
    All we are under contract to do is to create the next 
generation command and control software and as that gets rolled 
out and runs through tests, if that is adequate, then we are 
only hopeful that CBP will decide to deploy that and to build 
additional towers.
    So I think, to some degree, sir, they actually took to 
heart the comments that you have made and we have stopped the 
deployment of the P-28 system pending the completion of this 
new, improved software.
    Mr. Thompson. Chief Aguilar, are you satisfied with a less 
than 95 percent detection rate with this demonstration?
    Mr. Aguilar. With this demonstration, we have a system that 
has given us capabilities that we didn't have in the past.
    Am I satisfied to the 95 percent requirement that we have? 
Absolutely not. That is what we are working toward on the full 
SBInet deployment, which is going to be a build on from Project 
28.
    Mr. Thompson. All right. Well, then, my question, just for 
the record, is the original 95 percent detection rate we did 
not meet.
    Mr. Aguilar. No, sir, not under Project 28. As I understand 
it now, the contract specific to 95 percent was for the SBInet 
deployment, not for Project 28.
    Mr. Thompson. Well, does a less than 95 percent detection 
rate put any of our agents at risk?
    Mr. Aguilar. Absolutely, yes, sir. If we can reach 95 
percent today, that would be the best use of any technology.
    Mr. Thompson. So it is to our advantage to meet that 95 
percent.
    Mr. Aguilar. Absolutely, as fast as possible, yes, sir, and 
that is what we are building toward.
    Mr. Thompson. Mr. Stana, your testimony before us was that 
it was your understanding that that should have been a 
prerequisite for this procurement.
    Mr. Stana. Well, what I am reading from is the task order 
for Project 28 and the Project 28 task order says ``contractor 
shall perform to the standards identified in figure 3E-1'' and 
in figure 3E-1, it says ``provide a common operating picture.''
    You are going to do detect, you are going to do 
identification, and the performance standard is CBP is able to 
detect 95, plus or minus 5 percent, of all border entries. That 
is the performance standard in the P-28 contract.
    Mr. Thompson. Mr. Giddens, can you tell us why we accepted 
a contract without meeting that performance standard?
    Mr. Giddens. Yes, sir, because the contract did not require 
us to meet that standard. We do not read in agreement with Mr. 
Stana on how he looks at the contract.
    P-28 did not have as a requirement 95 percent detection 
as----
    Mr. Thompson. Well, can you provide the committee with 
whatever contract document that this contract was performed 
under?
    Mr. Giddens. Yes, sir.
    Mr. Thompson. I would say to Mr. Stana, can you provide the 
information that you were provided to review the contract so 
that the committee can look at both and see whether or not 
there is a difference in contracting?
    Mr. Stana. Yes, I will. I will point out that there are 
other aspects of this task order here that were also 
interesting along those lines, quality assurance standards 
program and things like that that ought to be read in this 
context.
    My point isn't that 95, plus or minus 5 percent, is the 
standard only. My point is that this certainly created the 
expectation that something along those lines would be 
delivered, and it apparently hasn't been measured against.
    Mr. Thompson. Well, my concern is that if Chief Aguilar's 
testimony is that anything less than that puts our agents at 
risk, then I want to make sure that we are getting our money's 
worth and that our men and women who put their lives on the 
line basically have a product that elevates that risk.
    I want to be sure that if we invest in it, that it is to 
the benefit of the people who are sworn to protect us, and that 
is my incentive.
    One of the last questions, I think. Mr. Ahern, throughout 
this project, we have had some challenges getting information. 
Were you under any pressure to not give us any information 
along the way?
    Mr. Ahern. None whatsoever.
    Mr. Thompson. Chief Aguilar, did you have any pressure?
    Mr. Aguilar. No, sir.
    Mr. Thompson. I guess my last question is this project was 
due in June.
    Did you receive any pressure to publicly support this 
project before it was completed?
    Mr. Ahern. No. I think it is important, also, to provide an 
answer, certainly while you are here, Mr. Chairman, that I 
think that there have been representations throughout this 
hearing that we have not been good stewards of the taxpayers' 
dollars. I think that is anything but accurate.
    I think, clearly, as far as we have----
    Mr. Thompson. I don't know who made that representation.
    Mr. Ahern. It has been a tone throughout this process and I 
would just like to state that I believe that we have held the 
contractor accountable through this process versus settling in 
the June-July, the September or the December time frame, and 
that we allowed them to continue to go ahead and fix this 
process with their own time and their own investment before we 
went to final acceptance.
    Thank you for allowing me to put that onto the record.
    Mr. Thompson. Well, now will you answer my question, which 
was: was Customs and Border Protection pressured to publicly 
support Project 28?
    Mr. Ahern. Absolutely not.
    Mr. Thompson. Chief?
    Mr. Aguilar. No, sir. The only thing I would add to that 
answer that I give is that the one constant throughout this 
process and remains today is what I refer to as the ground-
truthing done by the agents in the field, and that is what I go 
on.
    That ground-truthing is actually what was at the basis of 
not accepting on June 7, conditional acceptance on December 17, 
and then accepting last week, recognizing the limitations that 
it had.
    So that ground-truthing by those agents is absolutely 
critical to us.
    Mr. Thompson. And that has been met.
    Mr. Aguilar. That has been what, sir?
    Mr. Thompson. That has been met.
    Mr. Aguilar. The ground-truthing efforts by the agents 
telling us whether or not the project is meeting what we 
require.
    Mr. Thompson. That has been met to your satisfaction.
    Mr. Aguilar. It has been met to the point that we have 
added capability that we didn't have in the past. It is not 
optimal and we are building toward that 95 percent degree that 
you spoke to. Yes, sir.
    Mr. Ahern. Mr. Chairman, if I might add one other point to 
this, also. I think it is important and I don't make a frequent 
occasion of speaking for Secretary Chertoff, but I know that he 
has testified recently and even on his journal, his blog.
    I was with him 2 weeks ago when we were in Tucson looking 
at the common operating picture at the Tucson command center 
and he asked the agents point blank, ``Are you happy with what 
you have and do you see this as a future and something that 
will help you bring operational capabilities to secure the 
borders?''
    There was a unanimous yes, because he went on to state that 
if it did not meet that expectation, he was not wedded to this 
solution or to Boeing as the provider and that we would move 
on.
    Clearly, as far as--I think that is an accurate 
representation of----
    Mr. Thompson. I appreciate it, but I don't know anybody 
whose boss would ask them that question that they would not 
give the same answer.
    I mean, I am not asking for a response, but you ask a guy 
out in the field, ``Are you satisfied with this?'' he is not 
going to tell you no, because it is just not going to happen.
    But what I would like, and I would like the Chief's 
response, is that people would be included in the process in 
the beginning so that they can help define the effort that you 
are trying to achieve, because they are the ones who are 
putting their lives on the line and I think it is in that 
spirit that all of us want this thing to work.
    I appreciate the Chair's indulgence.
    Mr. Ahern, I sent you a letter on February 8 and, at some 
point, dealing with an issue in my district, and I would hope 
that, at some point, I can get a response on it.
    That is all I have.
    Mr. Ahern. Absolutely. Also, we are trying to reach out to 
you over the last few days on another issue you had interest 
in, too, outside of your district.
    Mr. Thompson. Thank you.
    Ms. Sanchez. I thank the gentleman from Mississippi.
    I am going to take my time now to sort of recap a little 
here and hopefully we will go into a second series of 
questions. I know the Members who are left here have a real 
interest in this.
    Unfortunately, we also have some votes coming up. So we 
will see how all this works.
    I want to go back to your last sort of indication, 
Commissioner Ahern, about something in the air as to whether 
things--taxpayers' money has not been safeguarded.
    I believe what we have here is a very unhappy membership of 
this committee, generalizing, but I think a majority of it, 
with respect to how we have seen this project progress.
    We are trying to figure out just where things began to 
change, how they changed, who changed them, what the 
expectations were, what the real contracts or task orders said, 
and how we have arrived at what we have received as an end 
product, and that is what we are really trying to do here.
    We are going to keep asking the questions and we are going 
to keep bringing you up here until we have figured out what we 
got or how we got it and whether that is an acceptable way of 
doing business.
    That is our job. If it is not an acceptable way of doing 
business, then I am sure, in a very bipartisan manner, as we 
have tried to manage this, we will have something to say to the 
administration over that.
    So my real intent is, first of all, to ask Mr. Stana, who 
has been seeing this now for a while and is supposed to be an 
independent pair of eyes for us.
    First of all, Mr. Stana, have you received the cooperation 
level that we expect now at this stage of the game? I know 
before we had problems. Are you getting the information that 
you asked for? Are you getting the meetings?
    Are your people able to get their hands on the information 
they need in order for us to figure out how this project really 
evolved?
    Mr. Stana. Madam Chairwoman, I would say absolutely, yes. 
Greg Giddens and his people have been absolutely cooperative 
with us.
    When we travel to the sectors with the Border Patrol, their 
people have been nothing but candid and frank about the pluses 
and minuses of the system.
    We have no complaints at this point.
    Ms. Sanchez. Mr. Stana, in your opinion, in your 
professional opinion, was the contract task order, whatever it 
is that we have in writing, in which we engaged with Boeing for 
$22 million or so, a project that was supposed to be a project 
across these 28 miles, in your opinion, was--in your reading, 
in your people's reading of that document, what we were 
supposed to receive, is it somewhat different, significantly 
different than what was accepted by the Department, or not 
different at all, adhered to the letter of whatever we signed 
on for?
    Mr. Stana. The contract, the task order, as I understand 
it, was prepared by Boeing and signed off by Boeing. So there 
are certain ambiguities that could be read into this one way or 
the other.
    I think if you do a strict reading of it, you could come to 
the conclusion that perhaps Boeing over-promised a bit with 
what it could deliver in the time it was allotted to perform in 
this contract.
    It is not unusual in Government that you have a contractor 
who over-promises a little bit and you don't quite get what you 
thought you were going to get. It is not uncommon, particularly 
in technology programs.
    But it is a very ambitious schedule and very ambitious 
performance standards that are written in this document.
    Ms. Sanchez. There is a general feeling off of this 
committee that Project 28 was to be a pilot project, something 
that would test things and something that, when finished, would 
be operational.
    We would get it right until it was operational and it would 
be an ongoing operational piece and that then we would take 
lessons learned, technology off of that, and go and apply it in 
other sections, that it was not supposed to necessarily be a 
continuing pilot project, that it was supposed to, in fact, 
meet some standards for us to catch bad guys, intruders, et 
cetera.
    It is a feeling of this committee that what was accepted, 
by some membership of this committee, that what was accepted 
was less than that standard of a real operational ongoing real 
project, but more so just a test bed where we don't have 
confidence levels as to what is happening or measurements as to 
what is happening.
    In your professional opinion, what are we closer to in what 
the Department has accepted from Boeing and its conglomerates?
    Mr. Stana. Let me answer it this way. As I understand it, 
and we have looked at these contracts and talked with a lot of 
folks over the last few months, originally, there were two 
goals.
    One was to test the concept and the other one was to leave 
behind a capability. If you look at the language, there is 
nothing in here that is inconsistent with those two.
    When you promise a guarantee for 1 year after acceptance 
for the materials you leave behind, certainly, you get the 
impression that a leave-behind capability was envisioned.
    What we have is a test bed and test results which found 
that maybe this capability that was supposed to be delivered 
was not really the correct one in some ways.
    The Border Patrol isn't finding it particularly useful for 
a number of reasons, everything from the mounting of the 
machines, the computers in the vehicles to their capabilities. 
You have to drive to a certain hotspot to pull a signal down.
    It is not really what they had envisioned. Whether every 
agent should have the capability of controlling cameras and 
radars, that should be an open question.
    Having said that, they have compiled enough lessons 
learned, that was the first--the concept--there are enough 
lessons learned that, if applied to future programs, it could 
be something that was worthwhile here.
    Now, should the Government have waited until every 
particular facet of the performance standards were met before 
accepting this Project 28? That is a decision the secretary 
made. I am sure he gave lots of consideration to that versus 
moving on, taking lessons learned and moving the ball down the 
field.
    So I am not trying to second guess that. But what I would 
say is as far as a leave-behind capability, which was one of 
the two original goals, the fact that we are going to be 
swapping out almost all of the equipment within the next year 
tells you that that wasn't met.
    Ms. Sanchez. Will that swap-out be at an additional price 
to the taxpayers?
    Mr. Stana. Yes.
    Ms. Sanchez. Do you have an idea what the ballpark figure 
is of that additional cost on those 28 miles, the additional 
price to the--not the cost, but the price that we will pay as 
taxpayers to that?
    Do you have any ballpark figure? Have you heard anything 
thrown around?
    Mr. Giddens. Ma'am, I would like to take that back for the 
record and get back. I don't have a number on me for that.
    But I want to clarify, though, that that expense is not to 
fix anything in P-28. It is to go to the next generation, 
because we believe, at final acceptance, P-28 has satisfied the 
terms of the contract.
    As Mr. Stana indicated, in terms of the lessons learned, we 
believe we have gained great insight from having that 
capability out. It has allowed us to learn from it. I think it 
has allowed the Border Patrol to explore concept of operations.
    We do want to do just as Mr. Stana said and apply those 
lessons learned to this next generation.
    Ms. Sanchez. Mr. Stana, if, in the real world, you were 
secretary of homeland security and it was your job to sign off 
as to that task order that you have in front of you, after 
having taken a look and knowing and seeing what Mr. Chertoff 
signed off on, if you had been in that position, would you have 
signed off on behalf of the American taxpayers?
    Mr. Stana. We received a number of documents yesterday that 
I would like to go through before I give you a decision. The 
documents were provided to us. They really speak to what the 
testing results were and what the acceptance was based on.
    I just don't think I can make a good informed decision for 
the record until I get a chance to review those documents.
    Ms. Sanchez. Thank you.
    I will recognize Mr. Souder now, actually, for 5 minutes, 
if you have any additional questions you would like.
    Mr. Souder. Thank you, I do. We have spent a lot of money 
learning lessons. You might say it has been a very expensive 
school, because this isn't the first round of doing this.
    This was supposed to be building, as we talked during the 
break, on previous systems that weren't working and then this 
was another one.
    Mr. Krone, for the record, you are not alone in this. Who 
are your partners in this?
    Mr. Krone. We have a broad series of partners. L-3, which I 
am sure, sir, you remember back from the ISIS days, DRS, 
Intergraph, Unisys, and Flair, Inc. There is a whole industrial 
team. Perot Systems.
    I can get you a complete list, but those come to mind.
    [The information follows:]

                       SBINET INDUSTRY TEAMMATES

  <bullet> Unisys
  <bullet> L-3 Communications
  <bullet> USIS
  <bullet> Perot Systems
  <bullet> DRS Technologies
  <bullet> Kollsman Inc.
  <bullet> The Centech Group, Inc.
  <bullet> LGS (formerly Bell Labs)

    Mr. Souder. The reason I want to point that out is these 
are supposedly many of our best and brightest who were going to 
work on this.
    I just want to say this for the record. I had a company 
that was a foreign-owned company, from Europe, who raised 
questions whether the partnership, because they hadn't really 
done anything like this before, was able to meet this.
    Now, there is very little worldwide experience and, quite 
frankly, I wasn't going to intervene in any way, in a process 
anyway, especially for somebody not American. But it is not as 
though there weren't concerns going into this whether we were 
going to achieve some of the goals.
    I am confused on the contract.
    Mr. Giddens, is this----
    Mr. Krone. Sir, can I comment on that, very quickly?
    We had Colesman on our team, which is associated with Elbit 
in Israel. They have actually quite a sophisticated system that 
they are involved in in Israel and we selected them to be on 
our team in an attempt to get those international lessons 
learned into our engineering.
    Maybe we didn't have all of the right ones, but we did 
reach out.
    Mr. Souder. I appreciate that clarification and I didn't 
mean to imply that this other company would have done it 
either, and I regret that that is what I implied.
    I am just saying that there was a relative lack of 
experience from anybody having tackled anything this great, and 
I would expect that to be reflected in the kind of performance 
orders.
    I wanted to get into a couple particulars, and I thought 
the last round of questioning was really helpful, but I want to 
say it again.
    Mr. Giddens, did you disagree with something Mr. Stana said 
or you just is there are additional things beyond what he said, 
when he read that criteria?
    Was he reading from something that was, in effect, 
incomplete or was it inaccurate, when he was reading the 95, 
plus or minus 5?
    Mr. Giddens. I think he is reading that from the task 
order, but you have to look at the documentation in total and I 
think if you pull out one section of that, you don't get the 
complete picture, and that is why I think Chairman Thompson 
indicated he wanted us to do.
    Mr. Souder. When it says that there is going to be swapping 
out of equipment, as I understood what you just said a minute 
ago, that didn't mean you were going to replace the Project 28.
    Is the swapping out for future areas?
    Mr. Giddens. Sir, we have a couple of efforts ongoing in 
the Project 28 footprint. We will transform Project 28 to this 
next generation with some new hardware and a new common 
operating picture software this summer.
    We are also looking at a new start site that does not have 
current infrastructure and I think the deputy commissioner 
mentioned earlier about a project that we are looking at in the 
northern border as a demonstration to look at the maritime and 
the air and the ground integration.
    Mr. Souder. So Project 28 will function roughly as it is 
currently set.
    Mr. Giddens. Sir, it will function as is until this summer, 
when we go in and replace some of the equipment and we replace 
the software that is behind the common operating picture. But 
it will be in use until that time.
    Mr. Souder. Now I am confused again. So we are going to 
have to invest more in this 28 miles.
    Mr. Giddens. Yes, sir.
    Mr. Souder. Was that expected in the original?
    Mr. Giddens. Yes, sir. We have indicated that even----
    Mr. Souder. Is the stuff wearing out or it is just like the 
software program was wrong and they, with their own funds, 
beyond the contract, discovered a better way to do it? So now 
we have to come back in and the taxpayer is going to pay for 
that, then.
    Mr. Giddens. What we are doing--and some of the equipment 
has been out in the field for several months. The swap-out that 
I was talking about is a swap-out as we look at new pieces of 
hardware, adding an additional type of radar for different 
areas in the terrain, and looking at different camera 
solutions, that we will swap that out this summer, as well as 
the next generation software for the common operating picture.
    Mr. Souder. In these contracts, that presumably means you 
don't think that the current version meets what are at least 
optimal goals.
    In the contract, is it that we have these hopes, high hopes 
and low standards? I am trying to separate what this gap is, 
because you accepted it. It sounded like you had high goals, 
but there are other things that can enable you to lower the 
goals down a little bit, because it is still an improvement, as 
Mr. Aguilar said.
    But in this range, you are coming back in and saying, ``But 
the software isn't really what we are going to do. We need 
different radar than we had or additional, because we didn't 
know that was''--I mean, you are going to learn some, but this 
was supposed to be where we were learning inside this contract, 
in the dollars that were there, not after.
    I am confused.
    Mr. Krone.
    Mr. Krone. So sorry, if I could, and this might take a 
minute to sort of explain the contract structure.
    So there is what we call an IDIQ umbrella to the program 
which we refer to as SBInet, which is a series of multiple task 
orders. There is a cost in the IDIQ, which we call the spec, 
and it has the 95 percent probability of detect, and that is a 
requirement of the SBInet total program.
    The concept in the acquisition was that this technology 
solution at maturity will achieve a 95 percent probability of 
detect. There is a task order called P-28 underneath that 
umbrella, and I have read both contracts, and the goal of the 
P-28 task order goal is to demonstrate on a prototype among a 
28-mile piece of fence around Sasabe the technology solution.
    In the fixed price contract, Boeing proposed specific 
cameras, specific radars, a specific set of software and a 
specific set of user equipment in the vehicles. That is what we 
were fixed price under contract to do.
    It was, if you will, build it, test it, and see where we 
are. If we achieved a 95 percent probability of detect, we 
would have been done. But as we put this system together with 
radars that we specified in the proposal process, we actually 
got them out into the real terrain, with real operators, we are 
unhappy with their performance and so is CBP.
    So we have, under a subsequent task order called the CQI 
task order, going back, looking at the operational software, 
the command and control software, and the specific sensors on 
the tower, and swapping out some of the sensors for sensors 
that are better able to operate in that particular environment.
    Now, those sensors that we bought under P-28 we are not 
discarding. Those are going back into the program. They can be 
used for tests. They could subsequently be used in other areas, 
maybe rolling terrain, where the terrain is not as severe.
    So the money that the Government has spent on P-28 for that 
equipment, that is not being discarded. We intend to keep those 
sensors and cameras around and perhaps reuse them further.
    But we have asked quite a bit about this 95 percent 
probability of detect. We don't think, with the cameras that we 
have, the radars and cameras we have on the towers today and 
their geographical location, that the calculus would permit us 
to actually demonstrate 95 percent.
    So in these improvements that we have talked about, the 
next generation COP and swap-out of some of the sensors, we 
want to get the system to where it is at 95 percent probability 
of detect, and that is the way the two contracts iterate.
    The P-28 prototype had a goal of demonstrating that 
compliance specification. The requirement actually resides up 
at the SBInet contract.
    Ms. Sanchez. The gentleman's time has expired.
    We will allow Mr. Carney a couple of questions, I hope, in 
the next few minutes before we have to go and vote, and we will 
adjourn.
    Mr. Carney. Thank you, Madam Chairwoman.
    Let us continue on that line that--Mr. Krone, we didn't get 
95 percent with the current cameras and radars, right?
    Mr. Krone. Well, actually, sir, we don't think we will.
    Mr. Carney. What do we think we will get with the new 
cameras and the new radars?
    Mr. Krone. Our goal, our requirement----
    Mr. Carney. What do we think we will get?
    Mr. Krone. We are going to put a system in that will 
deliver 95 percent probability of detect. If I could, the way 
we would determine that is we take the performance of the 
cameras in the actual environment, the geographical location of 
the towers, the spacing between towers.
    We characterize the target, if you will, human beings 
crossing the border, and we analytically, using modeling and 
simulation, determine the performance of the system and then, 
through a systems engineering process, we look at performance 
of each of the sensors in the lab.
    We then build this end-to-end. We go back and review 
systems performance so that we can verify that the system is 
performing as designed.
    That is the process we are now embarking on to increase the 
performance, if you will, of this P-28 area so that we can 
demonstrate the probability of detect of 95 percent.
    Mr. Giddens. Sir, could I add on to this? Mr. Krone is 
talking about, from Boeing's perspective, what they are 
bringing to this solution set.
    But I want to go back to something the deputy commissioner 
talked about. We are also employing mobile surveillance 
systems. He showed the video of the unmanned aerial system.
    All those things will be brought together. It is not just 
towers, it is not just unattended ground sensors. It is all of 
those working together.
    When the Chief referred earlier about the overall SBInet, 
that is really what is encompassing that. It is not just a 
tower solution. It is really looking at all of those working 
together and what is their percentage of detection.
    Mr. Carney. That I understand, but we are talking about P-
28.
    I want to close with this. We talk about added capability. 
Now, the P-28 and the cameras and radars, that is new to the 
Tucson sector, as I understand this correctly.
    So, yes, that is added capability to the Tucson sector, but 
we have had cameras and radars elsewhere on the border.
    So for the Border Patrol at large, what is new about P-28?
    Mr. Aguilar. What is new about 28 and the, again, marginal 
limited capabilities that it has brought to us is the 
following: that today, as we speak, we have a ground 
surveillance radar system that makes a detection. That same 
system, along with that ground surveillance radar, then queues 
in a camera, whether it is automatically or an agent sits in 
and actually queues in to the target.
    We are able to detect, we are able to identify and classify 
what that intrusion is.
    Now, compare that to the other pieces of technology that we 
have used in legacy Border Patrol, legacy INS.
    By the way, all of that that I just described is in one 
location, centralized, and covers now a 28-mile area.
    Mr. Carney. I saw it, yes.
    Mr. Aguilar. In the past, what we had is a camera or a 
camera system, if you will, that basically an agent would have 
to sit there and basically scan.
    The only detection capability was for an agent to put an 
eye on that actual incursion as opposed to a ground 
surveillance radar system actually picking it up.
    Once that agent picked up visually, then he made a call and 
said, ``This is where it is at.'' Today we have the capability 
to call on GPS. So we have the beginnings of a system, a system 
of systems, if you will.
    So by incorporating and integrating that technology, it 
gives us a force multiplier in the sense that it gives us a 
much broader scope of looking at our border, seeing what is 
happening real time.
    As opposed to being dependent on stand-alone technology, 
one camera system may be able to see 3 miles.
    Mr. Carney. That I understand. So, Chief, to your way of 
thinking, on Project 28, apparently going forward with it now.
    Mr. Aguilar. Yes, sir.
    Mr. Carney. That is where SBInet is going.
    Mr. Aguilar. Project 28 is the first building block to the 
foundation for SBInet. Now we build on it to get us to that 
system that is going to be a truly collective system that 
brings in the air piece, that brings in the unattended ground 
sensors, that brings in the personnel blue force tracking, that 
brings in all of the other, to include intelligence speed, that 
will give us that unified situational awareness in density that 
we have never had before.
    Mr. Carney. I think that is a distinction that is pretty 
fine in a lot of people's minds on is this the test bed for the 
future of the border.
    Gentlemen, thank you for your time. I appreciate it. I am 
sure we will see you again. Take care.
    Ms. Sanchez. I thank the witnesses for their valuable 
testimony and the Members for their questions.
    Members may have additional questions. They will submit 
them to you in writing. We hope that you will answer back 
quickly.
    Hearing no further business, the subcommittees stand 
adjourned.
    [Whereupon, at 12:25 p.m., the subcommittees were 
adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairwoman Loretta Sanchez and Chairman Christopher P. 
  Carney for Jayson P. Ahern, Deputy Commissioner, Customs and Border 
              Protection, Department of Homeland Security

    Question 1. Per the original SBInet bidding process, offerors were 
told to propose their technical solution, as well as what they could 
construct for $20 million over a very short timeframe. Essentially, the 
Department created an incentive for the contractors to ``knock your 
socks off'' for $20 million so they'd have an opportunity at a much 
bigger payoff through follow-on SBInet contracts. Doesn't this 
structure almost guarantee that a contractor will overreach and 
overpromise? To some degree, didn't the Government set up the first 
operational SBInet task order for failure?
    Answer. Response was not provided at the time of publication.
    Question 2. In addition to continued efforts on the ``virtual 
fence,'' the Department intends to have a total of 370 miles of 
pedestrian fencing constructed by the end of the current calendar year. 
We have heard that the locations for the planned fencing were 
determined by the operational needs of the Border Patrol, as identified 
by Border Patrol's sector chiefs. Is that correct?
    Answer. Proposed fence locations were determined through 
operational assessments made by the local Border Patrol Agents and 
Chiefs, based on illegal cross-border activity and the Border Patrol's 
extensive field experience in these areas. The primary objective with 
selecting certain areas is to provide an additional security measure in 
areas experiencing significant illegal cross-border activities and 
traffic. The areas chosen for fencing were based on historical and 
common illicit trafficking trends and our vulnerabilities. Furthermore, 
three main factors contributed to fence location decisions in addition 
to the initial Border Patrol operational assessments: engineering 
assessments, which included construction costs; environmental analysis; 
and input from stakeholders. Each of these steps is a standard element 
of the planning process that enables DHS to make informed decisions in 
deploying a fence as operationally required.
    Question 3. Some have said that the Department's biggest failure 
with respect to Project 28 was the failure to manage expectations. Do 
you agree that was the Department's biggest mistake, and why or why 
not?
    Answer. The SBInet technology program is complex and DHS clearly 
understands the difficulties associated with communicating about highly 
technical aspects of the program. For example, the meaning of terms 
such as ``spiral development,'' ``prototype'' and ``technology 
demonstrator'' may not be readily understood by internal and external 
audiences. Additionally, while documents such as the SBInet Expenditure 
Plan submitted to Congress in December 2006 did identify the need for 
follow-on development, as discussed below, confusion did arise 
regarding the differences between Project 28--the initial fixed-price 
proof-of-concept prototype task order--and the overall SBInet solution. 
Finally, the aggressive development and deployment schedule for P-28 
increased the communications challenges facing DHS. Recognizing these 
factors, DHS remains committed to ensuring that our communications, 
both internal and external, clearly lay out the scope and intent of the 
overall integrated SBInet solution and the projects that are being 
developed within CBP's border security technology program.
    We do not believe that Project 28 was a failure. As part of the 
competitive SBInet solicitation and original call to industry for 
proposals, firms were asked to propose an initial task which could be 
one or more parts of their overall concept of operations for border 
security. Project 28 was Boeing's initial prototype demonstration and 
was designed to be a proof of its overall concept, something we could 
test, evaluate and learn from and the initial building block for the 
system's future technology foundation. After successful field testing, 
CBP formally took acceptance from Boeing on February 21, 2008. As a 
prototype, the system provides initial capabilities and CBP is now 
using the many lessons learned from P-28 to focus on the transformation 
of the future SBInet solution.
    Clearly, we did not successfully avoid confusion of the overall 
SBInet program and its goals of an operational border surveillance 
system with what was essentially that first, fixed price proof-of-
concept Task Order--Project 28. Project 28 was always intended to 
demonstrate the feasibility of Boeing's concept to design and deploy a 
tower-based integrated sensor and common operating picture concept to 
secure the border. Had we been more attuned to the divergence between 
expectations and reality regarding Project 28, we would have spent 
greater effort differentiating what Project 28 was and, more 
importantly, what it was not going to be. In hindsight, we now realize 
that many came to believe and expect that Project 28 would be an actual 
end-state ``virtual fence'' system for Border Patrol agents that would 
immediately be replicated across the border without further research, 
development and testing. P-28 was never intended to be the final, 
integrated operational configuration. Additionally, it was never 
conceived that this type of system would simply expand across the 
entire border.
    Question 4. What does Project 28 not do today, now that it has been 
accepted, that you thought it would when the contract was awarded?
    Answer. Response was not provided at the time of publication.

   Questions from Ranking Member Mark E. Souder for Jayson P. Ahern, 
   Deputy Commissioner, Customs and Border Protection, Department of 
                           Homeland Security

    Question 1. When do you expect the first deployment of SBInet along 
our northern border? To what extent is DHS coordinating with Canadian 
officials in this effort? Will SBInet be integrated with technologies 
already deployed by the Canadians?
    Answer. Response was not provided at the time of publication.
    Question 2. When do you anticipate SBInet will be fully deployed 
along both U.S. land borders and what is the total projected cost?
    Answer. Response was not provided at the time of publication.
    Question 3. The President's fiscal year 2009 budget requests $41 
million for deployment of Project 25, a tactical communications system 
in El Paso, Rio Grande Valley. What are the timeline and scope of this 
phase of SBInet?
    Answer. Response was not provided at the time of publication.
    Question 4. When will the COP.5 and C3I task orders be completed? 
Will these be applied to the entire Arizona border? If so, please 
provide a timeline for development and deployment, as well as projected 
costs.
    Answer. Response was not provided at the time of publication.

 Questions From Chairwoman Loretta Sanchez and Chairman Christopher P. 
  Carney for David V. Aguilar, U.S. Border Patrol, Customs and Border 
              Protection, Department of Homeland Security

    Question 1. Have you talked with agents who have been trained on P-
28 concerning their experiences with it in the field? What have they 
told you about the performance? What do they like, what do they not 
like, and how will it need to be improved?
    Answer. Agents like the system's ability to provide some 
situational awareness in an environment that has been lacking in 
technology. With P-28, agents in the field are provided blue force 
tracking of other P-28-equipped vehicles that are geospatially 
displayed on a map. Targets that have been classified as likely 
violators are dispatched to them in the field and also geospatially 
displayed.
    P-28 provides a more efficient means of scanning the Area of 
Responsibility (AOR) for possible violators. With the integration of 
the radar sensors and surveillance equipment, the COP workstations 
identify and classify movement.
    One dislike is that the P-28 software was originally developed for 
a police dispatch-type environment. Even though this was how P-28 was 
proposed and put on contract, the dispatch-type environment has 
resulted in information being held in dispatch until the COP operator 
assigns the information to a unit or multiple units. This has created a 
bottleneck of sensor information to the agents in the field from the 
COP workstations. However, by doing P-28 as a technology demonstration 
project, we were able to get on-hands experience with a system and use 
it to better define and refine our requirements.
    In the future, a more real-time Command, Control, Communications, 
and Intelligence (C3I) system will need to be developed to best meet 
the needs of the Border Patrol as well as CBP as a whole. This type of 
C3I system will be better suited to the way operational decisions and 
deployments are made within CBP.
    Question 2. We have been told by line agents that while P-28 does 
provide some functionality today, it is still not a force multiplier. 
In other words, the same number of agents provides the same level of 
security that it did before P-28 was put in place. Do you agree with 
this?
    Answer. P-28 was designed to demonstrate key technologies and 
provide a platform to better inform our requirements definition. 
Although the P-28 system does not provide the force multiplier 
enhancements we envision the end SBInet system will provide, it does 
provide some efficiencies in detecting, identifying and classifying 
possible violators as well as increased situational awareness for 
agents in the field in an environment that has been lacking in 
technology.
    Question 3. We have been told about apprehensions that were made 
using Project 28 technology. Do you believe these would not have 
happened using traditional Border Patrol techniques, without the P-28 
technology?
    Answer. P-28 has placed resources, in the form of detection and 
surveillance, in an area that has previously been limited to unattended 
ground sensors as a means of detection. Nine P-28 towers deployed 9 
radar sensors and 27 cameras in an area where there had been limited 
surveillance activity using one IR camera mounted on a truck.
    P-28 provides a more efficient means of scanning the AOR for 
possible violators. With the integration of the radar sensors and 
surveillance equipment, the COP workstations, identify and classify 
movement.
    Some of the detections and apprehensions made with P-28 have taken 
place when other traditional means have been unsuccessful. As of 4/4/
2008, there have been 3,144 documented apprehensions attributed to P-
28.
    Question 4. With regard to the expectations for what the COP 0.5 
Task Order is expected to accomplish, we want to avoid any of the 
confusion that surrounds Project 28. To this end, please provide the 
acceptance criteria, both in narrative form and in detail (include 
attachments if necessary), for the COP 0.5 Task Order. Also, please 
describe plainly what new functionality you expect the Task Order to 
provide to the Border Patrol, as well as what it will do, and what it 
will not do.
    Answer. Response was not provided at the time of publication.
    Question 5. What does Project 28 not do today, now that it has been 
accepted, that you thought it would when the contract was awarded?
    Answer. P-28 meets what we contracted for. P-28 was the initial 
demonstration of the feasibility of SBInet's integrated technology 
concept. As such, P-28 was designed to be an operational prototype that 
could be tested, evaluated, serve as the initial building block for the 
system's future technology, and provide valuable lessons learned. It 
was not intended to be a final operational configuration. P-28 provides 
operational technology in an area that did not have these resources and 
has increased CBP's effectiveness in this area along the Arizona-Mexico 
border.

 Questions from Ranking Member Mike Rogers for David V. Aguilar, U.S. 
 Border Patrol, Customs and Border Protection, Department of Homeland 
                                Security

    Question 1. It is clear that one of the most crucial elements to 
securing our Nation's borders is having adequate Border Patrol staffing 
levels.
    How many Border Patrol Agents are currently deployed in the field?
    How many are in training?
    How many are in the pipeline?
    Are you on track to reach your target number of desired agents by 
the end of this year?
    Answer. As of March 29, 2008, there were 15,985 Border Patrol 
agents onboard, 1,264 agents in training, and 8,015 in the pipeline.
    We believe we are on track to have more than 18,000 Border Patrol 
Agents on board by the end of calendar year 2008.
    Question 2. In 2005, the Management subcommittee held a hearing on 
Border Patrol training and associated costs. At that hearing, a CBP 
Assistant Commissioner testified that it costs $179,000 to recruit, 
hire, and train one Border Patrol Agent.
    Do you know if that cost is still accurate, or has the cost been 
reduced since then?
    Answer. The $179,000 figure represented the budgeted cost for 
recruiting, hiring, training, equipping, and deploying a new Border 
Patrol Agent--to include salary costs, not just recruiting, hiring, and 
training. Budgeted costs for new Border Patrol Agents are updated 
annually. For the fiscal year 2009 budget, $159,642 is the budgeted 
cost for recruiting, hiring, training, equipping and deploying a new 
Border Patrol Agent--to include salary costs.
    The fiscal year 2009 figure is lower than figures used in the past 
because some costs (e.g., construction, ``build out,'' and relocations) 
have been removed and are now treated as separate budget line items.
    Question 3. According to the Department, in fiscal year 2007 
assaults on Border Patrol Agents rose 31% as compared with 2006. Acts 
of violence perpetrated against Border Patrol Agents, including 
rocking, is a serious problem.
    Could you please update the subcommittees on the scope of this 
problem?
    What plans does the Border Patrol have to upgrade its vehicles to 
include reinforced steel and shatterproof windows to increase 
protection for the Agents?
    Answer. As anticipated, the level of assaults on Border Patrol 
Agents along the southern border has increased as we have gained 
operational control and taken away sections of the border where 
smugglers once operated with impunity. The inability to freely conduct 
their illicit activities has frustrated these smugglers and led to 
their use of more violent tactics.
    This is evidenced by the following statistics: From October 1, 
2007, through March 31, 2008, there have been 577 assaults on Border 
Patrol agents Nation-wide. This represents a 35% increase as compared 
to the same time period in fiscal year 2007 and a 37% increase as 
compared to the same time period in fiscal year 2006. Of the 577 
assaults that have occurred in fiscal year 2008, there have been 424 
rocking assaults, with San Diego Sector experiencing the highest number 
of these types of assaults with 175.
    In the five sectors with the largest number of rocking assaults 
(San Diego, El Centro, Yuma, Tucson, and El Paso), the Border Patrol 
has vehicles with reinforced steel cages over the windows and/or 
armored vehicles with bullet resistant glass. These five sectors 
account for 408 of the 424 rocking assaults. Each sector determines the 
appropriate number of vehicles to retrofit based on the volume of 
rocking assaults and the patrol area. For instance, San Diego Sector 
retrofitted additional vehicles at the beginning of this fiscal year 
based on the increased rocking assaults occurring in an area requiring 
the presence of agents close to the border fence.
    In addition to the vehicle protection, Border Patrol has adopted 
less than lethal technology such as the FN-303 and Pepper ball launcher 
systems. These systems deploy ``paint-ball'' type projectiles filled 
with Oleoresin Capsicum powder for area saturation and kinetic impact 
to de-escalate violent situations. The Border Patrol continues to 
explore new technology to address border violence and to protect our 
agents.
Border Violence Protocols
    On March 3, 2006, a bi-national action plan to combat border 
violence and improve public safety was signed by Secretary Michael 
Chertoff and Carlos Maria Abascal Carranza, Secretary of the Interior 
for Mexico. This action plan set forth goals and objectives to ensure 
that the appropriate law enforcement agencies of the respective 
governments work together to provide an effective comprehensive joint 
response to incidents of cross-border violence and crime.
    In response to the aforementioned action plan, CBP created a 
headquarters bi-national working group to oversee the development and 
implementation of Border Violence Protocols along the southwest border.
    The Border Violence Protocols have been implemented in all 
southwest border sectors. Parties from both sides of the border meet 
monthly to discuss border violence issues and how to address them.

 Questions From Chairwoman Loretta Sanchez and Chairman Christopher P. 
     Carney for Gregory Giddens, Executive Director, Secure Border 
   Initiative, Customs and Border Protection, Department of Homeland 
                                Security

    Question 1. Per the original SBInet bidding process, offerors were 
told to propose their technical solution, as well as what they could 
construct for $20 million over a very short timeframe. Essentially, the 
Department created an incentive for the contractors to ``knock your 
socks off'' for $20 million so they'd have an opportunity at a much 
bigger payoff through follow-on SBInet contracts. Doesn't this 
structure almost guarantee that a contractor will overreach and 
overpromise? To some degree, didn't the Government set up the first 
operational SBInet task order for failure?
    Answer. The purpose of the ``Offeror's Proposed Task Order'' was to 
mitigate the Government's risk. CBP wanted to ensure that the 
contractor awarded the SBInet contract could demonstrate the 
feasibility of its proposed solution early enough in the development 
process so that course corrections could be made if necessary prior to 
awarding future operational task orders.
    CBP does not believe it created an environment that encouraged 
industry to over-promise, or placed industry in a position where it 
would fail to perform the proposed task order. Careful consideration 
was given to the evaluation criteria included in the SBInet 
solicitation, which supported CBP in focusing industry's attention and 
effort on the most important evaluation factors: the proposed SBInet 
solution; performance measures and quality assurance surveillance plan; 
the management plan; and performance risk.
    A team of operational and subject matter experts from within DHS 
evaluated all of the proposals in this area to ensure that: (1) They 
were technically achievable; (2) they demonstrated the feasibility of 
their overall technical approach; and (3) the price proposed was 
reasonable and realistic. Our experts found that Boeing satisfied these 
evaluation criteria with its proposed task order for the initial 
demonstration. The Project 28 prototype was designed to be a proof of 
concept of a tower-based integrated sensor and common operating 
picture; it was not intended to be the comprehensive, integrated SBInet 
system. CBP is now taking the many lessons learned from Project 28 and 
focusing on the development and deployment of the integrated SBInet 
solution.
    Question 2. We have been told that a lot of the lessons learned 
from P-28 will be useful for upcoming projects. What are these lessons, 
and how will you ensure that they are put to use as you move forward 
with SBInet?
    Answer. While the prototype technology deployed under P-28 is 
operational today and detecting illegal entrants for the Border Patrol 
agents, SBInet is moving forward to design and deploy a Block 1 
configuration of the system. As part of our ongoing design of the 
system, we are incorporating lessons learned from P-28. After reviewing 
and analyzing the lessons learned, we have categorized the challenges 
into the areas of program management, technology and acquisition. 
Specifically, areas that we are looking to improve and build on for 
future SBInet developments include expectation management, community 
and communications outreach, standard hardware integration, acquisition 
strategies and system training. Several technical, acquisition, and 
operational lessons have already been incorporated into our planning 
for future SBInet deployments. For example:
  <bullet> Commercial off-the-shelf components, even proven 
        technologies, cannot be integrated ``right out of the box'' in 
        the field without interface design, thorough testing, and 
        integration in the laboratory. SBInet is fully testing and 
        integrating the first operational configuration of the SBInet 
        solution in a Systems Integration Lab before testing in the 
        field.
  <bullet> The interfaces between the sensors and the COP are as 
        important as the technical characteristics of the sensors 
        themselves. The follow-on sensors selected for SBInet will have 
        common standard controls and interfaces.
  <bullet> The Project 28 towers had significant limitations due to the 
        use of satellite data links and the inherent problems with 
        latency and bandwidth. The follow-on operational configuration 
        will use microwave data links in lieu of satellite data links.
  <bullet> The P-28 COP software was based on a commercial civil system 
        used for the dispatch of public safety assets. This proved to 
        be inadequate for the command and control of a sensor net and 
        the distribution of a near real time situational picture.
    Question 3. Senior Department officials have told us that the 
acquisition plan for Project 28 was extremely risky. Do you agree, and 
if so what about it was risky?
    In retrospect, what steps should you have taken to mitigate those 
risks?
    How risky is the acquisition plan for the COP 0.5 task order?
    Why is it less risky than P-28?
    Answer. The acquisition plan for the SBInet system, including the 
``Offeror's Proposed Task Order'' (now known as Project 28), was 
aggressive from a schedule perspective but no less risky than similar 
major systems acquisitions throughout Government. Given the technical 
complexity of the acquisition and the unique requirements of Federal 
contracting, risk is unavoidable and must be managed. Given this 
reality the administration, DHS and CBP gave considerable thought and 
consideration to the overall acquisition strategy and plan for the 
SBInet system. For example:
  <bullet> The term of the contract was limited to total of 6 years, 
        including a 3-year base period with 3 1-year options.
  <bullet> To mitigate future cost risk, evaluations of teaming 
        agreements were conducted. This approach provided DHS the 
        opportunity to ensure these agreements do not bind the 
        Government to long-term pricing agreements that may not be 
        competitive in future years.
  <bullet> Comprehensive task order cost and price evaluations are 
        conducted on each task order to ensure competitive and current 
        market rates.
  <bullet> Organizational conflict-of-interest mitigation plans, 
        oversight, and technology reviews are in place to ensure that 
        the contractor, associated corporate entities, and 
        subcontractors do not inappropriately leverage their role as 
        ``system designer'' to drive solutions that would provide them 
        with an unfair competitive advantage on future competitions.
  <bullet> DHS retains the right and flexibility to separately compete 
        work to support systems implementation. For example, DHS may 
        opt to separately compete fence construction and installation 
        for a given project area. Alternatively, it could choose to 
        provide the contractor with furnished equipment and services 
        such as wireless telecommunications.
  <bullet> Although complex, the Department does not envision large 
        capital assets being needed to support the solution. The 
        absence of major capital asset acquisition and deployment 
        reduces the overall risk level to the program.
  <bullet> Strong program and contract management continues to be 
        developed to ensure proper oversight of the contract.
    Moreover, regarding Project 28 specifically, the purpose of the 
task order was to mitigate the Government's risk. DHS and CBP wanted to 
ensure that the contractor awarded the SBInet contract could 
demonstrate the feasibility of its proposed solution early enough in 
the development process that course corrections could be made if 
needed.
    The performance challenge experienced in the Project 28 task order 
involved inadequate systems integration of the technology. As a result 
of this lesson learned, Boeing has established a systems integration 
lab (SIL) that is being utilized to test the components and integrated 
system for future SBInet deployments. The lab will help determine the 
effectiveness of the hardware within our system of towers, sensors, 
communication, common operating picture hardware and software prior to 
deploying across the U.S. border.
    The purpose of the C3I/COP task order and Project 28 task order are 
fundamentally different. Project 28 was a proof of concept while the 
C3I/COP task order is to develop the SBInet operating system based on 
requirements developed during the past 18 months. The C3I/COP task 
order is designed to limit risk associated with a software development 
project. The scope of the C3I/COP task order includes Command and 
Control (C2) software development, requirements identification for 
data, communications, intelligence and facilities that are necessary to 
develop and test the software. The C3I/COP task order requires the 
software to be developed with user-defined requirements that form 
manageable ``builds'', tested in the field and released in increments 
over time. This development approach reduces risk by delivering 
smaller, more manageable software capability to CBP agents and 
officers.
    Question 4. In its fiscal year 2009 budget request, the Department 
has asked for $75 million for operations and maintenance on the 
physical border fence. It is our understanding that the Department 
intends to contract this work out to the private sector.
    Do you plan to award this task order under the Secure Border 
Initiative? If so, when?
    Given that Boeing has been awarded a $733 million task order for 
the fence, are we to expect that they will get the O&M contract too?
    Answer. The $733 million task order awarded to Boeing for fence 
supply chain management was to cover analysis and identification of 
suppliers; acquisition, distribution and storage of materials; and 
monitoring of critical supply and delivery metrics to allow for early 
problem identification and resolution. It is important to note that, 
based on ongoing discussions with Boeing, we expect the actual cost of 
this task order to be under $450 million.
    For current fence maintenance requirements, the SBI Tactical 
Infrastructure (TI) program has awarded Operations and Maintenance 
(O&M) contracts through the United States Army Corps of Engineers 
(USACE) Multiple Award Task Order Contracts (MATOC). For maintenance 
requirements beginning in early fiscal year 2009, SBI is developing a 
longer term O&M acquisition strategy for all tactical infrastructure. 
This acquisition strategy involves full and open competition which will 
begin in the summer of 2008.
    Question 5. With regard to the expectations for what the COP 0.5 
Task Order is expected to accomplish, we want to avoid any of the 
confusion that surrounds Project 28. To this end, please provide the 
acceptance criteria, both in narrative form and in detail (include 
attachments if necessary), for the COP 0.5 Task Order. Also, please 
describe plainly what new functionality you expect the Task Order to 
provide to the Border Patrol, as well as what it will do, and what it 
will not do.
    Question 6. What problems have been encountered to date with the 
COP 0.5 Task Order?
    Question 7. How much has been Boeing been paid on the COP 0.5 Task 
Order to date?
    Answer. The C3I COP software is being developed and delivered using 
a collaborative environment allowing end users to be directly involved 
to ensure solutions are tailored to meet their operational needs. The 
developer will incorporate a spiral approach that includes successful 
demonstrations of system performance and results in multiple releases 
of the system where each subsequent release provides an incremental 
addition of functionality and improvement in system capability.
    Release 0.5 is the first release of the C3I COP software. This 
release is intended to support the initial deployment of SBInet 
technology (scheduled to begin the summer of 2008).
    The C3I COP Release 0.5 software will provide, for Border Patrol 
Agents working in a station, control of cameras and a graphical display 
of radar and unattended sensor tracks that identify potential illegal 
activity. In addition, Border Patrol Agents will have an understanding 
of their situation and relative location to other agents through blue 
force tracking being displayed in the command center. For selected 
agents deployed in the field away from the station, Border Patrol 
vehicles will have the Release 0.5 software installed with touch screen 
capability to view sensor and blue force tracks.
    The COP Release 0.5 software will undergo thorough developmental 
and operational testing prior to acceptance. In accordance with the 
SBInet Software Validation and Verification Plan (SVVP), the software 
product will be evaluated to determine its readiness and accepted at 
each phase or stage of production. Results of the SVVP activities 
coupled with operational testing will form the basis of system 
acceptance.
    The C31 Task Order has a base period of 14 months and was awarded 
for $64.5 million. As of March 13, 2008, SBInet has paid Boeing 
$9,168,993 related to the C3I Task Order.
    Question 8. What does Project 28 not do today, now that it has been 
accepted, that you thought it would when the contract was awarded?
    Answer. Response was not received by the time of publication.

   Questions From Ranking Member Mark E. Souder for Gregory Giddens, 
   Executive Director, Secure Border Initiative, Customs and Border 
              Protection, Department of Homeland Security
    Question 1. When do you expect the first deployment of SBInet along 
our northern border? To what extent is DHS coordinating with Canadian 
officials in this effort? Will SBInet be integrated with technologies 
already deployed by the Canadians?
    Answer. CBP has identified the Detroit Sector's lower St. Clair 
River/northern Lake St. Clair border zones as the location for testing 
certain SBInet technologies for application in a maritime (river/lake) 
cold weather environment. The goal of the Northern Border Demonstration 
project is to develop a prototype that demonstrates how an integrated 
air, land and maritime security solution could improve operations in a 
selected area of the northern border. The demonstration project will 
also examine opportunities to improve port of entry (POE) security by 
integrating existing cameras and installing additional tactical 
infrastructure to funnel pedestrian traffic into the POE. Although this 
project may result in some improvements to operational capabilities and 
provide technical insight for a final SBInet solution, it will not be 
the final solution for the Detroit area or the entire northern border.
    Since September 2007, CBP has engaged and provided updates to the 
Canada Border Services Agency, Royal Canadian Mounted Police, and the 
Ontario Provincial Police on planned SBInet activities along the U.S.-
Canada Border.
    CBP will not be integrating Canadian technologies into SBInet for 
the Northern Border Demonstration project. For deployment of SBInet 
along the U.S.-Canadian border, CBP has not ruled out this possibility.
    Question 2. When do you anticipate SBInet will be fully deployed 
along both U.S. land borders and what is the total projected cost?
    Answer. CBP recently submitted the updated SBInet program cost and 
schedule projections in our 2009 President's budget request, as well as 
in our fiscal year 2008 SBInet Expenditure Plan. The SBInet Program is 
fully funded through 2008 to demonstrate key SBInet operational 
performance measures and production processes in two Border Patrol 
Stations. Subject to funding, the current plan is to complete 
deployment to Tucson in 2009, Yuma in 2010 and El Paso in 2011 at a 
cost of approximately $1.2 billion.
    Question 3. The President's fiscal year 2009 budget requests $41 
million for deployment of Project 25, a tactical communications system 
in El Paso, Rio Grande Valley. What are the timeline and scope of this 
phase of SBInet?
    Answer. El Paso Schedule: CBP's Office of Information and 
Technology (OIT) has contracted out the system design for the Project 
25 (P25) Tactical Communications System in El Paso, and expects the 
design to be complete in May 2008. The anticipated schedule for 
implementing, testing, and accepting the system runs as follows:
  <bullet> Complete acquisition of new frequency assignments: October 
        2008 *;
  <bullet> Complete negotiation of new radio frequency (RF) site 
        leases: April 2009 *;
---------------------------------------------------------------------------
    * These requirements have considerable external schedule risks. 
Specifically, radio frequency acquisition is dependent on approval from 
National Telecommunications and Information Administration (NITA), 
Department of Commerce. Site lease negotiation is dependent on site 
owners, and has proven to be one of the most significant schedule 
risks.
---------------------------------------------------------------------------
  <bullet> Acquire, program, and stage P25 Tactical Communications 
        infrastructure equipment and subscriber units (e.g., portable 
        and mobile radios, and dispatch consoles): no later than 
        October 2009;
  <bullet> Complete preparation (install equipment sheds, towers, 
        power, electrical grounding, tower installation) of radio 
        frequency sites: December 2009;
  <bullet> Install and optimize P25 Tactical Communications equipment 
        at RF sites: March 2010;
  <bullet> Conduct acceptance testing of equipment, correct/reengineer 
        system issues identified during testing, then conduct final 
        acceptance testing: September 2010.
    Rio Grande Valley (RGV) Schedule: CBP OIT has completed operational 
requirements gathering for the P25 Tactical Communications 
modernization in RGV. Once funded, RGV modernization will require 
approximately 30 months.
    Question 4. When will the COP.5 and C3I task orders be completed? 
Will these be applied to the entire Arizona border? If so, please 
provide a timeline for development and deployment, as well as projected 
costs.
    Answer. There is a single C3I task order (often referred to as the 
COP task order) with Boeing to develop and deliver releases of the COP 
software. COP 0.5 (the initial software release under the task order) 
will be completed in time to support our initial deployments to two 
locations in the Tucson Sector beginning this summer.
    The C3I task order will support the entire Arizona border.
    The C3I task order is funded for an initial period of 14 months, 
with the likelihood that it will be extended as we develop additional 
capabilities. This will be a spiral development activity, which means 
that future releases will add new capabilities as we continue to deploy 
along the border. The current task order was awarded for $64.5 million.

    Questions From Ranking Member Mike Rogers for Gregory Giddens, 
   Executive Director, Secure Border Initiative, Customs and Border 
              Protection, Department of Homeland Security
    Question 1. Do you believe that the technical problems that delayed 
the Department's initial acceptance of P-28 have been sufficiently 
resolved?
    Question 2. Do you plan to use any components from P-28 along other 
parts of the border?
    Answer. The Government conditionally accepted P-28 on December 7, 
2007, acknowledging 53 open discrepancies, but allowing Border Patrol 
use of the system to determine operational capabilities and concepts. 
Concurrently, Boeing worked to resolve system performance issues and 
discrepancies. During this period of operational testing, additional 
deficiencies were identified and subsequently corrected to DHS's 
satisfaction. Final acceptance occurred in February 2008.
    As good stewards of taxpayers' money, DHS held Boeing accountable 
for all contract deliverables, resulting in the delay in acceptance of 
P-28. As a result of the delay and minor technical issues that were not 
resolved, the Government received financial reparation of over $2 
million from the Boeing Company, effectively reducing the cost of P-28.
    We do not intend to use components of P-28 along other parts of the 
border. P-28 was a prototype and was designed to be a demonstration of 
critical technologies and systems integration. Concurrent with P-28, we 
have been developing the production equipment and software that will be 
tested in a laboratory prior to deployment to two locations in the 
Tucson Sector.
    Question 3. When do you intend to begin testing and ultimately 
deploying SBInet on the northern border?
    Answer. The Northern Border Demonstration will begin this year, and 
will test SBInet technologies along the U.S.-Canada border. The 
Northern Border Demonstration is currently in its planning phase. The 
goal of this Northern Border Demonstration is to develop a prototype 
that demonstrates how an integrated air, land and maritime security 
solution could improve operations in a selected area of the northern 
border. This demonstration project will also examine opportunities 
improve port of entry (POE) security by integrating existing cameras 
and installing additional tactical infrastructure to funnel pedestrian 
traffic into the POE. Although this project may result in some 
improvements to operational capabilities and provide technical insight 
for a final SBInet solution, it will not be the final solution for the 
Detroit area or the entire Northern Border. Full SBInet deployment 
schedule(s) for Northern Border Sectors have not been determined.
    Question 4. You last testified before our subcommittees in October 
2007.
    Since that time, what new developments have occurred?
    What problems have been identified, which ones have been addressed, 
and which ones remain?
    Answer. Since October 2007, we have completed 16.4 miles of 
pedestrian fence (PF) and 32.9 miles of vehicle fence (VF) bringing 
deployed fencing totals along the southwest border to 171.4 miles of PF 
and 142.4 miles of VF as of April 4, 2008. We fielded our initial proof 
of concept called Project 28 (P-28) along 28 miles of the Arizona-
Mexico border as an initial demonstration of the feasibility of 
SBInet's integrated technology concept.
    In addition to fielding P-28, we have gone through the structured 
process of generating operational requirements, and are now developing 
our first operational configuration of equipment and software that we 
will field in the summer of 2008. Pending successful integration 
testing early this summer, we will deploy our first two operational 
sites in Arizona by year's end. We are planning to complete the 
deployment of SBInet technology to the Tucson Sector in 2009, Yuma in 
2010 and El Paso in 2011.
    After the P-28 module was designed, installed, and the Boeing 
testing program was underway, technical deficiencies were identified. 
Consequently, the Government delayed acceptance of P-28 from the 
original target of early summer 2007. After Boeing fixed the majority 
of the deficiencies, the Government conditionally accepted P-28 on 
December 7, 2007, so the Border Patrol could begin using the system to 
determine opportunities for improvements, as well as learn how it would 
enhance their operational capabilities. During this time, Boeing worked 
to resolve the remaining system performance issues until only one 
issue, an infra-red camera (FLIR) flicker anomaly, remained. The FLIR 
flicker anomaly remained a key driver for final acceptance from an 
operational perspective and was considered to be critical to system 
performance. Boeing identified the root cause of the issue and upgraded 
the grounding systems on the towers in late January. Final testing of 
this solution indicated the problem was resolved. Of the 53 open items 
from conditional acceptance, all were closed except four with minimal 
operational impact that were waived in exchange for financial 
consideration.
    Consequently, CBP accepted P-28 on February 21, 2008. In 
consideration of the schedule delays and waived open items, Boeing has 
credited the Government $2.2 million in logistics, maintenance and 
support for the P-28 system.
    Through the development of Project 28, CBP has learned several 
valuable technical, acquisition, and operational lessons, and has 
already incorporated these lessons learned into our planning for future 
SBInet deployments. For example:
  <bullet> Commercial off-the-shelf components, even proven 
        technologies, cannot be integrated ``right out of the box'' in 
        the field without interface design, thorough testing, and 
        integration in the laboratory. SBInet is fully testing and 
        integrating the first operational configuration of the SBInet 
        solution in a Systems Integration Lab before testing in the 
        field.
  <bullet> The interfaces between the sensors and the COP are as 
        important as the technical characteristics of the sensors 
        themselves. The follow-on sensors selected for SBInet will have 
        common standard controls and interfaces.
  <bullet> The Project 28 towers had significant limitations due to the 
        use of satellite data links and the inherent problems with 
        latency and bandwidth. The follow-on operational configuration 
        will use microwave data links in lieu of satellite data links.
  <bullet> The P-28 COP software was based on a commercial civil system 
        used for the dispatch of public safety assets. This proved to 
        be inadequate for the command and control of a sensor net and 
        the distribution of a near real-time situational picture.

 Questions From Chairwoman Loretta Sanchez and Chairman Christopher P. 
 Carney for Richard M. Stana, Director, Homeland Security and Justice, 
                    Government Accountability Office
    Question 1. What are you hearing from agents in the field about 
what they think of Project 28 and SBInet more generally?
    Answer. SBI program officials and Border Patrol agents told us that 
although Project 28 did not fully meet their expectations, they are 
gathering lessons learned and are ready to move forward with developing 
SBInet technologies that will better meet their needs. In February 
2008, SBInet and Border Patrol officials identified issues that remain 
unresolved with Project 28. For example, the Border Patrol reported 
that problems remained with the resolution of the camera image at 
distances over 5 kilometers, while expectations were that the cameras 
would work at about twice that distance. Border Patrol agents also 
reported that they would have liked to have been involved sooner with 
the design and development of Project 28, since they are the ones who 
operate the system, and stated that it is not an optimal system. Border 
Patrol agents from the Tucson sector provided examples of Project 28 
capabilities that do not adequately support Border Patrol operations 
because of their design. For example, Border Patrol agents have had 
difficulties using the laptops mounted into agent vehicles to provide 
them with Common Operating Picture information. However, according to 
Border Patrol agents, Project 28 has provided them with improved 
capabilities over their previous equipment, which included items such 
as cameras and unattended ground sensors that were only linked to 
nearby Border Patrol units, not into a centralized command and control 
center. In addition, Border Patrol officials we spoke with at the 
Tucson sector noted that Project 28 has helped its agents become more 
familiar with the types of technological capabilities they are 
integrating into their operations now and in the future.
    Question 2. Mr. Stana, in your testimony you point out that under 
the Project 28 task order, Boeing was to provide the Department with a 
system with the ``capabilities required to control 28 miles of border 
in Arizona.'' Based on your analysis, did Boeing fulfill that 
requirement?
    Answer. The Project 28 task order required Boeing to work with U.S. 
Customs and Border Protection (CBP) in achieving operational control of 
a minimum of 28 miles of border. The task order contained specific 
performance standards, which were also reflected in the Quality 
Assurance Surveillance Plan. The Director of CBP's SBInet Acquisition 
Office told us the performance standards described in the Project 28 
task order and the Quality Assurance Surveillance Plan constituted 
performance goals, rather than firm requirements. Therefore, CBP did 
not hold Boeing to these performance measures. Boeing delivered and 
deployed the individual technology components of Project 28--such as 
the towers, cameras, and radars--on schedule. However, CBP delayed the 
implementation of the system due to Boeing's inability to integrate 
these components with the COP software. From June 26 through November 
19, 2007, Boeing submitted three corrective action plans, documents 
that defined Boeing's technical approach for correcting the problems 
associated with Project 28 and the steps that needed to occur for DHS 
to conditionally accept the system. DHS officially notified Boeing in 
August 2007 that it would not accept Project 28 until certain problems 
were corrected. In its testimony at the February 27, 2008 hearing, CBP 
reported that of the 53 open items from conditional acceptance, all 
were closed except four. These four items had minimal operational 
impact and were waived in exchange for financial consideration. In 
consideration of the schedule delays and waived open items, Boeing has 
credited the Government $2.2 million in logistics, maintenance and 
support for the Project 28 system. Consequently, CBP officials told us 
that Boeing had met contract requirements and on February 22, 2008, DHS 
announced final acceptance of Project 28.
    Question 3a. When Project 28 was awarded, we heard a great deal 
about how the contract was $20 million firm-fixed-price. We were told 
that unlike with previous failed border security technology projects, 
the risk to the Government was low, because no matter Boeing's costs 
the taxpayers would foot only the originally agreed-upon bill. Yet, in 
your testimony, you list a number of new task orders awarded to Boeing 
under SBInet. It seems the Department is paying Boeing to replace 
substandard radar, cameras, and other equipment for Project 28, and to 
develop and install new Common Operating Picture (COP) software to 
replace the existing, deficient COP technology at Project 28.
    Don't these new task orders undermine the assurances the Department 
gave about the Project 28 task order being firm-fixed-price?
    Question 3b. Is it possible that Boeing is trying to recoup its 
losses on the initial task order with work on these new task orders?
    Answer. In September 2006, CBP awarded a prime contract to the 
Boeing Company for 3 years, with three additional 1-year options. The 
prime contract establishes that only CBP's Office of Procurement is 
authorized to issue the task orders needed to obtain services and 
supplies under the contract, and CBP has the authority to approve or 
disapprove key subcontracts. As the prime contractor, Boeing is 
responsible for acquiring, deploying, and sustaining selected 
technology and tactical infrastructure projects. In this way, Boeing 
has extensive involvement in the SBI program requirements development, 
design, production, integration, testing, and maintenance and support 
of SBI projects. For example, in September 2006 Boeing was awarded a 
program management task order for $135.9 million related to, among 
other things, mission and systems engineering to develop and deploy the 
SBInet system. As of February 15, 2008, CBP had awarded eight task 
orders to Boeing, one of which was the Project 28 task order. The total 
firm-fixed-price for the Project 28 task order, awarded on October 20, 
2006, was $20.6 million. The Project 28 task order describes the 
project as a solution that includes the equipment and services 
necessary to achieve operational control of a minimum of 28 miles of 
border. More recently, in its testimony on February 27, 2008, CBP 
reported that Project 28 was designed to be a proof of concept and the 
first building block for the system's technology foundation. CBP stated 
in its testimony that while Project 28 was met with much public 
interest, it came to mean different things to different people. CBP 
reported that those interpretations diverged from what Project 28 was 
intended to be and what the Government contracted for, specifically, a 
task order segment of work that would demonstrate the technical 
approach and feasibility of the proposed overall SBInet solution. 
According to CBP, many lessons from Project 28 have been learned that 
will inform future technology development. While Boeing delivered and 
deployed technology components, such as towers, cameras and radars, 
both the SBI program office and Border Patrol officials told us that 
Project 28 did not fully meet their expectations and many of its 
components will be replaced during the next phase of technology 
development. This next phase, described by CBP as Block 1, is an effort 
to design, develop, integrate, test and deploy a technology system of 
hardware, software, and communications to the Yuma, Tucson, and El Paso 
sectors, with deployment beginning in summer 2008 and completion is 
expected in 2011.
    Question 4. Where do you think the Department went wrong with 
Project 28, and what lessons should be applied to future SBInet task 
orders, as well as to future border security projects?
    Answer. Officials from the SBInet program office said that although 
Project 28 did not fully meet their expectations, they are continuing 
to develop SBInet with a revised approach and have identified areas for 
improvement based on their experience with Project 28. For example, 
testing to ensure the components--such as radar and cameras--were 
integrated correctly before being deployed to the field at the Tucson 
sector did not occur given the constraints of the original 8-month 
timeline of the firm-fixed-price task order with Boeing, according to 
officials from the SBI program office. As a result, incompatibilities 
between individual components were not discovered in time to be 
corrected by the planned Project 28 deployment deadline. To address the 
issue of moving forward with SBInet development, Boeing has established 
a network of laboratories to test how well the integration of the 
system works, and according to the SBI program office, deployment will 
not occur until the technology meets specific performance 
specifications. Another lesson learned is that both SBInet and Border 
Patrol officials reported that Project 28 was initially designed and 
developed by Boeing with limited input from the Border Patrol. Border 
Patrol agents reported that they would have liked to have been involved 
sooner with the design and development of Project 28, since they are 
the ones who operate the system. Border Patrol agents are now operating 
Project 28 in the Tucson sector and have stated that it is not an 
optimal system and does not function as had been promised. However, 
SBInet and Border Patrol officials said that future SBInet development 
will include increased input from the intended operators. Finally, CBP 
stated in its February 27, 2008 testimony that while Project 28 was met 
with much public interest, it came to mean different things to 
different people. CBP reported that those interpretations diverged from 
what Project 28 was intended to be and what the Government contracted 
for, specifically a task order segment of work that would demonstrate 
the technical approach and feasibility of the proposed overall SBInet 
solution. CBP officials said that they could have done a better job 
managing expectations for the system and plan to do so for future 
projects.
    Question 5. Mr. Stana, in your testimony you refer to a $733 
million task order under the Secure Border Initiative to Boeing for 
``supply and supply chain management'' related to physical fence 
construction. What have you been able to learn from the Department or 
the contractor about how this task order was awarded and what Boeing's 
responsibilities will be under the task order? Have you had any 
difficulty obtaining this information?
    Answer. On January 7, 2008, CBP awarded Boeing with a letter task 
order for the development and implementation of a supply and supply 
chain management system solution to support the execution of tactical 
infrastructure projects. Specifically, under the letter task order, 
Boeing is to begin to analyze and provide a solution for managing and 
delivering supplies to the contractors. Also, the letter task order 
requires Boeing to provide the Government with certified cost and 
pricing data prior to finalizing the task order. According to SBI 
officials, the maximum price of for the task order will be $733 
million. On April 17, 2008, SBI officials told us that the terms of the 
task order are still being negotiated. As part of our ongoing SBI work 
for the subcommittees, we plan to review this task order once it's 
finalized.
    Question 6. What does Project 28 not do today, now that it has been 
accepted, that you thought it would do when the contract was awarded?
    Answer. The scope of the project, as described in the task order 
between Boeing and DHS, was to provide a system with the detection, 
identification, and classification capabilities required to control the 
border, at a minimum, along 28 miles within the Tucson sector. To do 
so, Boeing was to provide, among other things, mobile towers equipped 
with radar, cameras, and other features, a common operating picture 
(COP) that communicates comprehensive situational awareness, and 
secure-mounted laptop computers retrofitted in vehicles to provide 
agents in the field with COP information. The task order also contained 
specific performance standards, which CBP determined to be performance 
goals, rather than firm requirements. In October 2007, we reported that 
Boeing delivered and deployed the individual technology components of 
Project 28--such as the towers, cameras and radars on schedule. 
However, Boeing's inability to integrate these components with the COP 
software delayed the implementation of Project 28 over 5 months after 
the planned June 13, 2007 milestone when Border Patrol agents were to 
begin using Project 28 technology to support their activities. SBI 
program office officials told us that Boeing selected the system based 
on initial conversations with Border Patrol officials, but when 
deployed to the field, Boeing found limitations with the system. As we 
reported in October 2007, among other technical problems that CBP 
reported were that it was taking too long for radar information to 
display in command centers and that newly deployed radars were being 
activated by rain or other environmental factors, making the system 
unusable.\1\ According to officials from the SBI program office, Boeing 
worked to correct these problems from July through November 2007. As 
one example of improvement, Border Patrol officials reported that 
Boeing added an auto focus mechanism on the cameras located on the nine 
towers. However, SBInet and Border Patrol identified issues that remain 
unresolved. For example, the Border Patrol reported that as of February 
2008 problems remained with the resolution of the camera image at 
distances over 5 kilometers, while expectations were that the cameras 
would work at about twice that distance.
---------------------------------------------------------------------------
    \1\ GAO, Secure Border Initiative: Observations on Selected Aspects 
of SBInet Program Implementation,GAO-08-131T (Washington, DC: October 
2007).
---------------------------------------------------------------------------
   Questions from Ranking Member Mike Rogers, for Richard M. Stana, 
  Director, Homeland Security and Justice, Government Accountability 
                                 Office
    Question 1. You testified before our subcommittees in October of 
2007.
    Since that time, what new developments have occurred?
    What problems have been identified, which ones have been addressed, 
and which ones remain?
    Answer. In our February 2008 testimony \2\ before the 
subcommittees, we reported that:
---------------------------------------------------------------------------
    \2\ GAO, Secure Border Initiative: Observations on the Importance 
of Applying Lessons Learned to Future Projects, GAO-08-508T 
(Washington, DC: February 2008).
---------------------------------------------------------------------------
  <bullet> On February 22, 2008, DHS announced final acceptance of 
        Project 28, a $20.6 million project to secure 28 miles along 
        the southwest border, and is now gathering lessons learned to 
        use in future technology development.
  <bullet> CBP has extended its timeline and approach for future 
        projects and does not expect all of the first phase of its next 
        technology project to be completed before the end of calendar 
        year 2011.
  <bullet> Border Patrol agents began using Project 28 technologies in 
        December 2007, and as of January 2008, 312 agents in the area 
        had received updated training.
  <bullet> According to Border Patrol agents, while Project 28 is not 
        an optimal system to support their operations, it has provided 
        greater technological capabilities than did their previous 
        equipment.
  <bullet> As of February 21, 2008, the SBI program office reported 
        that it had constructed 168 miles of pedestrian fence and 135 
        miles of vehicle fence. Deployment of fencing along the 
        southwest border is on schedule, but meeting CBP's goal to have 
        370 miles of pedestrian fence and 300 miles of vehicle fence in 
        place by December 31, 2008, will be challenging and total costs 
        are not yet known.
  <bullet> CBP's SBI program office established a staffing goal of 470 
        employees for fiscal year 2008, made progress toward meeting 
        this goal and published its human capital plan in December 
        2007; however, it is in the early stages of implementing the 
        plan.
    Question 2. The GAO has been reviewing Border Patrol training and 
associated costs. What are the most recent findings, and do you believe 
the current costs for training are as low as they could be without 
sacrificing the quality of the training?
    Do you believe that DHS and Boeing have taken the necessary steps 
to ensure SBInet has sufficient program oversight?
    Answer. In March 2007 we reported the average cost to train a new 
Border Patrol agent at the Border Patrol Academy in Artesia, New Mexico 
was $14,700.\3\ This average cost was consistent with other Federal and 
non-Federal law enforcement training programs. The Border Patrol was 
considering several alternatives to improve the efficiency of the basic 
training program such as instituting a proficiency test for Spanish 
that would allow those who pass the test to shorten their time at the 
academy by about 30 days, potentially reducing the average cost to 
train a new agent. We also reported that the Border Patrol's training 
program had the attributes of an effective training program. However, 
we did not assess the extent to which these initiatives and attributes 
affected the quality of the training program.
---------------------------------------------------------------------------
    \3\ GAO, Homeland Security: Information on Training New Border 
Patrol Agents, GAO-07-540R (Washington, DC: March 2007).
---------------------------------------------------------------------------
    We, the DHS Office of the Inspector General (OIG), and the DHS 
Acting Deputy Secretary's office, have program oversight activities 
underway. We have work under way to review various components of the 
SBI program. Specifically, we are reviewing: (1) Technology 
implementation; (2) the extent to which Border Patrol agents have been 
trained and are using SBI technology; (3) infrastructure 
implementation; and (4) how the CBP SBI program office has defined its 
human capital goals and the progress it has made to achieve these 
goals. We plan to report on these objectives later this year. Also, as 
mandated in the Consolidated Appropriations Act, 2008,\4\ we examined 
DHS's fiscal year 2008 expenditure plan for the SBI program and expect 
to issue a report in late spring 2008. We are also reviewing SBInet as 
part of a broader look at DHS's use of performance-based services 
acquisition, an acquisition method structured around the results to be 
achieved instead of the manner by which the service should be 
performed. We expect to issue a report on this effort in spring 2008. 
In addition, we are conducting work to assess the development and 
deployment of SBInet's command, control, and communications systems, 
and surveillance and detection systems and expect to issue a report 
later this year. Finally, we have ongoing work on the oversight process 
of major acquisitions at DHS, including SBInet, and plan to report on 
the results of that review in the fall 2008.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 110-161, 121 Stat. 1844, 2047-2049.
---------------------------------------------------------------------------
    In August 2007, the DHS OIG initiated six audits related to SBI, 
that include reviews of: (1) CBP's SBInet small business opportunities; 
(2) the implementation of the Secure Fence Act of 2007; (3) CBP's 
construction of Border Patrol facilities; (4) the use of contractor 
support services; (5) oversight of the SBI and SBInet programs; and (6) 
SBI financial and program accountability. The DHS Acting Deputy 
Secretary conducted a program management review from September 11 
through 20, 2007 of the SBInet program. The program management review 
team included technical experts from, among other entities, the Defense 
Acquisition University, Massachusetts Institute of Technology's Lincoln 
Laboratory, John Hopkins University's Applied Physics Lab, and the 
Institute for Defense Analysis. The results of this review included 
findings and recommendations on system requirements, architecture, 
engineering, test and evaluation, logistics, and the acquisition 
strategy. SBInet officials told us that they are addressing these 
recommendations. Given the size, complexity, and importance of the 
SBInet program we believe that continued and enhanced departmental 
oversight is needed in order to increase the prospects for a successful 
outcome.

 Questions From Chairwoman Loretta Sanchez and Chairman Christopher P. 
   Carney for Roger A. Krone, President, Network and Space Systems, 
             Integrated Defense Systems, The Boeing Company
    Question 1. Mr. Krone, can you give us your assessment of Boeing's 
performance on Project 28--starting at the very beginning, up through 
the failed test this summer, and through to final acceptance?
    Answer. The performance of the Boeing team throughout Project 28 
was mixed, in that we made significant progress in some areas and could 
have performed better in others. The team successfully acquired and 
installed all the hardware and software required for the P-28 system 
within the time frame required to meet the proposed June 13, 2007, 
completion date. However the integration activity was not adequate to 
identify and resolve the technical issues such as the video interfaces, 
communications stability on the Agent's Mobile Data Terminals, and 
processing of radar tracks. Lack of sufficient schedule to resolve 
these issues in an integration laboratory led to these issues being 
discovered and resolved in the field, and consequently, we did not meet 
the schedule commitments and expectations of our CBP customer.
    From the test in July until final acceptance, Boeing, in 
conjunction with CBP, assembled a large contingent of technical 
experts, internal and external to the company, to resolve over 900 
issues. While the resolution of these issues resulted in significant 
improvement in the performance of the P-28 system, the process took 
longer than originally expected. Boeing's commitment to successful 
Final Acceptance of P-28 by our CBP customer never wavered, and we 
gleaned significant ``lessons learned'' from this experience. We are 
applying these lessons to our present activities with the CBP.
    Question 2. Mr. Krone, from Boeing's perspective what are the big 
lessons learned from Project 28 and how are you applying them to your 
ongoing SBInet work?
    Answer. The big lessons learned from Project 28 were: (1) The need 
for user (agents/officers) involvement in requirements generation and 
system design; (2) much more capable command and control software; (3) 
more rigorous integration lab testing prior to the field deployment; 
and (4) better alignment of expectations among users.
    All the lessons learned are being applied to our processes for 
future deployment. Relative to user involvement, we have implemented 
user working groups for requirements definition and system design, and 
are now using an industry standard technique called Rapid Application 
Development/Joint Application Development (RAD/JAD) to facilitate the 
interchange with Border Patrol Agents, OFO officers and ``super 
users''. To upgrade the command software, we initiated an effort in 
October 2007, which was formalized in December, 2007, to create the 
next generation Common Operating Picture. The first edition COP 0.5 
will be available this summer. To ensure components will work together 
as a system when deployed, we have invested in systems integration labs 
and are conducting rigorous testing in these facilities prior to 
deploying technologies and capabilities into the field. Finally, Boeing 
is making a significant effort to make sure, at every step of the way 
in every task order, that we define precisely what we intend to do in 
terms that all stakeholders understand.
    Question 3a. Please describe for us the status of the ``COP 0.5'' 
task order, including:
    What work has been done, what remains to be done?
    Answer. The following table provides dates of key program 
milestones that have been completed. All were completed on schedule.

------------------------------------------------------------------------
                 Milestone                         Date Completed
------------------------------------------------------------------------
C3I COP Task Order Kickoff................  7 Dec 2007.
Requirements Review.......................  20 Dec 2007.
Integrated Baseline Review................  5 Feb 2008.
Architecture Framework Review.............  6 Feb 2008.
Design Review.............................  19-20 Feb 2008.
RAD/JAD* Sessions.........................  23/24 Jan and 12/13 Feb
                                             2008.
0.5.1 Software Release....................  29 Feb 2008.
0.5.2 Software Release....................  27 Mar 2008.
------------------------------------------------------------------------
* RAD/JAD=Rapid Application Development/Joint Application Development.

    The work that remains to be done is enumerated in response to 
Question 3, part e.
    Question 3b. What problems you have encountered?
    Answer. We encountered key risks/issues as follows:
  <bullet> Staffing.--Aggressive staffing targets necessitated use of 
        Boeing company funds to ``hot start'' staffing, which has been 
        accomplished.
  <bullet> Task Order Contract Structure.--The use of multiple task 
        orders can introduce schedule misalignment between system 
        segments that are required to be integrated. We are 
        intensifying the effort to coordinate work among multiple task 
        orders within the SBInet IDIQ contract to reduce this risk.
  <bullet> Correlation and Fusion.--While we have achieved significant 
        improvement over the previous P-28 capability we are applying 
        lessons learned to implement even more advancements in the 1.0 
        version of the COP.
    Question 3c. How you incorporated lessons learned from Project 28?
    Answer. The most significant lesson learned from P-28 with respect 
to the development of COP 0.5 was the need to have users (agents/
officers) involved in the requirements generation and design. We used 
an industry standard technique called Rapid Application Development/
Joint Application Development (RAD/JAD) to bring Border Patrol Agents, 
OFO officers and ``super users'' together with Boeing developers to 
understand and refine system requirements. This process complimented 
our rigorous Systems Engineering approach and allowed multiple 
interactions between users and developers over the course of the three 
software builds.
    Question 3d. What steps you have taken to build on the BorderNet 
project?
    Answer. The Boeing team made multiple trips to Douglas, Arizona, to 
interview BorderNet users and observe operation of the BorderNet 
system. The design of the Mobile Data Terminal (MDT) was heavily 
influenced by those interactions. Our understanding of the Concept of 
Operations (CONOPS) and system utility were also greatly advanced 
through the process.
    Key CBP BorderNet leaders were consulted and engaged throughout the 
development of the 0.5 COP. Their participation in key program 
milestones (above table) and RAD/JAD sessions allowed the Boeing team 
to understand the importance of the BorderNet project in refining the 
needs of the Border Patrol.
    Key BorderNet components were identified and are currently under 
evaluation. These components include ``Agent Command'' software for 
Mobile Data Terminals (MDT) and ``Fusion Command'' software for RADAR 
correlation and fusion. The BorderNet provider is now part of the 
Boeing Team and is working on the COP development.
    Question 3e. What is your time frame for completing the task order, 
including all milestones and your current detailed estimate for 
testing, deploying, and obtaining acceptance?
    The following chart contains the remaining COP 0.5 development 
milestones and completion dates:

------------------------------------------------------------------------
                 Milestone                         Date Completed
------------------------------------------------------------------------
Informal Factory Qualification Testing      1 May 2008.
 Completed.
Test Readiness Review.....................  NLT 28 June 2008.
System Level Test.........................  (After integration with
                                             Block 1 Hardware).
Production/Operational Readiness Review...  15 July 2008.*
------------------------------------------------------------------------
* Last Milestone for version 0.5 COP.

    Question 4. What does Project 28 not do today, now that it has been 
accepted, that you thought it would when the contract was awarded?
    Answer. The Project 28 system has all the functionality that was 
planned for it when the contract was awarded. There are, however, 
functions that do not work as well within the CONOPs of the Border 
Patrol and the P-28 environment as we had envisioned. Examples include 
ease of use of the COP and the robustness of radar data processing.

   Questions From Ranking Member Mark E. Souder for Roger A. Krone, 
 President, Network and Space Systems, Integrated Defense Systems, The 
                             Boeing Company

    Question 1. What is the process for companies that are not 
currently part of the SBInet industry team, to offer their solutions or 
products to the SBInet toolkit? What opportunities will exist during 
future phases of deployment to incorporate new solutions within the 
various tool categories?
    Answer. Needs of the program are described on the Program Web site, 
http://www.boeing.com/defense-space/SBInet/index.html. Companies 
wishing to offer solutions or products to the SBInet toolkit should 
register their product and interest on the Web site using the link 
provided. Additionally, SBInet program personnel continue to conduct 
additional outreach to industry. They participate in several outreach 
events annually, many focusing on small businesses, in which program 
needs are discussed and industry feedback received. The next major 
opportunities to participate in the program will be in the areas of 
urban surveillance technologies, maritime surveillance technologies, 
and remote cold climate surveillance technologies.
    Question 2. Can prospective SBInet partners have their product 
tested at the integration lab in Huntsville or another location, to 
identify strengths and weaknesses and modify their product to meet the 
needs of SBInet?
    Answer. Use of the Boeing Systems Integration Lab (SIL) in 
Huntsville as a general test and development facility for aspiring 
suppliers is not currently in the scope of the program. While some 
individual interface and integration testing is conducted on newly 
selected products, the bulk of individual equipment testing is expected 
to have occurred prior to delivery of the equipment to our lab.
    Question 3. I understand that Boeing is under contract with DHS to 
develop and implement a supply and supply chain management system 
solution for SBInet physical infrastructure projects. Can you describe 
the progress that is being made under this task order?
    Answer. Good progress is being made. Boeing's scope of work for 
this task order is to supply primary steel and wire mesh raw material 
for the various fence configurations. Boeing completed the following 
activities since the letter contract award on January 7, 2008:
  <bullet> Analysis of Alternatives Report was submitted on January 21, 
        2008.
  <bullet> Selected steel distributor and awarded purchase order on 
        March 14, 2008.
  <bullet> Selected wire mesh supplier and awarded purchase order on 
        March 14, 2008.

     Questions From Ranking Member Mike Rogers for Roger A. Krone, 
 President, Network and Space Systems, Integrated Defense Systems, The 
                             Boeing Company

    Question 1a. You last testified before our subcommittees in October 
of 2007.
    Since that time, what new developments have occurred?
    Answer. Since October 2007, several significant developments have 
occurred.
  <bullet> Boeing completed work enabling the U.S. Government to accept 
        the P-28 System in February 2008.
  <bullet> A new Common Operational Picture software application is 
        under development. Work is progressing on schedule, and the 
        first version is due out this summer.
  <bullet> Boeing has invested company funds to support DHS in the 
        creation of new facilities to conduct the increased testing. We 
        built a System Integration Lab in Huntsville, Alabama, to test 
        and integrate system components in a lab environment prior to 
        installing them in the field. In Northern Virginia, we have 
        created two additional laboratory facilities. The first is a 
        Command, Control, Communications and Intelligence (C3I) Common 
        Operating Picture Rapid Application Development/Joint 
        Application Development (RAD/JAD) Lab to assist in the work on 
        the next generation Common Operating Picture. The second is a 
        Mission Analysis and Assessment (MA&A) Lab to improve our 
        capabilities to design and model the future lay-downs of the 
        system. The labs are operational now and the MA&A lab will be 
        fully functional this spring. All of these facilities are 
        allowing joint development by contractor and Government user 
        teams.
  <bullet> A new Integrated Product Team has been established to assist 
        CBP in the implementation of improved intelligence operations, 
        including the integration and implementation of existing 
        intelligence solutions.
    Question 1b. What problems have been identified, which ones have 
been addressed, and which ones remain?
    Answer. As noted above, the most significant problems we 
experienced were: (1) The need for user (agents/officers) involvement 
in the requirements generation and system design; (2) a much more 
capable command and control software; (3) more rigorous integration lab 
testing prior to the field deployment; and (4) better alignment of 
expectations among users. The actions taken to address these issues 
were discussed as part of the answer to Question 2.
    Remaining technical challenges include radar data declutter and 
post-processing, further improving ranges of both electro-optical and 
infrared sensors, software algorithms to allow the fusion and 
correlation of data, and low-cost, high-bandwidth, scalable 
communication solutions. The team is working to address these issues in 
the future.

                                 <all>

</pre></body></html>
